<html>
<title> - PROTECTING CHILDREN ON THE INTERNET</title>
<body><pre>[Senate Hearing 109-606]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-606
 
                  PROTECTING CHILDREN ON THE INTERNET

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 19, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
30-054                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 19, 2006.................................     1
Statement of Senator Allen.......................................     7
Statement of Senator Burns.......................................     5
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................     5
Statement of Senator Bill Nelson.................................     6
Statement of Senator Pryor.......................................     6
Statement of Senator Stevens.....................................     1

                               Witnesses

Burrus, Jr., James H., Deputy Assistant Director, Criminal 
  Investigative Division, Federal Bureau of Investigation........     8
    Prepared statement...........................................    10
    FBI Publication, entitled A Parent's Guide to Internet Safety    22
Cambria, Jr., Paul J., General Counsel, Adult Freedom Foundation.    48
    Prepared statement...........................................    50
Lincoln, Hon. Blanche L., U.S. Senator from Arkansas.............     2
Lordan, Tim, Executive Director, Internet Education Foundation 
  (IEF)..........................................................    43
    Prepared statement...........................................    45
Parsky, Laura H., Deputy Assistant Attorney General, Criminal 
  Division, Department of Justice................................    11
    Prepared statement...........................................    13
Platt, Tatiana S., Chief Trust Officer/Senior Vice President, 
  Integrity Assurance, America Online, Inc.......................    36
    Prepared statement...........................................    37
Weaver, III, James B., Professor, Communication and Psychology, 
  Department of Communication, Virginia Polytechnic Institute and 
  State University...............................................    28
    Prepared statement...........................................    30

                                Appendix

Cambria, Jr., Paul J., General Counsel, Adult Freedom Foundation, 
  supplementary information......................................    65
Sunlove, Kat, Legislative Affairs Director, Free Speech 
  Coalition, prepared statement..................................    66


                  PROTECTING CHILDREN ON THE INTERNET

                              ----------                              


                       THURSDAY, JANUARY 19, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good afternoon. We are finding that the 
Internet is increasingly a place where Americans turn to get 
information, do research, and exchange ideas. And increasingly, 
our children are looking to the Internet for their information. 
Given the increasingly important role of the Internet in 
education and commerce, it differs from other media, like TV 
and cable, in that parents cannot just foreclose the Internet 
from their children altogether and expect them to be prepared 
to do their homework and succeed in life. Even more so than TV 
and cable, the Internet contains material inappropriate for 
children. As the Internet continues to evolve and new offerings 
like peer-to-peer evolve, we must determine what we can do to 
protect children as they continue to use computers and the 
Internet for their education. Particularly, as different 
domains, which are similar to zones, develop, we must ask if 
we're doing enough to create safe kid zones similar to family 
tiers.
    Now, we will work within the confines of the First 
Amendment, but we must do what we can to shield children from 
inappropriate and pornographic content, no matter where it 
comes from. We need to understand whether filtering 
technologies available to parents are effective. We also want 
to examine the Children's Online Protection Act, which is now 
under court review. Even today, the Administration has 
announced new efforts to uphold that law.
    Do you have any opening statements you wish to make?
    Senator Inouye. Just a short one.
    The Chairman. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, for years this committee has 
wrestled with the issue of pornography and the measures to 
protect children from it. However, in many ways, technology has 
made an already difficult task even more difficult. As you 
pointed out, Mr. Chairman, the growth of the Internet as a 
communication medium allows salacious material to be 
distributed far more easily to children, and it also provides 
those who would see the Internet to prey upon children an 
anonymity, which often is used to evade detection.
    In light of these harms, I think it is entirely appropriate 
that we review what steps can be taken to assist parents in 
protecting their children from inappropriate material.
    I'd just like to point out that Internet sites containing 
pornography have grown. The number of child-pornography 
websites is estimated to be 100,000 today, and that number is 
growing and increasing every day. And I hope to have my 
statement put in the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today, we continue the discussion on broadcast decency. We have 
seen some important developments since our November 29th Forum, but we 
still have work to do. We all appreciate the efforts that Jack Valenti 
and Kyle McSlarrow have undertaken to address how best to protect our 
families from viewing indecent and violent materials on TV.
    We have a difficult task ahead of us, but one that must succeed in 
many areas--indecency, violent content and sanctions.
    The Kaiser Family Foundation's most recent study, released in 
November, provided further evidence that racy TV programming remains 
increasingly prolific. The networks have little incentive to reverse 
this trend, as it continues to attract viewers and market share.
    At a minimum, we hope to provide parents with the information and 
tools to control the flood of materials they can view at home. We also 
have a number of legislative proposals before the Committee that would 
raise fines and impose other remedies.
    While indecent content continues to receive the lion's share of 
attention, violent content is an equal concern. Violent content has 
proven to have a strong, negative, anti-social effect on young viewers, 
so it is essential that we address TV violence as well. Senator 
Rockefeller's and Senator Hutchison's legislation wisely emphasizes 
this issue, and I am an enthusiastic co-sponsor of their bill. I hope 
that the Committee will consider their proposal in the near future.
    I thank our witnesses for their continued participation in this 
effort.

    The Chairman. Yes, sir.
    In deference to Senator Lincoln, who I understand has 
another engagement, I would ask the other Senators to withhold 
and we'll listen to Senator Lincoln.

             STATEMENT OF HON. BLANCHE L. LINCOLN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. And a special 
thanks to both of you gentlemen, who I have tremendous respect 
for. Not only do you tackle the popular issues, but you also 
tackle the difficult issues. And this issue happens to be both 
difficult, as well as popular, in many, many American 
households. So, I want to thank you all for allowing me to 
participate in this hearing today, and for moving forward in 
the research we need to make of what we can do to make 
America's families safe again.
    As a mother of two young boys, this issue hits home for me, 
as well as being a Senator and representing the people of 
Arkansas. And, as Senator Pryor, on this committee, knows, it's 
an issue that weighs very heavily on the minds of parents 
across our great State of Arkansas. And that's why I commend 
all of the distinguished Members of this committee for bringing 
these panelists here together for an open discussion about how 
we can keep our children safe online. It is such an important 
issue, and it is one that I hope we can work to address in this 
Congress.
    Let me begin by saying that, without a doubt, I know in my 
heart, and I'm sure you agree, that parents are truly the front 
line of defense. Parents must closely monitor their children's 
activities, online and elsewhere. They must educate them about 
the potential dangers, whether it's sexual predators or 
inappropriate material on adult websites. But I have to 
emphasize, they cannot do it alone. Parents in today's world 
cannot do that alone.
    When I was growing up, I would go downtown on Saturdays 
with my grandfather to his office. We'd go to the neighborhood 
drugstore, and oftentimes he would walk off to have a cup of 
coffee with some of the other guys from downtown, and I'd mill 
around the drugstore. If I would in any way come close to 
buying or doing something that my parents wouldn't have 
approved of, if I had gone to look at inappropriate material in 
that drugstore on Main Street, you could be sure that at least 
a dozen people in that drugstore would have called my parents, 
let them know exactly what I was up to, popped my hand, drug me 
out on the street, called my grandfather and said, ``This is 
not right.''
    That's not the world we live in today. Main Street then, 
and Main Street today are very different. The place that we 
least expect danger for our children happens to be in our own 
family rooms, where their access to the Main Street of today 
occurs on the Internet. Today, it can be difficult for parents 
to know what their kids are up to, even when they are in the 
private confines of their own home. The Internet is literally 
transforming the experience of growing up in America today, in 
a way that is much different from the way that parents of today 
grew up, the way that many of us grew up.
    Unfortunately, despite filtering and blocking technologies, 
children are accessing more and more sexually explicit material 
at home, on their family computer. They're being targeted by 
industries, using names that are familiar and comfortable to 
children, so that when they plug those names in, those 
comfortable names that they know, or names that they may be 
using at a young age for research, like whitehouse.com or Elmo, 
they come up with sexually explicit material. There's no one 
there to pop them on the hand or drag them away, as there was 
in the drugstore for me, unless that parent is looking over 
their shoulder at all times.
    With the spread of wireless handheld devices, the Internet 
can also bring inappropriate materials to places like the 
school bus or the mall, where parents can't always be there to 
provide the necessary supervision. It is this aspect of the 
Internet that has eroded the capacity of parents to control 
what their children are exposed to and at what age they are 
exposed to it.
    According to the Third Way report released last summer, the 
largest group of consumers of Internet pornography are youth, 
ages 12 to 17. Perhaps most shocking, the average age at which 
children are first exposed to pornography on the Internet today 
is 11 years old. Gentleman, my twin boys are 9\1/2\, and it 
scares me to death.
    Now, I would be remiss not to acknowledge the exemplary 
efforts of many Internet service providers and other companies 
who have developed and improved the content-filtering 
technology available to parents. And I have no doubt that 
without their efforts the statistics would be much higher than 
they are today. But there is more that we can do. And we 
should.
    Last year, I introduced legislation, along with several of 
my colleagues, that would apply the same age-verification 
requirements to pornographic sales over the Internet that are 
already applied to these same sales on Main Street. The 
technology is available, yet too few adult websites are taking 
the extra step to create another obstacle, another barrier, 
that can keep minors from accessing or stumbling upon 
inappropriate online material. By requiring adult sites to use 
age-verification software, my legislation is a commonsense 
approach to help responsible vendors keep children from viewing 
material online that is already illegal for them to purchase on 
Main Street. My bill would also provide the necessary resources 
to help law enforcement and others combat sexual predators and 
criminal activity that exists online.
    We know that billions of dollars are made each year on the 
Internet catering to the pornographic desires of pedophiles, 
who, in turn, are using the anonymity of the Internet to 
approach and solicit our children. The Wall Street Journal 
published an article earlier this week describing the extremely 
profitable business distributing child pornography online has 
become. Subscribers are willing to pay up to $75 a month to 
access these illegal sites. We must boost the budgets of law 
enforcement so that they have the tools to crack down on this 
criminal activity.
    We also need to invest in research and development, to 
encourage the creation of new and better blocking and filtering 
technologies for parents.
    But, in my view, Mr. Chairman, these are not costs that 
should fall on the backs of ordinary taxpayers and their 
families, the working families of this country. These are costs 
that have arisen as a direct result of the rise of the online 
pornography industry, now an estimated $12-billion-profit 
industry--more than the three major networks combined. It is on 
those who profit from this business that the burden of paying 
for the associated costs should fall. This is why my bill 
creates a new Internet Safety and Child Protection Trust Fund 
financed by a 25 percent excise tax on Internet pornography 
transactions. This excise tax could generate up to $3 billion 
in annual revenue to finance tougher law enforcement, better 
blocking and filtering technologies, and greater educational 
efforts to keep children safe online. We already spend almost a 
half a billion dollars annually of taxpayers' dollars to combat 
the repercussions of what comes from Internet pornography.
    I recognize that my legislation is not a silver bullet, but 
I believe it is a necessary step, an important step, forward in 
the effort to protect our children in this Internet age. The 
Internet does not have to be just a source of bad material. It 
is also a source of very important materials. It opens the 
world of knowledge and exposure to many, many interesting 
things of history and technology to our children. But it must 
be used properly. And when our children are using that 
Internet, we have the responsibility, not just as parents, but 
also as legislators, to give parents the greatest tools 
possible to make sure that our children are safe in this new 
Main Street that we have created.
    I thank you all for letting me testify here today, and I 
look forward to working with you to address the issue that so 
many of our American families face.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Burns?
    Senator Burns. Am I supposed to ask a question?
    The Chairman. Unless--do you have an opening statement?
    Senator Burns. I don't have an opening statement. I thought 
Senator Lincoln had a great opening statement. And that suits 
me just fine, but I will iterate one thing.
    The Chairman. Other people do have a statement, Senator.
    Senator Burns. Oh. Well, OK, then I'm going to make my 
statement, then.
    The Chairman. That's fine.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I would have to agree with Senator Lincoln 
on one thing. Main Street hasn't changed. It's just in her home 
now. Where do you keep the computer in your house?
    Senator Lincoln. We have one computer that has Internet 
access, and it is in the family room, in the most visible room 
and visible spot. And my children know that they are not 
allowed to go on the Internet unless one of us are with them.
    Senator Burns. Thank you. Mine's in the kitchen.
    The Chairman. Thank you very much, Senator.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, thanks to our colleague, 
Senator Lincoln, for bringing the subject up so vividly. We 
appreciate it. Because this morning we learned about indecency 
on TV, and it's a serious problem that threatens our families, 
but pornography on the Internet is even more insidious, because 
you can find it so easily, and monitoring it, supervising it, 
in the family, even in your own house, is a very difficult 
problem.
    So, we find pornography distasteful, but we also realize 
that maybe it's going to be impossible to eliminate it entirely 
from our society, but we've got to work at it. That doesn't 
mean we have to sit by while our children are exposed to an 
explosion of pornography on the Internet. And, make no mistake, 
an explosion is exactly what we're talking about.
    I just showed our colleague from Arkansas what--some of the 
things that we're talking about. Five years, between 1998 and 
2003, the number of pornography-related Internet sites 
increased from 14 million to 260 million. You know, that's--the 
comprehension of that is almost impossible, the vast pervasion 
that it's made in our society. There's almost one pornographic 
website for every person in the country. Within all of those 
websites out there, they're bound to turn up when children use 
Internet search engines to look for information related to 
their homework or other innocent topics. But one glimpse of 
something like that is an arresting moment. The kid says, 
``Hey, what's going on there?'' It's terrible. Obviously, 
children shouldn't be exposed to that kind of image. But child 
pornography is illegal, because it turns innocent children into 
victims. And the pornographic sites on the Internet include an 
estimated 100,000 items that feature child pornography.
    In 2001, the National Center for Missing and Exploited 
Children's cyber-tip line received 21,600 reports of child 
pornography. In 2004, it went from 21,600, in 2001, to 106,000 
reports over a 4-year period.
    Mr. Chairman, this is an appropriate reason for us to take 
action on Internet pornography, and I applaud the efforts of 
the Department of Justice to date. There have been notable 
successes in busting major child-pornography businesses, 
including an international case brought in the District of New 
Jersey. But we've obviously got to do more. These statistics 
are alarming, and our work is just beginning. But, thank you, 
Mr. Chairman, for initiating this activity today.
    The Chairman. Thank you very much, Senator.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Mr. Chairman, I want to find out why 
the filtering technologies are not working. And I also want to 
alert the Committee that online porn is being enhanced by spam 
and by spyware--spyware, insidiously entering into the computer 
and suddenly taking over your computer. And you can imagine, on 
a child's computer, what that could mean as a way of entry for 
pornography right into the child's computer.
    On spam, obviously the unwanted messages that we all get in 
the e-mail--I'll give you example. My Tampa office, that is 
within the secure confines of the Federal courthouse in 
downtown Tampa, over one night, you come in the next morning, 
25 unwanted e-mails, of which five to a U.S. Senate office, are 
pornography. This is the kind of insidious evil that is 
creeping in, and especially that is victimizing our children. 
And I want to know, why are the filtering technologies not 
working now?
    The Chairman. Thank you very much, Senator. They're coming 
right into this building, as a matter of fact. I got a lot of 
them this morning.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. I want to thank my 
colleague for her leadership on this, and thank you for 
continuing this conversation. I think it's very important and 
there are a lot of issues. Senator Nelson mentioned some. 
Senator Lautenberg mentioned some. We've all talked about these 
in some ways before.
    But I remember, back when I was in the Attorney General's 
office in Arkansas, we worked hard to try to educate parents 
about things--ways to protect their children online. And I want 
to tell you, since those days, there's been an avalanche of new 
developments and new technologies and new websites. And I just 
hope that the Congress will do something about this and make 
the Internet a safer place.
    Thank you.
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for holding a 
hearing this afternoon. This morning, we were concerned about 
our children, as far as television is concerned; this 
afternoon, over the Internet. And I look at the Internet, as 
many of you all heard me say, it's the greatest invention since 
the Gutenberg press for the dissemination of information and 
ideas. But, just like anything else, whether it's mail, 
television, or telephone lines, they can be used in the wrong 
way.
    And, as far as kids are concerned, parental controls are 
very important. And, just like Senator Lincoln, we have young 
children. We try to monitor, we have filters. Our filters 
actually, the ones we've put on, in the last year or so, have 
worked. But the things that Senator Nelson was talking about, 
that used to happen to our computers, not just to the kids but 
Susan and our computer, just ruins the whole computer, beyond 
the offensive content on it.
    I look forward to this hearing, to hear from AOL--and 
Senator Nelson had questions and so forth--and what AOL is 
doing. I think a lot of the providers are recognizing that 
consumers are demanding this. What is happening with this, 
whether it's spyware, whether it is spam, or whether it is--
and, of course, they mix together on the pornography issue--
further ruining the enjoyment and use of the Internet. And so, 
I think there's an interest on the part of the Internet 
industry, or the Internet service providers, to help out in 
this regard.
    I've been supportive also of the Internet Content Rating 
Association, encouraging content providers to label their 
websites and filters, as far as libraries are concerned. They 
end up with a lot of litigation on that from time to time, but 
it makes a great deal of sense. In our Commonwealth of 
Virginia, our State legislature, with the new attorney general, 
Bob McDonald, is putting forward several bills that have to do 
with requiring software filters at libraries that block 
Internet access to child pornography and other obscene and 
harmful material, requiring officers at schools to avoid 
dangerous and inappropriate material on the Internet, and 
educating. And then there's, and this is going to be a 
controversial one, prohibit the facilitating of payment for 
accessing child pornography over the Internet. Under no 
circumstance is child pornography legal. There may be, for 
adults, certain things that are legal. Child pornography, under 
any circumstance, is illegal. And no one should be involved in 
allowing that to profit.
    And so, that's something that's happening in the 
Commonwealth of Virginia. I think we're going to get called on 
to act here responsibly, because this is not just a State 
issue, this is an international issue. And we do have law 
enforcement all around the country and States, even Bedford 
County, Virginia, and others, working on such matters. But we 
need to work as best as we can to allow the free flow of 
information, access to information, but also empower 
individuals to stop this pornography that is unwanted, and 
particularly unwanted to the eyes of young people.
    Thank you, Mr. Chairman. I look forward to learning from 
our witnesses.
    The Chairman. Well, thank you very much. Thank you, Senator 
Lincoln.
    We'll call our first panel, which is James Burrus, Jr., 
Deputy Assistant Director of the Criminal Investigative 
Division, the Federal Bureau of Investigation; and Laura 
Parsky, Deputy Assistant Attorney General, Criminal Division, 
the Department of Justice.
    I might state, while they're being seated, we did pass the 
Child Online Protection Act of 1998. It has been challenged in 
court. And I'm sure that the people from the Department of 
Justice are going to comment about that. I hope they will. But 
in the case of Ashcroft versus ACLU, the Court of Appeals for 
the Third Circuit affirmed a district-court decision that 
enforcement of the section concerning distribution of 
pornography on the Web should be enjoined because the statute 
violates the First Amendment. This is available to anyone that 
wants to look at it.
    Also, today there is a story in The Mercury News, in 
California, about the Administration's request to seek the 
databases from the search engines on the Web to determine how 
much pornography is being transmitted to children now.
    But, Mr. Burrus, you're first, please.

 STATEMENT OF JAMES H. BURRUS, JR., DEPUTY ASSISTANT DIRECTOR, 
      CRIMINAL INVESTIGATIVE DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Burrus. Good afternoon, Chairman Stevens.
    The Chairman. You might want to turn your mike on and pull 
up just a little.
    Mr. Burrus. Test. OK.
    Good afternoon, Chairman Stevens, Ranking Member Inouye, 
and Members of the Committee. I appreciate the opportunity to 
appear and provide testimony about the FBI and its work on 
Internet-based obscenity and child pornography.
    The FBI is taking an aggressive course of action in the 
area of obscenity. The FBI formed an Adult Obscenity Squad, 
which is located in the Washington, D.C., field office. Agents 
assigned to the squad have both the legal expertise and 
Internet training to conduct these investigations. The squad 
works closely with the Department of Justice Obscenity 
Prosecution Task Force to determine, initially, if allegations 
meet the legal definition of obscenity, prior to conducting 
investigations. Since 2001, the FBI has opened 79 Interstate 
Transportation of Obscene Material cases. Of these cases, 52 
have been opened since the beginning of 2004, the start of the 
initiative.
    The exact volume of pornographic material available on the 
Internet is very difficult to determine. A Google search of the 
word ``pornography'' results in approximately 19 million hits. 
A Google search of the word ``obscenity'' results in over three 
million hits. And an online search of domain names with the 
word ``porn'' or ``sex'' with the dot-com, dot-net, or dot-org 
background shows more than 200,000 titles.
    The Internet is a new tool for all types of commerce, 
including obscenity and child pornography. In the past, 
sexually explicit material was available only through direct 
purchase or by mail. Direct purchase required the purchaser to 
actually go to a merchant, a face-to-face transaction. Mail 
purchase was more discreet, but it required a purchaser to use 
a credit card, and the product was then mailed to an address of 
a person ordering the product. While this eliminated the need 
to conduct a face-to-face transaction, an actual videotape or 
DVD had to be purchased.
    Technological advances have eliminated the need for an 
individual to purchase or obtain an actual DVD or videotape. A 
person seeking such materials can now go online, order nearly 
any media, and have that product downloaded instantly onto the 
purchaser's computer. The purchaser can create their own DVD 
using the downloaded material. Additionally, live-feed 
capabilities of the Internet allow viewing of live sex acts 
online with interactive direction. Sexually explicit materials 
can be downloaded directly onto pocket-sized portable devices, 
such as cell phones and digital music players. More than ever, 
sexually explicit materials are cheap, and distribution 
channels widespread. With that comes a proliferation of obscene 
material and child pornography.
    The FBI's lead role in the fight against child pornography 
is well known. By teaming up with other law enforcement 
agencies, the National Center for Missing and Exploited 
Children, and the public, we have successfully established 
``Innocent Images'' task forces throughout the country and 
arrested thousands of predators who would use the Internet to 
entice children into exploitive sexual situations.
    As an example, in January of 2002, the FBI led an 
investigation which resulted in the rescue of a 13-year-old 
girl who had been taken to Northern Virginia from Pittsburgh, 
Pennsylvania, by an individual she met on the Internet. The 
girl was transported across State lines, held in a residence, 
where she was repeatedly sexually assaulted. When the girl was 
rescued, she was restrained to a bedpost with a dog collar and 
a chain. The subject was identified after bragging on an 
Internet chat room and sending photographs of the victim, who 
he identified as his ``sex slave.'' The subject was prosecuted 
in U.S. District Court for the Western District of 
Pennsylvania, and sentenced to 17 years in prison.
    In the past year, we've increased the number of ``Innocent 
Images'' task forces from 28 to 32. Since the inception of the 
initiative in 1996, we've seen a 2,000-percent increase in the 
number of cases, and a similarly significant number of arrests. 
Across the country, more than 250 agents are working on child-
pornography cases day and night with our State and local 
partners. We have established working groups outside our 
borders, with countries around the world, to combat the sexual 
exploitation of children.
    To demonstrate the importance of our international 
partnerships, let me quickly discuss an investigation which 
recently resulted in a North Carolina man being sentenced to 
100 years in Federal prison. In late 2003, a detective, working 
in Denmark, was conducting an undercover online investigation 
when he came across extremely disturbing and violent images of 
a young girl being molested and abused by an adult male. The 
Danish detective posted the images on an Internet site 
maintained by Interpol, where a detective in Toronto, Canada, 
recognized something familiar in the images and contacted the 
FBI's Innocent Images Unit. An agent assigned to the Innocent 
Images Unit was able to identify several numbers on a youth-
organization uniform worn by the victims in one of the images. 
This identification was made in spite of efforts by the subject 
to blur the numbers and other identifiers in the photographs. 
Through the numbers on the uniform, the victim was identified 
as a member of a youth organization in Charlotte, North 
Carolina. The adult male in the photographs was identified as 
her father. A search warrant was executed at the family's 
residence, and over 400 photographs of what has been described 
as some of the most violent and disturbing images ever 
documented by the FBI were recovered. It was also determined 
that the subject had been molesting his 8-week-old nephew and 
devised a plot to kill his wife if she ever discovered the 
abuse.
    The FBI and the Department of Justice are committed to 
curbing the production and distribution of obscene materials 
and child pornography. We look forward to working with this 
committee to accomplish this goal.
    I would be happy to answer any questions, Mr. Chairman.
    [The prepared statement of Mr. Burrus follows:]

Prepared Statement of James H. Burrus, Jr., Deputy Assistant Director, 
    Criminal Investigative Division, Federal Bureau of Investigation

    Good afternoon Chairman Stevens, Ranking Member Inouye and Members 
of the Committee. I appreciate the opportunity to appear and provide 
testimony about the FBI and its work on Internet-based obscenity and 
child pornography.
    The FBI is taking an aggressive course of action in the area of 
obscenity. The FBI formed an Adult Obscenity Squad which is located in 
the Washington, D.C., Field Office. Agents assigned to the squad have 
both the legal expertise and internet training to conduct these 
investigations. The squad works closely with the Department of 
Justice's Obscenity Prosecution Task Force to initially determine if 
allegations meet the legal definition of obscenity prior to conducting 
investigations. Since 2001, the FBI has opened 79 Interstate 
Transportation of Obscene Material (ITOM) cases. Of these cases, 52 
were opened since the beginning of FY 2004, the start of the 
initiative.
    The exact volume of pornographic material available through the 
Internet is difficult to determine. A ``Google'' search of the word 
``pornography'' results in approximately 19,000,000 hits. A ``Google'' 
search of the word ``obscenity'' results in over 3,000,000 hits. An 
online search for domain names with the words ``porn'' or ``sex'' with 
the com/net/org shows more than 200,000 titles.
    The Internet is a new tool for all types of commerce, including 
obscenity and child pornography. In the past, sexually explicit 
material was available through direct purchase or the mail. Direct 
purchase required the purchaser to actually go to a merchant--a face-
to-face transaction. Mail purchase was more discreet. It required a 
purchaser to use a credit card and the product was then mailed to the 
address of the person ordering the product. While this eliminated the 
need to conduct a face-to-face transaction, an actual videotape or DVD 
had to be purchased.
    Technological advances have eliminated the need for an individual 
to purchase or obtain an actual DVD or videotape. A person seeking such 
materials can now go online, order nearly any media and have that 
product downloaded instantly onto the purchaser's computer. The 
purchaser can create their own DVD using the downloaded material. 
Additionally, the live feed capabilities of the Internet allow viewing 
of live sex acts online with interactive direction. Sexually explicit 
materials can be downloaded directly onto pocket-size portable devices 
such as cell phones and digital music players. More than ever, sexually 
explicit materials are cheap, and distribution channels widespread. 
With that comes the proliferation of obscene material and child 
pornography.
    The FBI's lead role in the fight against child pornography is well 
known. By teaming up with other law enforcement agencies, the National 
Center for Missing and Exploited Children (NCMEC) and the public, we 
have successfully established ``Innocent Images'' task forces 
throughout the country and arrested thousands of predators who would 
use the Internet to entice children into exploitive sexual situations.
    As an example, in January of 2002, the FBI led an investigation 
which resulted in the rescue of a thirteen year old girl who had been 
taken to Northern Virginia from Pittsburgh, Pennsylvania by an 
individual she met on the Internet. The girl was transported across 
state lines and held in a residence where she was repeatedly sexually 
assaulted. When the girl was rescued, she was restrained to a bed post 
with a dog collar and a chain. The subject was identified after 
bragging in an Internet chat room and sending photographs of the victim 
whom he identified as his ``sex slave''. The subject was prosecuted in 
the United States District Court for the Western District of 
Pennsylvania and sentenced to seventeen years in prison.
    In the past year, we have increased the number of these task forces 
from 28 to 32. Since the inception of the ``Innocent Images'' 
initiative in 1996, we have seen a 2,000-percent increase in the number 
of cases and a similarly significant increase in the number of arrests. 
Across the country more than 240 Agents are working child pornography 
cases day and night with our state and local partners. We have trained 
these partners in digital evidence collection so they have the tools to 
fight this crime problem. And it is a big problem.
    We have also established working groups outside our borders, with 
countries around the world to combat the sexual exploitation of 
children. To demonstrate the importance of our international 
partnerships, let me discuss an investigation which recently resulted 
in a North Carolina man being sentenced to one hundred years in Federal 
prison. In late 2003, a detective in Denmark was conducting an 
undercover, online investigation when he came upon extremely disturbing 
and violent images of a young girl being molested and abused by an 
adult male. The Danish detective posted the images on an Internet site 
maintained by Interpol where a detective in Toronto, Canada, recognized 
something familiar in the images and contacted the FBI's Innocent 
Images Unit. An FBI Agent assigned to the Innocent Images Unit was able 
to identify several numbers on a youth organization uniform worn by the 
victim in one of the images. This identification was made despite 
efforts made by the subject to blur the numbers and other potential 
identifiers in the photographs. Through the numbers on the uniform, the 
victim was identified as a member of a youth organization in the 
Charlotte, North Carolina area. The adult male in the photographs was 
identified as her father. A search warrant was executed at the family's 
residence and over 400 photographs, as what has been described as some 
of the most violent and disturbing images ever documented by the FBI, 
were recovered. It was also determined that the subject had been 
molesting his eight-week-old nephew and had devised a plot to kill his 
wife if she ever discovered the abuse.
    The FBI and the Department of Justice are committed to curbing the 
production and distribution of obscene materials and child pornography. 
We look forward to working with this committee to accomplish this 
worthwhile goal. I would be happy to answer any questions.

    The Chairman. Thank you very much.
    Ms. Parsky?

        STATEMENT OF LAURA H. PARSKY, DEPUTY ASSISTANT 
   ATTORNEY GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Ms. Parsky. Mr. Chairman, Senator Inouye, and distinguished 
Members of the Committee, thank you for inviting me to testify 
before you today about the Department of Justice's efforts to 
protect children on the Internet.
    While we recognize that the Internet is an amazing medium 
for the dissemination of ideas and information, and can deeply 
enrich our lives, we also know that it can be exploited for 
criminal activity and can cause grave harm, including by 
facilitating child pornography and obscenity crimes, as well as 
by making sexually explicit material available to children. The 
Department of Justice is unequivocally committed to protecting 
children and society as a whole by enforcing Federal laws in 
these areas.
    Let me first address child pornography. Federal law 
prohibits all aspects of the child pornography trade, including 
its production, receipt, transportation, distribution, 
advertising, and possession. Unfortunately, the very term we 
commonly use to describe these awful images, ``child 
pornography,'' does not adequately convey the horrors these 
images depict. A more accurate term would be ``images of child 
sexual abuse,'' because the production of these images involves 
the sexual abuse of a child. Very regrettably, in the past 
several years the children abused in these images have been 
younger and younger, and the abuse has been increasingly more 
severe.
    As if that were not enough, the sexual abuse depicted in 
these images is increasingly exacerbated by pedophiles who 
disseminate them over the Internet. The images are then passed 
endlessly from offender to offender, and may whet the appetite 
of another pedophile to inflict similar abuse on yet another 
child. We are absolutely committed to stopping this cycle of 
abuse.
    Child pornographers employ the ever-evolving technology of 
the Internet to commit their deviant crimes. In order to ensure 
our ability to combat them in this changing technological 
environment, the Criminal Division of the Department of Justice 
created the High-Tech Investigative Unit, HTIU, within the 
Child Exploitation and Obscenity Section, known as CEOS, in 
August of 2002. The HTIU consists of computer forensic 
specialists who team with expert prosecutors to enable us to 
prosecute the most complex and advanced offenses against 
children committed online.
    Offenders distribute child pornography over the Internet in 
a variety of ways, including online groups or communities, file 
servers, Internet Relay Chat, e-mail, peer-to-peer networks, 
and websites. We investigate and prosecute offenses involving 
each and every one of these technologies.
    Further, the Department of Justice works continuously to 
identify the vulnerabilities of the child pornography industry 
and to attack them at every angle, both domestically and 
overseas. We are focusing our efforts on all offenders involved 
in these crimes, from the customer to the website operator to 
the facilitators, including those who provide credit card 
processing and subscription services.
    A concrete reflection of our intensified efforts is the 
fact that CEOS already has generated a more than 445 percent 
increase in its caseload handled in the past 4 years, including 
child pornography cases and investigations. In addition to 
increasing the sheer number of investigations and prosecutions 
brought by these attorneys, the quality and import of the cases 
has increased substantially, with a focus on the producers and 
commercial distributors of the material. Similarly, the 94 U.S. 
Attorneys Offices have also greatly increased their efforts. 
For example, total Federal prosecutions of child pornography 
cases rose from 352 cases in 1997 to 1,486 cases in 2004, a 
more than 422 percent increase, while total Federal 
prosecutions of enticement and sexual abuse cases more than 
doubled in this same time frame.
    The other major component of the Department's enforcement 
efforts against sexually explicit material on the Internet is 
our obscenity enforcement program. Federal law prohibits a 
variety of activities related to obscene material on the 
Internet. Underlying all Federal obscenity statutes is the 
obscenity test set forth in the Supreme Court's opinion in 
Miller v. California, in which community standards play an 
important role. To ensure we properly apply this test, we team 
with prosecutors from the local United States Attorneys' 
Offices who know the standards of their own communities.
    Much as it has transformed child pornography offenses, the 
Internet has also transformed obscenity offenses. Over the last 
several years, online obscenity offenses have substantially 
increased, if not exploded. In response to this explosive 
increase, and as part of the Administration's firm commitment 
to enforce the Nation's obscenity laws, over the past 5 years, 
the Department of Justice has revived and significantly 
enhanced its obscenity enforcement program. Specifically, there 
have been 47 obscenity convictions of persons or entities 
Department-wide since 2001, and we currently have obscenity 
indictments pending against 12 persons or entities. CEOS has 
led the Department's efforts in this area, prosecuting high-
impact obscenity offenders and businesses using Internet 
websites to distribute obscenity.
    In order to further enhance our obscenity enforcement 
efforts, just last year the Department of Justice established 
the Obscenity Prosecution Task Force within the Criminal 
Division. The Task Force focuses exclusively on obscenity 
prosecution, supplementing the ongoing work being done in CEOS 
and in United States Attorneys' Offices across the country.
    In these brief comments, I hope to have given you a sense 
of the Department of Justice's efforts to protect children, as 
well as society at large, by enforcing Federal statutes 
concerning sexually explicit material available on the 
Internet.
    Mr. Chairman, I again thank you and the Committee for the 
opportunity to speak to you today, and I'd be happy to answer 
any questions.
    [The prepared statement of Ms. Parsky follows:]

   Prepared Statement of Laura H. Parsky, Deputy Assistant Attorney 
           General, Criminal Division, Department of Justice

    Mr. Chairman, Senator Inouye, and distinguished Members of the 
Committee, thank you for inviting me to testify before you today about 
the Department of Justice's enforcement efforts against sexually 
explicit material available on the Internet. From a criminal law 
perspective, our jurisdiction is predominantly focused on child 
pornography and obscene material. While we recognize that the Internet 
is an amazing medium for the dissemination of ideas and information and 
can deeply enrich our lives, we also know that it can be exploited for 
criminal activity and can cause grave harm, including by facilitating 
child pornography and obscenity crimes, as well as making sexually 
explicit material available to children. Accordingly, the Department of 
Justice is unequivocally committed to enforcing Federal laws in these 
areas.

Child Pornography
    Let me first address child pornography, which the Supreme Court has 
ruled carries no First Amendment protection. See New York v. Ferber, 
458 U.S. 747 (1982). Federal law, codified at Chapter 110 of Title 18, 
United States Code, prohibits all aspects of the child pornography 
trade, including its production, receipt, transportation, distribution, 
advertising, and possession.
    Unfortunately, the very term we commonly use to describe these 
awful images--child pornography--does not adequately convey the horrors 
these images depict. A more accurate term would be ``images of child 
sexual abuse,'' because the production of these images involves the 
sexual abuse of a child. These images are thus permanent visual records 
of child sexual abuse. In the past several years, the children we have 
seen in these images have been younger and younger, and, very 
regrettably, the abuse depicted has been increasingly more severe and 
is often sadistic.
    As if the images themselves were not harmful enough, the sexual 
abuse inherent in child pornography is increasingly exacerbated by 
pedophiles who choose to disseminate these images to millions of people 
over the Internet with a few clicks of a computer mouse. Once on the 
Internet, the images are passed endlessly from offender to offender, 
and perhaps used to whet the appetite of another pedophile to act out 
the deviant fantasies of the image on yet another child, thereby 
continuing the cycle of abuse. The Department of Justice is absolutely 
committed to obliterating this intolerable evil.
    Because child pornographers continue to find ways to employ the 
ever-evolving technology of the Internet and computers to commit their 
deviant crimes, we in law enforcement must respond to these 
technological advances in order to effectively to combat these crimes. 
In order to ensure our ability to do so, the Criminal Division created 
the High-Tech Investigative Unit (HTIU) within the Child Exploitation 
and Obscenity Section (CEOS) in August 2002. The HTIU consists of 
computer forensic specialists who team with expert prosecutors to 
ensure the Department of Justice's capacity and capability to prosecute 
the most complex and advanced offenses against children committed 
online. HTIU computer forensic specialists render expert forensic 
assistance and testimony in districts across the country in the most 
complex child pornography prosecutions conducted by the Department. 
Additionally, the HTIU currently receives and reviews hundreds of tips 
per month from citizens and non-governmental organizations, such as the 
National Center for Missing and Exploited Children, and initiates 
investigations from these tips.
    Child pornography is distributed over the Internet in a variety of 
ways, including: online groups or communities, file servers, Internet 
Relay Chat, e-mail, peer-to-peer networks, and websites. The Department 
of Justice investigates and prosecutes offenses involving each of these 
technologies. Sophisticated investigative techniques, often involving 
undercover operations, are required to hold these offenders accountable 
for their crimes. For example, an investigation of a commercial child 
pornography website requires us not only to determine where the servers 
hosting the website are located and who are the persons responsible for 
operating the website, but also to follow the path of the financial 
transactions offenders use to purchase the child pornography, whether 
by credit card or other means. Such cases require detailed information 
about all aspects of the transaction in order to determine the identity 
and location of the offenders. Additionally, many of these cases 
require coordination with law enforcement from other countries. It is 
essential that these complex cases be handled by law enforcement agents 
and prosecutors with the necessary specialized expertise.
    The Department of Justice works continuously to identify the 
vulnerabilities of the child pornography industry and to attack them at 
every angle, both domestically and overseas. We are focusing our 
efforts on everyone, from the customer, to the website operator, to the 
facilitators--including those who provide credit card processing and 
subscription services. A concrete reflection of our intensified efforts 
is the fact that CEOS already has generated a more than 445-percent 
increase in its caseload, including child pornography cases and 
investigations, handled in the past four years. In addition to 
increasing the sheer number of investigations and prosecutions brought 
by these attorneys, the quality and import of the cases has increased 
substantially, with a focus on the producers and commercial 
distributors of the material.
    The 94 U.S. Attorneys' Offices are critical to the efforts to 
enforce Federal laws prohibiting crimes against children, prosecuting 
large numbers of cases. Total Federal prosecutions of child pornography 
cases rose from 352 cases in 1997 to 1,486 cases in 2004, a more than 
422 percent increase. Federal prosecutions of enticement and sexual 
abuse cases more than doubled in this same time frame, jumping from 230 
in 1997 to 518 in 2004. In Fiscal Year 2005, U.S. Attorneys' Offices 
initiated 1,447 cases pursuant to child exploitation and child 
pornography statutes. The number of Federal investigations of crimes 
against children continues to increase at an exponential rate. Arrests 
made under the FBI's Innocent Images national initiative to target 
child pornography and child enticement jumped 1,015 percent between 
1996 and 2003 nationally, suggesting that the number of Federal 
prosecutions of these offenders is likely to continue to rise 
significantly.
    Moreover, CEOS enhances Federal law enforcement's fight against 
child pornography by disseminating its specialized expertise to the 
field. CEOS conducts advanced training seminars on the investigation 
and prosecution of child exploitation cases attended by Assistant 
United States Attorneys and Federal law enforcement agents from all 
over the country. CEOS also provides critical expert assistance to the 
field in a variety of other ways. CEOS attorneys are on call to answer 
questions from prosecutors in the field about how best to investigate 
or prosecute their cases. CEOS also keeps field agents and prosecutors 
abreast of current legal and technological developments through such 
mechanisms as its quarterly newsletter. Most importantly, CEOS' expert 
resources are widely employed by the United States Attorneys' Offices 
to resolve the most difficult issues presented in child exploitation 
cases and to ensure a successful prosecution.
    CEOS is currently coordinating 16 multi-district operations 
involving child pornography offenders. These investigations of national 
impact have the potential for maximum deterrent effect on offenders. 
Nearly each one of the 16 investigations involves hundreds or 
thousands, and in a few cases tens of thousands, of offenders. The 
coordination of these operations is complex, but the results can be 
tremendous. By way of example, the Federal Bureau of Investigation 
(FBI) is currently investigating the distribution of child pornography 
on various Yahoo! Groups, which are ``member-only'' online bulletin 
boards. The most recent report from the FBI indicates that the 
investigation has yielded 180 search warrants, 75 arrests, 130 
indictments, and over 60 convictions.
    The Department of Justice is also working to identify and rescue 
victims depicted in images of child pornography. One method for 
achieving this goal is already underway. The FBI Endangered Child Alert 
Program (ECAP) was launched on February 21, 2004, by the FBI's Innocent 
Images Unit, and is conducted in partnership with CEOS. The purpose of 
ECAP is proactively to identify unknown offenders depicted in images of 
child pornography engaging in the sexual exploitation of children. 
Since ECAP's inception, seven of these ``John Doe'' subjects have been 
profiled by America's Most Wanted, and with the assistance of tips from 
viewers, six have been identified. More importantly, 35 victims (so 
far) in Indiana, Montana, Texas, Colorado, and Canada have been 
identified as a result of this initiative. All of the victims had been 
sexually abused over a period of years, some since infancy. CEOS will 
continue to ensure that this program is utilized to its maximum 
potential.
    The Department recently has had substantial success in destroying 
several major child pornography operations. Two examples are United 
States v. Mariscal (S.D. Fla.) and Regpay/Operation Falcon (D.N.J.). In 
Mariscal, Angel Mariscal received a 100-year prison sentence on 
September 30, 2004 in the Southern District of Florida, after being 
convicted on seven charges including conspiracy to produce, 
importation, distribution, advertising, and possession with intent to 
sell child pornography. Mariscal traveled repeatedly over a seven-year 
period to Cuba and Ecuador, where he produced and manufactured child 
pornography, including videotapes of Mariscal sexually abusing minors, 
some under the age of 12. As a result of Mariscal's arrest, his 
customers across the country were targeted in Operation Lost Innocence, 
which was coordinated by the U.S. Postal Inspection Service and CEOS. 
To date, Lost Innocence has resulted in 107 searches, 55 arrests/
indictments, and 44 convictions.
    United States v. Zalatarou (D.N.J.) (Regpay), which led to 
Operation Falcon, is an example of how one child pornography 
investigation can lead to the apprehension of many other offenders. 
Regpay was a Belarus-based company that provided credit card processing 
services to hundreds of commercial child pornography websites. Regpay 
contracted with a Florida company, Connections USA, to access a 
merchant bank in the United States. In February 2005, several Regpay 
defendants pled guilty to various conspiracy, child pornography, and 
money laundering offenses in the District of New Jersey. Connections 
USA and several of its employees also pled guilty in connection with 
this case. The Regpay investigation spawned the U.S. Immigration and 
Customs Enforcement's Operation Falcon, an international child 
pornography trafficking investigation that so far has resulted in 448 
open investigations, 130 search warrants in the U.S., 191 domestic and 
approximately 767 foreign arrests (in Australia, Denmark, Finland, Hong 
Kong, Liechtenstein, Netherlands, Norway, Scotland, Sweden, 
Switzerland, and the United Kingdom), and 47 domestic indictments, 
generating 14 convictions.

Obscenity
    The other major component of the Department's enforcement efforts 
against sexually explicit material on the Internet is our obscenity 
enforcement program. Federal law, codified at Chapter 71 of Title 18, 
United States Code, prohibits a variety of activities related to 
obscene material. Provisions which particularly apply to the Internet 
are those which prohibit transporting obscene material in interstate or 
foreign commerce using an interactive computer service, transporting 
obscene material in such a manner for sale or distribution, or 
knowingly transferring obscene material to a person under the age of 16 
using any facility or means of interstate or foreign commerce. The 
Department of Justice also enforces the Truth in Domain Names statute, 
Section 2252B of Title 18, which prohibits using a misleading domain 
name to cause persons to view obscene material or to cause minors to 
view material harmful to them.
    Underlying all Federal obscenity statutes is the obscenity test set 
forth in the Supreme Court's opinion in Miller v. California, 413 U.S. 
15 (1973). Under Miller, obscene material does not enjoy First 
Amendment protection. Accordingly, the complexities in obscenity law 
arise not in determining whether traffic in obscene material can 
constitutionally be prohibited, but rather in determining what is 
obscene. Miller provides a three-part test used to make this 
determination. The first part is that the average person, applying 
contemporary community standards, would find that the material, taken 
as a whole, appeals to the prurient interest. The second part is that 
the material depicts or describes hard-core sexual conduct in a 
patently offensive way. The third part is that the material, taken as a 
whole, lacks serious literary, artistic, political, or scientific 
value. If any of these three parts is not met, the material cannot be 
considered obscene under Miller.
    Given the Miller test, in pursuing obscenity prosecutions we 
proceed on the premise that all hard-core pornography is potentially 
obscene and judge each potential prosecution individually on its own 
merits. Since community standards play a key role in applying the 
Miller test, in our approach we take care to consider the views of the 
local community as we make these prosecution decisions. Typically, 
Criminal Division prosecutors ensure that they take local community 
views into account by teaming with prosecutors from the United States 
Attorney's Office on these cases. As local Federal prosecutors are 
familiar with the standards of their own communities, this team 
approach ensures that we properly apply the Miller test when evaluating 
potential obscenity cases for possible prosecution.
    Despite recent challenges to the constitutionality of the obscenity 
statutes, these statutes continue to be constitutionally sound. In its 
recent opinion in United States v. Extreme Associates, 431 F.3d 150 (3d 
Cir. 2005), the Third Circuit Court of Appeals reaffirmed the vitality 
of these statutes by rejecting a defense claim that Federal obscenity 
statutes violate the due process clause of the Sixth Amendment. In its 
ruling, the Third Circuit rejected the defense's argument that the 
Supreme Court's opinion in Lawrence v. Texas, 539 U.S. 558 (2003), 
created a substantive due process right to protect commercial 
distribution of obscene material, stating that ``Congress may prevent 
interstate commerce and the channels thereof from being used to spread 
evil of a physical, moral or economic nature.'' We believe the Third 
Circuit's opinion will make it unlikely that other obscenity defendants 
will be able successfully to attack the constitutionality of Federal 
obscenity statutes.
    Like so many other commodities, the distribution of obscenity has 
significantly migrated to the Internet. The obscenity industry has a 
widespread presence on the Internet, and over the last several years, 
online obscenity offenses have substantially increased, if not 
exploded. The Internet has encouraged growth on both the supply and 
demand sides of the obscenity market. It has greatly eased offenders' 
task of offering and distributing obscene material, while it has also 
made it much easier for those who want to view such material to obtain 
it. Moreover, offenders extensively use ``spam'' and other such 
invasive means to advertise their material. Perhaps because obscenity 
is now so widespread, there is a trend among offenders to differentiate 
themselves from other suppliers by offering more and more extreme 
material. Obscenity offenders essentially are now competing to offer 
the most egregious material in hopes of selling material to consumers 
who seek the most shocking items. This is an alarming trend that we are 
working hard to curtail.
    Another significant effect of the migration of obscenity to the 
Internet, and perhaps the most disturbing, is the endangerment of 
children. This is especially true when spam is used to market obscene 
material. To give you a sense of the problem, from September 1, 2002, 
through December 11, 2005, the National Center for Missing and 
Exploited Children reported 2,317 tips of unsolicited obscene material 
sent to a child. Every one of these tips alleged that a child was 
actually exposed to unsolicited obscene material via the Internet.
    In response to the explosive increase in obscenity offenses and as 
part of this Administration's firm commitment to enforce the Nation's 
obscenity laws, over the past five years the Department of Justice has 
revived and significantly enhanced its obscenity enforcement program. 
Specifically, there have been 47 obscenity convictions of persons or 
entities Department-wide since 2001, and we currently have obscenity 
indictments pending against 12 persons or entities. CEOS has led the 
Department's efforts in this area, prosecuting high-impact obscenity 
offenders and businesses using Internet websites to distribute 
obscenity with the inherent capacity to afford widespread access to the 
public. As explained above, given the importance of community standards 
under the Miller test, CEOS has pursued these cases working in 
conjunction with U.S. Attorneys' Offices.
    Moreover, in order to further enhance our obscenity enforcement 
efforts, just last year the Department of Justice established the 
Obscenity Prosecution Task Force within the Criminal Division. The Task 
Force focuses exclusively on obscenity prosecution, thereby 
supplementing the ongoing obscenity work being done in CEOS and in U.S. 
Attorneys' Offices around the country. The Task Force is positioned to 
draw upon the specialized expertise of Criminal Division attorneys in 
the Organized Crime and Racketeering Section, the Asset Forfeiture and 
Money Laundering Section, and the Computer Crime and Intellectual 
Property Section, whose skills and expertise are often pertinent to 
obscenity prosecutions. The Task Force is working with U.S. Attorneys' 
Offices across the country to develop effective obscenity prosecutions 
and has partnered with a Postal Inspector, assigned full-time to work 
with the Task Force, and a team of agents from the FBI devoted solely 
to making cases against national-scale obscenity distributors.
    Two major cases in recent years that provide excellent insight into 
the Department's commitment to obscenity enforcement are United States 
v. Coil (W.D. Tex.) and United States v. Wedelstedt (N.D. Tex.). In 
Coil, CEOS partnered with the U.S. Attorney's Office for the Western 
District of Texas in the investigation and prosecution of a major 
supplier of adult-oriented materials. Seven individuals were charged in 
a multi-count indictment with fraud, tax, obscenity, and conspiracy 
offenses related to the operations of adult-oriented businesses in 
three states. All seven defendants have pled guilty, and significant 
criminal penalties were imposed. The lead defendant, John Kenneth Coil, 
agreed to forfeit all his enterprise properties within the state of 
Texas, amounting to over 40 pieces of realty and 20 stores throughout 
the state. He was sentenced to 63 months imprisonment to be followed by 
three years of supervised release, a $5,000 fine, and forfeiture of an 
estimated $8.1 million in property.
    In the Wedelstedt case, being prosecuted by CEOS and the U.S. 
Attorney's Office for the Northern District of Texas in substantial 
cooperation with the Tax Division, the Criminal Division's Asset 
Forfeiture and Money Laundering Section and Organized Crime and 
Racketeering Section, the Internal Revenue Service, and the Bureau of 
Immigration and Customs Enforcement, seven individuals and a company 
were indicted on March 11, 2005 for numerous crimes including 
racketeering, conspiracy, obscenity, and tax offenses. The indictment 
addressed the criminal activities of Edward J. Wedelstedt and his 
wholly-owned, multi-million dollar corporation, called Goalie 
Entertainment Holdings, Inc., related to the operation throughout the 
country of adult pornography bookstores with video arcades where 
customers could pay to view clips of obscene videos or DVDs. Several 
convictions have already resulted from this indictment, including that 
of lead defendant Wedelstedt, who pled guilty on November 4, 2005, to 
transporting obscene matters for sale or distribution (in violation of 
18 U.S.C. Sec. 1465) and engaging in a conspiracy to defraud the United 
States by frustrating, impeding, or hindering the Internal Revenue 
Service (in violation of 18 U.S.C. Sec. 371). Wedelstedt's plea 
subjects him to a 13-month prison sentence to be followed by one year 
of supervised release. Wedelstedt will also face forfeiture of 
businesses and property located in Texas. Further, Wedelstedt has 
already forfeited $1.25 million to the United States government in 
connection with this investigation. Wedelstedt is scheduled to be 
sentenced on February 9, 2006.

Additional Legislative Tools That Would Assist Our Efforts in These 
        Areas
    In closing, I'd like to note that the Department of Justice has 
developed several legislative proposals for Congressional action to 
improve prosecutors' ability to crack down on obscenity and sexual 
exploitation of children. Several of these proposals were included in 
Title VIII of H.R. 3132, which passed the House of Representatives last 
fall. Our proposals would establish the nexus to interstate commerce in 
child pornography cases, broaden the obscenity statutes to cover the 
production of obscenity, and enhance our ability to attack the 
financial assets of purveyors of such material. The proposals would 
also strengthen the Federal Government's ability to prevent children 
from being used in pornography by enhancing the current statutory 
scheme of identity checks and recordkeeping in Section 2257 of Title 
18, United States Code. Additionally, one of our proposals not 
contained in H.R. 3132 would allow us to use administrative subpoenas 
in obscenity investigations, as is authorized for child pornography 
cases. The enactment of these provisions would significantly assist our 
enforcement efforts in these critical areas. We are also grateful to 
Senators Hatch and Brownback for recently introducing S. 2140, which 
includes several of the reforms contained in the House-passed bill to 
strengthen the age-related recordkeeping requirements imposed on 
producers of sexually explicit material, thereby bolstering 
prosecutors' ability to pursue cases involving the exploitation of 
minors by this industry.

Conclusion
    In these brief comments, I hope to have given you a sense of the 
Department of Justice's efforts to enforce Federal criminal laws 
concerning sexually explicit material available on the Internet. We 
consider this a critically important task and will continue to do our 
utmost to protect children as well as society at large by enforcing 
these statutes.
    Mr. Chairman, I again thank you and the Committee for the 
opportunity to speak to you today, and I would be pleased to answer any 
questions the Committee might have.

    Senator Bill Nelson. Mr. Chairman, I would be remiss if I 
did not point out that Ms. Parsky comes from a long line in a 
family of public servants. Her father was the Deputy Secretary 
of the Treasury under President Reagan, a personal friend of 
mine that I went to law school with.
    The Chairman. All of your statement will be printed in the 
record. I notice you shortened it quite a bit, and I thank you 
for that, Ms. Parsky, but we'll print it in full.
    Mr. Burrus, do you need any more tools, legislatively or 
financially, to carry out the work that we want you to do to 
protect children on the Internet?
    Mr. Burrus. No, sir. I think we're doing as best we can. We 
always enjoy additional resources, and, with that, we could 
expand our mission, but we have a variety of priorities within 
the Department of Justice, within the FBI, and we're able to 
work within those and within the President's budget.
    The Chairman. Have you been personally involved in any of 
these cases?
    Mr. Burrus. Yes, sir.
    The Chairman. Have you found that the laws that we have 
currently on the books now give you enough authority to really 
pursue any use of pornography, and directing it toward 
children, or sexual abuse of children?
    Mr. Burrus. The laws that we've found so far, especially as 
it relates to possession, distribution, manufacturing of child 
pornography, as law enforcement officers, we'd always like to 
see stronger penalties, but obviously we're able to work with 
the laws that we have. I think they're well defined, and we've 
been able to, we've been wildly successful in both our 
investigations and our prosecutions.
    The Chairman. Thank you.
    Ms. Parsky, how about your part of the Department? I'm a 
former U.S. Attorney. I don't know how many others are around 
here. But do you believe the U.S. Attorneys' Offices are 
equipped to handle the prosecutions you mentioned?
    Ms. Parsky. Well, I think that the U.S. Attorneys' Offices 
have risen to the occasion. This--as has been recognized by all 
the Senators here today, this is an immense problem, and it's 
been growing incredibly quickly. The one thing I would point 
out is that the Administration did submit several legislative 
proposals to the Hill, and most of them are currently included 
in H.R. 3132, which passed the House in September of last year. 
Some of the provisions that we had put forward would assist us 
in prosecuting child pornography, child exploitation, and 
obscenity crimes. Some of those provisions are strengthening 
the Congressional findings that establish the nexus between 
child pornography and interstate commerce, strengthening the 
recordkeeping provisions of 18 U.S.C. Section 2257 to make 
clear that the type of content that's covered mirrors that of 
the child pornography statutes, and making clear that the 
producers who are covered by the statute include not only those 
who are directly involved in the filming or production of child 
pornography, but also those who publish it, and also 
strengthening the enforceability of that statute. In addition, 
our proposals included some forfeiture provisions and to 
criminalize the production with the intent to distribute or 
sell obscenity.
    The Chairman. Are those Judiciary Committee bills you're 
talking about?
    Ms. Parsky. I believe so.
    The Chairman. Yes.
    Well, thank you very much, and thank you for what you do.
    Senator Inouye?
    Senator Inouye. Thank you.
    I've been advised that many of the purveyors of child 
pornography are from outside the United States. Do you have 
sufficient tools to combat them?
    Mr. Burrus. Yes, sir. We are working, in our Innocent 
Images, offsite in Calverton, with 15 countries overseas. One 
of the things that we're trying to do is to provide them with 
the training necessary to combat this within their own 
countries. We impart to them the fact that it's their children 
that are being exploited, it's their money that corrupts the 
citizens of their country. And they've been receptive to that. 
We would like to see that grow internationally. And this 
clearly has to be an international effort. But we think our 
effort is growing and that we have the tools, at this point, to 
do what we need to.
    Ms. Parsky. If I may add to that, there is one treaty 
that's currently pending for ratification that would provide 
additional tools that would be extremely useful in child 
pornography cases and obscenity cases, and that's the Council 
of Europe's Convention on Cybercrime. This is a treaty that the 
Administration transmitted to Congress, I believe, in 2003. And 
what it does is, it provides--for all the other countries that 
we might go to, to seek electronic evidence--it provides for 
their procedural laws to be up to speed with United States laws 
so that we can expeditiously get the evidence we need when our 
path leads us abroad.
    Senator Inouye. Is there such a thing as a profile of a 
child pornographer?
    Mr. Burrus. Unfortunately, no. What we find is that those 
interested in child pornography range all the way, in all ages, 
all professions, all demographics, black, white, African-
American, Asian. That's the unfortunate thing about it. There 
is no profile that we can really use.
    What we do know about them, though, is that they frequently 
are very technically savvy, they exchange images very easily, 
they are very aware of the latest technologies and the latest 
tools. What we find, Senator, is that many times when we begin 
to monitor particular chat rooms, they will migrate to other 
chat rooms where the children are, and that's a particularly 
disturbing trend. But we're following it, and you can bet we 
will do our best with that.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Burns?
    Senator Burns. I might remind the Committee there's a 
couple of organizations out there that are peer groups like i-
SAFE and SafeSchools and this type of thing that use corporate 
dollars in their work, and most of the work is done in middle 
schools, seventh grade through ninth grade. And I've been 
involved in those organizations. And, Mr. Burrus, I've sat in 
the Billings office and watched your people work those chat 
rooms, and catching--and they've been fairly successful in 
Montana, I want to tell you. But it takes special training, and 
it takes a special person to sit there and just chat, and they 
know all, I was surprised, they know all the lingo. But they 
catch them. And I would suggest my colleagues here on this 
committee, when you go home, you should contact your local 
office and sit up there and see the equipment. And, really, the 
equipment--they've kind of glued it together. It looks like 
sort of a Sadie Hawkins kind of an affair. But, nonetheless, 
they're very good, and I want to congratulate you on that, 
because they have worked. I know the people that were working 
in Billings caught a guy in Missoula, one in Bozeman, It's kind 
of tricky, and you've got to be very careful, and stay within 
the law, but, nonetheless, they do a great job.
    We think that prevention is a lot better than just a 
prosecution. Education, working with peer groups and kids of 
that age in middle school. We find out that, now we're forming 
these groups, if they hear about it, they talk to their friend, 
they warn them, and that's the way school principals have 
picked up on this, and it's very, very successful. And I know 
the problem that's out there, because I sat there one night, 
from 8 o'clock at night until midnight. But I just want to 
congratulate you on that, because the training of those men and 
women, by the way, is very, very good.
    As far as us passing laws, I would agree with Senator 
Lincoln that the Internet is just a great big old town out 
there, and there are places to go, and there are places not to 
go. The worst thing you can do is to give a child, a teenager, 
a computer and let them put it in their own room where they've 
got some privacy. Always keep them in your kitchen, and usually 
some of those problems go away.
    But we have worked on the Internet a long time. It's not 
always legislation, but public awareness. More than anything 
else, it's public awareness and knowing that they have people 
to come to if they need help or get caught in a bad trap, 
coming to know where to go and what to do.
    So, thank you, both of you, for your testimony. But I just 
wanted to thank Mr. Burrus and his fine organization for doing 
a great job up there. And I know this is a labor of love, 
because most of them have teenage children, and they understand 
what's out there. And they work long hours. And so, I just 
appreciate what you've done and the dedication of your 
Department.
    Thank you, Mr. Chairman.
    The Chairman. Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Let me ask the two witnesses this. In terms of minors being 
exposed to pornography on the Internet, there is software 
available, apparently, that--people who sell wine and liquors, 
et cetera, on the Internet have age-verification software. I 
don't know exactly how it works, but would that be any 
deterrent whatsoever to young people who are on the Internet 
who might be looking for pornography?
    Mr. Burrus. I think perhaps those who operate the portals 
would be better left to answer that, because of the technical, 
how does it work, how do you get around it, are there are 
exceptions for it? I think it would be, certainly, something 
worthwhile to explore.
    Ms. Parsky. I guess my response to that would be that, you 
know, we're looking for the entire community to help in this 
effort, because it is such a vast problem, and it really takes 
everyone--parents, private sector, public sector--to all be 
working together against this. But, again, the devil's in the 
details with a lot of those types of programs, as to how they 
really work and whether they're effective.
    Senator Pryor. Yes, I agree with you. And I know that ICANN 
has come out with this concept of putting all adult websites 
with the ending triple-X. Are you all familiar with that 
proposal?--instead of dot-com, dot-whatever, it would be dot-
xxx. And I think, on the one hand, that that would be good, in 
the sense that you could require all adult sites to use that, I 
would think. And it might--there might be more transparency 
there. And for the parents out there who are trying to monitor 
this, that would be a clear warning sign of things to avoid. 
But, also, it might be easier for minors to locate pornographic 
websites. Do you all have any thoughts on the triple-X suffix, 
if that has any bearing on this?
    Ms. Parsky. I think, again, without--I mean, you know, 
we'd--we're always happy to look at specific proposals, but, in 
any type of proposal like that, there are issues of 
practicality and how would it really be implemented and whether 
it would be effective.
    Senator Pryor. And, you know, again, back--going back to 
the attorney-general days, I know that we've tried very hard to 
educate young people--teenagers, et cetera--about smoking and 
drug use and things like that. My impression is, right now, 
there's not been--maybe I'm wrong about this; maybe someone can 
correct me--but there's not been a very strong effort in the 
public-relations world to educate young people about--or 
families, for that matter--about the pitfalls of pornography, 
and the dangers of pornography, and child predators, et cetera, 
on the Internet. I know, again, back in the Attorney General's 
Office in Arkansas, we did some of that. We had very limited 
resources, but we did try to do some of that. We work with our 
State police very closely to try to help in various ways. I'm 
sure other States have done some of that. But do you think that 
having a good, broad-based, well-funded public-relations 
campaign--education campaign might be helpful in this, or would 
that have any effect?
    Mr. Burrus. Senator, if I might, first of all, I've brought 
along some brochures today that the FBI makes thousands of 
presentations every year to community groups, to school groups. 
I was the special agent in charge in Salt Lake City, and had 
the pleasure of serving Senator Burns' district, and we make 
these presentations all the time. If I might, Mr. Chairman, 
I'll leave copies of this that perhaps could be entered into 
the record.
    [The information previously referred to follows:]

                            FBI Publications

                  A Parent's Guide to Internet Safety

    Dear Parent:
    Our children are our Nation's most valuable asset. They represent 
the bright future of our country and hold our hopes for a better 
Nation. Our children are also the most vulnerable members of society. 
Protecting our children against the fear of crime and from becoming 
victims of crime must be a national priority.
    Unfortunately the same advances in computer and telecommunication 
technology that allow our children to reach out to new sources of 
knowledge and cultural experiences are also leaving them vulnerable to 
exploitation and harm by computer-sex offenders.
    I hope that this pamphlet helps you to begin to understand the 
complexities of on-line child exploitation. For further information, 
please contact your local FBI office or the National Center for Missing 
and Exploited Children at 1-800-843-5678.
                                            Louis J. Freeh,
           Former Director, Federal Bureau of Investigation

Introduction
    While on-line computer exploration opens a world of possibilities 
for children, expanding their horizons and exposing them to different 
cultures and ways of life, they can be exposed to dangers as they hit 
the road exploring the information highway. There are individuals who 
attempt to sexually exploit children through the use of on-line 
services and the Internet. Some of these individuals gradually seduce 
their targets through the use of attention, affection, kindness, and 
even gifts. These individuals are often willing to devote considerable 
amounts of time, money, and energy in this process. They listen to and 
empathize with the problems of children. They will be aware of the 
latest music, hobbies, and interests of children. These individuals 
attempt to gradually lower children's inhibitions by slowly introducing 
sexual context and content into their conversations.
    There are other individuals, however, who immediately engage in 
sexually explicit conversation with children. Some offenders primarily 
collect and trade child-pornographic images, while others seek face-to-
face meetings with children via on-line contacts. It is important for 
parents to understand that children can be indirectly victimized 
through conversation, i.e., ``chat,'' as well as the transfer of 
sexually explicit information and material. Computer-sex offenders may 
also be evaluating children they come in contact with on-line for 
future face-to-face contact and direct victimization. Parents and 
children should remember that a computer-sex offender can be any age or 
sex, the person does not have to fit the caricature of a dirty, 
unkempt, older man wearing a raincoat to be someone who could harm a 
child.
    Children, especially adolescents, are sometimes interested in and 
curious about sexuality and sexually explicit material. They may be 
moving away from the total control of parents and seeking to establish 
new relationships outside their family. Because they may be curious, 
children/adolescents sometimes use their on-line access to actively 
seek out such materials and individuals. Sex offenders targeting 
children will use and exploit these characteristics and needs. Some 
adolescent children may also be attracted to and lured by on-line 
offenders closer to their age who, although not technically child 
molesters, may be dangerous. Nevertheless, they have been seduced and 
manipulated by a clever offender and do not fully understand or 
recognize the potential danger of these contacts.
    This guide was prepared from actual investigations involving child 
victims, as well as investigations where law enforcement officers posed 
as children. Further information on protecting your child on-line may 
be found in the National Center for Missing and Exploited Children's 
Child Safety on the Information Highway and Teen Safety on the 
Information Highway pamphlets.

What Are Signs That Your Child Might Be At Risk On-line?
Your Child Spends Large Amounts of Time On-line, Especially at Night
    Most children that fall victim to computer-sex offenders spend 
large amounts of time on-line, particularly in chat rooms. They may go 
on-line after dinner and on the weekends. They may be latchkey kids 
whose parents have told them to stay at home after school. They go on-
line to chat with friends, make new friends, pass time, and sometimes 
look for sexually explicit information. While much of the knowledge and 
experience gained may be valuable, parents should consider monitoring 
the amount of time spent on-line.
    Children on-line are at the greatest risk during the evening hours. 
While offenders are on-line around the clock, most work during the day 
and spend their evenings on-line trying to locate and lure children or 
seeking pornography.

You Find Pornography on Your Child's Computer
    Pornography is often used in the sexual victimization of children. 
Sex offenders often supply their potential victims with pornography as 
a means of opening sexual discussions and for seduction. Child 
pornography may be used to show the child victim that sex between 
children and adults is ``normal.'' Parents should be conscious of the 
fact that a child may hide the pornographic files on diskettes from 
them. This may be especially true if the computer is used by other 
family members.

Your Child Receives Phone Calls From Men You Don't Know or Is Making 
        Calls, Sometimes Long Distance, to Numbers You Don't Recognize
    While talking to a child victim on-line is a thrill for a computer-
sex offender, it can be very cumbersome. Most want to talk to the 
children on the telephone. They often engage in ``phone sex'' with the 
children and often seek to set up an actual meeting for real sex.
    While a child may be hesitant to give out his/her home phone 
number, the computer-sex offenders will give out theirs. With Caller 
ID, they can readily find out the child's phone number. Some computer-
sex offenders have even obtained toll-free 800 numbers, so that their 
potential victims can call them without their parents finding out. 
Others will tell the child to call collect. Both of these methods 
result in the computer-sex offender being able to find out the child's 
phone number.
Your Child Receives Mail, Gifts, or Packages From Someone You Don't 
        Know
    As part of the seduction process, it is common for offenders to 
send letters, photographs, and all manner of gifts to their potential 
victims. Computer-sex offenders have even sent plane tickets in order 
for the child to travel across the country to meet them.

Your Child Turns the Computer Monitor Off or Quickly Changes the Screen 
        on the Monitor When You Come Into the Room
    A child looking at pornographic images or having sexually explicit 
conversations does not want you to see it on the screen.

Your Child Becomes Withdrawn From the Family
    Computer-sex offenders will work very hard at driving a wedge 
between a child and their family or at exploiting their relationship. 
They will accentuate any minor problems at home that the child might 
have. Children may also become withdrawn after sexual victimization.

Your Child Is Using an On-line Account Belonging to Someone Else
    Even if you don't subscribe to an on-line service or Internet 
service, your child may meet an offender while on-line at a friend's 
house or the library. Most computers come preloaded with on-line and/or 
Internet software. Computer-sex offenders will sometimes provide 
potential victims with a computer account for communications with them.

What Should You Do If You Suspect Your Child Is Communicating With A 
        Sexual Predator On-line?
  <bullet> Consider talking openly with your child about your 
        suspicions. Tell them about the dangers of computer-sex 
        offenders.

  <bullet> Review what is on your child's computer. If you don't know 
        how, ask a friend, coworker, relative, or other knowledgeable 
        person. Pornography or any kind of sexual communication can be 
        a warning sign.

  <bullet> Use the Caller ID service to determine who is calling your 
        child. Most telephone companies that offer Caller ID also offer 
        a service that allows you to block your number from appearing 
        on someone else's Caller ID. Telephone companies also offer an 
        additional service feature that rejects incoming calls that you 
        block. This rejection feature prevents computer-sex offenders 
        or anyone else from calling your home anonymously.

  <bullet> Devices can be purchased that show telephone numbers that 
        have been dialed from your home phone. Additionally, the last 
        number called from your home phone can be retrieved provided 
        that the telephone is equipped with a redial feature. You will 
        also need a telephone pager to complete this retrieval.

  <bullet> This is done using a numeric-display pager and another phone 
        that is on the same line as the first phone with the redial 
        feature. Using the two phones and the pager, a call is placed 
        from the second phone to the pager. When the paging terminal 
        beeps for you to enter a telephone number, you press the redial 
        button on the first (or suspect) phone. The last number called 
        from that phone will then be displayed on the pager.

  <bullet> Monitor your child's access to all types of live electronic 
        communications (i.e., chat rooms, instant messages, Internet 
        Relay Chat, etc.), and monitor your child's e-mail. Computer-
        sex offenders almost always meet potential victims via chat 
        rooms. After meeting a child on-line, they will continue to 
        communicate electronically often via e-mail.

    Should any of the following situations arise in your household, via 
the Internet or on-line service, you should immediately contact your 
local or state law enforcement agency, the FBI, and the National Center 
for Missing and Exploited Children:

        1. Your child or anyone in the household has received child 
        pornography;

        2. Your child has been sexually solicited by someone who knows 
        that your child is under 18 years of age;

        3. Your child has received sexually explicit images from 
        someone that knows your child is under the age of 18.

    If one of these scenarios occurs, keep the computer turned off in 
order to preserve any evidence for future law enforcement use. Unless 
directed to do so by the law enforcement agency, you should not attempt 
to copy any of the images and/or text found on the computer.
What Can You Do to Minimize the Chances of an On-line Exploiter 
        Victimizing Your Child?

  <bullet> Communicate, and talk to your child about sexual 
        victimization and potential on-line danger.

  <bullet> Spend time with your children on-line. Have them teach you 
        about their favorite on-line destinations.

  <bullet> Keep the computer in a common room in the house, not in your 
        child's bedroom. It is much more difficult for a computer-sex 
        offender to communicate with a child when the computer screen 
        is visible to a parent or another member of the household.

  <bullet> Utilize parental controls provided by your service provider 
        and/or blocking software. While electronic chat can be a great 
        place for children to make new friends and discuss various 
        topics of interest, it is also prowled by computer-sex 
        offenders. Use of chat rooms, in particular, should be heavily 
        monitored. While parents should utilize these mechanisms, they 
        should not totally rely on them.

  <bullet> Always maintain access to your child's on-line account and 
        randomly check his/her e-mail. Be aware that your child could 
        be contacted through the U.S. Mail. Be up front with your child 
        about your access and reasons why.

  <bullet> Teach your child the responsible use of the resources on-
        line. There is much more to the on-line experience than chat 
        rooms.

  <bullet> Find out what computer safeguards are utilized by your 
        child's school, the public library, and at the homes of your 
        child's friends. These are all places, outside your normal 
        supervision, where your child could encounter an on-line 
        predator.

  <bullet> Understand, even if your child was a willing participant in 
        any form of sexual exploitation, that he/she is not at fault 
        and is the victim. The offender always bears the complete 
        responsibility for his or her actions.

  <bullet> Instruct your children:

        -- to never arrange a face-to-face meeting with someone they 
        met on-line;

        -- to never upload (post) pictures of themselves onto the 
        Internet or on-line service to people they do not personally 
        know;

        -- to never give out identifying information such as their 
        name, home address, school name, or telephone number;

        -- to never download pictures from an unknown source, as there 
        is a good chance there could be sexually explicit images;

        -- to never respond to messages or bulletin board postings that 
        are suggestive, obscene, belligerent, or harassing;

        -- that whatever they are told on-line may or may not be true.

Frequently Asked Questions
My Child Has Received an E-mail Advertising for a Pornographic Website, 
        What Should I Do?
    Generally, advertising for an adult, pornographic website that is 
sent to an e-mail address does not violate Federal law or the current 
laws of most states. In some states it may be a violation of law if the 
sender knows the recipient is under the age of 18. Such advertising can 
be reported to your service provider and, if known, the service 
provider of the originator. It can also be reported to your State and 
Federal legislators, so they can be made aware of the extent of the 
problem.

Is Any Service Safer Than the Others?
    Sex offenders have contacted children via most of the major on-line 
services and the Internet. The most important factors in keeping your 
child safe on-line are the utilization of appropriate blocking software 
and/or parental controls, along with open, honest discussions with your 
child, monitoring his/her on-line activity, and following the tips in 
this pamphlet.

Should I Just Forbid my Child From Going On-line?
    There are dangers in every part of our society. By educating your 
children to these dangers and taking appropriate steps to protect them, 
they can benefit from the wealth of information now available on-line.

Helpful Definitions:
    Internet--An immense, global network that connects computers via 
telephone lines and/or fiber networks to storehouses of electronic 
information. With only a computer, a modem, a telephone line and a 
service provider, people from all over the world can communicate and 
share information with little more than a few keystrokes.
    Bulletin Board Systems (BBSs)--Electronic networks of computers 
that are connected by a central computer setup and operated by a system 
administrator or operator and are distinguishable from the Internet by 
their ``dial-up'' accessibility. BBS users link their individual 
computers to the central BBS computer by a modem which allows them to 
post messages, read messages left by others, trade information, or hold 
direct conversations. Access to a BBS can, and often is, privileged and 
limited to those users who have access privileges granted by the 
systems operator.
    Commercial On-line Service (COS)--Examples of COSs are America 
Online, Prodigy, CompuServe and Microsoft Network, which provide access 
to their service for a fee. COSs generally offer limited access to the 
Internet as part of their total service package.
    Internet Service Provider (ISP)--Examples of ISPs are Erols, 
Concentric and Netcom. These services offer direct, full access to the 
Internet at a flat, monthly rate and often provide electronic-mail 
service for their customers. ISPs often provide space on their servers 
for their customers to maintain World Wide Web (WWW) sites. Not all 
ISPs are commercial enterprises. Educational, governmental and 
nonprofit organizations also provide Internet access to their members.
    Public Chat Rooms--Created, maintained, listed and monitored by the 
COS and other public domain systems such as Internet Relay Chat. A 
number of customers can be in the public chat rooms at any given time, 
which are monitored for illegal activity and even appropriate language 
by systems operators (SYSOP). Some public chat rooms are monitored more 
frequently than others, depending on the COS and the type of chat room. 
Violators can be reported to the administrators of the system (at 
America Online they are referred to as terms of service [TOS]) which 
can revoke user privileges. The public chat rooms usually cover a broad 
range of topics such as entertainment, sports, game rooms, children 
only, etc.
    Electronic Mail (E-Mail)--A function of BBSs, COSs and ISPs which 
provides for the transmission of messages and files between computers 
over a communications network similar to mailing a letter via the 
Postal Service. E-mail is stored on a server, where it will remain 
until the addressee retrieves it. Anonymity can be maintained by the 
sender by predetermining what the receiver will see as the ``from'' 
address. Another way to conceal one's identity is to use an ``anonymous 
remailer,'' which is a service that allows the user to send an e-mail 
message repackaged under the remailer's own header, stripping off the 
originator's name completely.
    Chat--Real-time text conversation between users in a chat room with 
no expectation of privacy. All chat conversation is accessible by all 
individuals in the chat room while the conversation is taking place.
    Instant Messages--Private, real-time text conversation between two 
users in a chat room.
    Internet Relay Chat (IRC)--Real-time text conversation similar to 
public and/or private chat rooms on COS.
    Usenet (Newsgroups)--Like a giant, cork bulletin board where users 
post messages and information. Each posting is like an open letter and 
is capable of having attachments, such as graphic image files (GIFs). 
Anyone accessing the newsgroup can read the postings, take copies of 
posted items, or post responses. Each newsgroup can hold thousands of 
postings. Currently, there are over 29,000 public newsgroups and that 
number is growing daily. Newsgroups are both public and/or private. 
There is no listing of private newsgroups. A user of private newsgroups 
has to be invited into the newsgroup and be provided with the 
newsgroup's address.
    This document can be found at http://www.fbi.gov/publications/
pguide/pguidee.htm.

    Mr. Burrus. But what it is, is it's a parents' guide to 
Internet safety. And we do thousands of these every year. We 
have them not only in English, but we have them in Spanish. 
That's for the parents. We also team up with the National 
Center for Missing and Exploited Children, Boys Club and Girls 
Club, and produce a brochure specifically for children. We are 
always available to do this type of presentations. We enjoy 
doing them. Because, in addition to the enforcement side, which 
you are very well aware of, we think that prevention is the 
key, the very things that this committee has already talked 
about, making sure that the computer is in a public place, and 
making sure you know what your children are doing online are 
all very important things to do and use, and I will leave these 
with the Committee, Chairman, with your permission, for 
inclusion in the record.
    Senator Pryor. Yes, thank you for doing that. I like that, 
and I'm glad you do that. And, like I said, I think there are 
States that do it in various ways, maybe school districts and 
cities, and who knows what. But--and all that's great, but my 
sense is that there's not one unified effort on that, that--
where there's one place to go to, or one unified effort, with 
everybody sort of rowing in the same direction. But that's--you 
know, we can work on that, work through that. We're glad to 
have your help.
    And the last thing, Mr. Chairman, is, I just wanted to--
since we have these two law-enforcement witnesses here--to know 
what the major obstacles are in prosecuting Internet 
pornography.
    Ms. Parsky. Well, the bill that I mentioned before, H.R. 
3132, includes several proposals from the Administration that 
were meant to address some of the obstacles. One of the 
obstacles we've encountered is a few circuits are finding that, 
for purposes of establishing a nexus to interstate commerce and 
child pornography cases, that the fact that the materials 
traveled in interstate commerce is not sufficient. And certain 
courts have required prosecutors to show that, in fact, the 
image itself that's the basis of the prosecution traveled. And 
that can be very difficult, in a number of cases. So, one of 
the proposals is to clearly establish Congressional findings 
that show that intrastate possession of child pornography has a 
nexus to the interstate demand and supply for that commodity.
    Senator Pryor. Thank you.
    The Chairman. Senator Inouye?
    Senator Inouye. On the Google case, could you advise us as 
to what your reaction is to Google's position that your attempt 
is an invasion of their privacy?
    Ms. Parsky. I'm afraid that, because that's a pending 
matter--it's litigation that's being actively pursued by the 
Civil Division of the Department of Justice--that I am not in a 
position to be able to comment on that.
    The Chairman. Ms. Parsky, I note that you didn't read the 
part that I think you deserve credit for. Would you mind 
reading the provisions of your statement from page 6, the last 
paragraph, through the bottom of page 7?
    Ms. Parsky. Certainly.
    The Chairman. We have----
    Ms. Parsky. These are the two cases that I had cited as 
examples of our child pornography----
    The Chairman. It starts----
    Ms. Parsky.--prosecutions?
    The Chairman.--``The Department has recently has 
substantial success.''
    Ms. Parsky. Yes.
    The Chairman. Yes.
    Ms. Parsky. The Department recently has had substantial 
success in destroying several major child pornography 
operations. Two examples are United States v. Mariscal, which 
was out of the Southern District of Florida, and Regpay, or 
Operational Falcon, from the District of New Jersey.
    In Mariscal, Angel Mariscal received a 100-year prison 
sentence on September 30, 2004, in the Southern District of 
Florida, after being convicted on seven charges, including 
conspiracy to produce, importation, distribution, advertising, 
and possession with intent to sell child pornography. Mariscal 
traveled repeatedly over a 7-year period to Cuba and Ecuador, 
where he produced and manufactured child pornography, including 
videotapes of Mariscal sexually abusing minors, some under the 
age of 12. As a result of Mariscal's arrest, his customers 
across the country were targeted in Operation Lost Innocence, 
which was coordinated by the U.S. Postal Inspection Service and 
CEOS. Today, Lost Innocence has resulted in 107 searches, 55 
arrests or indictments, and 44 convictions.
    United States v. Zalatarou, which was the Regpay case and 
led to Operation Falcon, is an example of how one child 
pornography investigation can lead to the apprehension of many 
other offenders. Regpay was a Belarus-based company that 
provided credit card processing services to hundreds of 
commercial child pornography websites. Regpay contracted with a 
Florida company, Connections USA, to access a merchant bank in 
the United States. In February 2005, several Regpay defendants 
pled guilty to various conspiracy, child pornography, and money 
laundering offenses in the District of New Jersey. Connections 
USA and several of its employees also pled guilty in connection 
with this case. The Regpay investigation spawned the U.S. 
Immigration and Customs Enforcement's Operation Falcon, an 
international child pornography trafficking investigation that, 
so far, has resulted in 448 open investigations, 130 search 
warrants in the U.S., 191 domestic and approximately 767 
foreign arrests in Australia, Denmark, Finland, Hong King, 
Liechtenstein, Netherlands, Norway, Scotland, Sweden, 
Switzerland, and the United Kingdom, and 47 domestic 
indictments generating 14 convictions.
    The Chairman. Well, I wanted you to read that, because I 
think it shows the worldwide intensity of this pornographic 
problem, and we do congratulate you and the Department and the 
FBI for what you're doing. We want to try to make sure you've 
got all of the tools you need to continue to do it. So, thank 
you very much.
    Ms. Parsky. Thank you.
    The Chairman. Our next witnesses are Dr. James Weaver, 
Professor of Communication and Psychology, Department of 
Communication, Virginia Tech, in Blacksburg, Virginia; Tim 
Lordan, Executive Director of the Internet Education 
Foundation, Washington, D.C.; Tatiana Platt, Chief Trust 
Officer and Senior Vice President of America Online; and Paul 
Cambria, General Counsel of Adult Freedom Foundation, from 
Buffalo, New York. You've waited patiently.
    Dr. Weaver, we'll proceed in the order I read, if you 
would, please, we'd like to have your comments.

         STATEMENT OF JAMES B. WEAVER, III, PROFESSOR, 
  COMMUNICATION AND PSYCHOLOGY, DEPARTMENT OF COMMUNICATION, 
      VIRGINIA POLYTECHNIC INSTITUTE AND STATE UNIVERSITY

    Dr. Weaver. Thank you, Mr. Chairman, for providing me with 
the opportunity to share some thoughts on one of the most 
complicated challenges of our time: how to reconcile the 
conflicting interests of promoting free speech, free thought, 
and free enterprise without abdicating our larger societal role 
to ensure that parents have the freedom and resources necessary 
to raise and socialize their children as they see fit.
    In my written testimony, I've attempted to provide you with 
a comprehensive analysis and interpretation of the current 
state of knowledge concerning pornography, the Internet, and 
children. There are several important points that I would like 
to briefly discuss with you today. Foremost among these, we 
must accept the fact that no single solution for protecting 
children from Internet pornography, whether it's technical, 
legal, economic, or educational, will be sufficient. That point 
was clearly expressed by the National Academies' National 
Research Council report, Youth, Pornography, and the Internet, 
that was commissioned by Congress. But it warrants repeating. 
We must, in other words, work to envision multifaceted and 
innovative approaches to the problem at hand.
    At the same time, however, we need to acknowledge that 
almost 4 decades of study into the question of pornography's 
place within our society by both the legislative and executive 
branches of our Government has, for the most part, failed to 
adequately prepare most American families to deal with the 
rapid and expansive evolution of the pornography industry in 
the digital age.
    As you've already heard, today pornography is big business. 
Last year, it's estimated that the sale and rental of DVDs and 
videocassettes generated about $4.3 billion in revenue. On the 
Internet, about $2.5 billion were collected. Plus, mainstream 
media organizations, such as cable, satellite, and broadband 
services, and almost all of our top-50 U.S. hotel chains, are 
earning huge profits distributing pornography. Unfortunately, 
this profiteering by mainstream companies is helping to 
legitimize pornography as normal, commonplace, and mainstream 
for millions of Americans.
    We must acknowledge that the content of pornography today 
really leaves nothing to the imagination. And these are not 
images where affection and emotional intimacy are well 
integrated. Women in pornography are not valued for their 
intellect or strength, they're not valued for their talents as 
doctors, teachers, musicians, entrepreneurs, political leaders, 
mothers, or scientists. No, the unequivocal message of 
pornography is that women are valued only as objects for male 
sexual gratification. This is a redundant and unchallenged 
stereotype projected onto our society by pornography. This, I 
think, is particularly problematic, especially for young 
people. As the values and standards of pornography and the sex 
industry become mainstreamed, it is these distorted images and 
ideals that our teens draw from as they come to understand what 
it means to be men and women and how they should treat 
themselves and each other. Socially acceptable and socially 
desirable behaviors have become redefined, particularly in the 
realm of sexuality. As I detailed in my written comments, there 
are many facets of contemporary teen culture that now reflect 
these changes.
    Many of the social and psychological consequences of 
exposure to pornography have been unambiguously demonstrated in 
over 20 years of extensive social-science research. The 
findings are surprisingly consistent and clear, and establish 
that consumption of pornography is a significant contributing 
factor in the creation of perceptions, dispositions, and 
behaviors that reflect sexual callousness, the erosion of 
family values, and diminished sexual satisfaction.
    It is against this backdrop that we must now grapple with 
the question of how we, individually and as a national family, 
can best respond to pornography, in general, and to pornography 
on the Internet, in particular. I've proposed three courses of 
action that I think we should consider.
    One, you've already heard a great deal about today. It 
basically is this question. How desirable is it for our society 
that many of our children and adults are relying on pornography 
as their primary sex educator? The promotion of social and 
educational strategies that teach children to make wise choices 
about using the Internet and to take control of their online 
experiences has pretty much been largely ignored. And this is a 
trend that we need to correct. We need to empower both parents 
and children through a well-designed, extensive media literacy 
campaign on how to use the Internet.
    Now, as a personal observation, one thing that I've found 
really interesting, as I talk to college seniors about 
pornography, they typically get quite angry. But the reaction 
is not about issues of freedom of expression or freedom of 
choice. Instead, many of these college seniors, our first 
generation, our first Net/Internet generation, become really 
disturbed when they realize that no one forewarned them about 
the potential adverse consequences of pornography before they 
inadvertently immersed themselves into such content.
    A second, and perhaps more immediate, concern is to explore 
this question. Does the use of sexually explicit images as a 
marketing ploy for commercial transactions on the Internet 
represent commercial speech; thus, mitigating the degree of 
constitutional protection typically accorded pornography? In my 
own research and the work of others, it is clear that many 
Internet pornography vendors attempt to lure customers to their 
websites with free content. More importantly, this marketing 
strategy typically involves no attempt at age verification, 
often features ``gonzo pornography'' that depicts sex between 
multiple partners, involves physically abusive behaviors, 
avoids safe-sex practices, and frequently includes content that 
appears inconsistent with current child pornography laws. 
Further, many of these sampler websites offer, for free, the 
serialization of full-length films, providing the viewer with 
several 1- or 2-minute segments each week; thus encouraging the 
consumer to develop the habit of returning for more frequent 
free content, but also always offering the opportunity for the 
consumer to view the complete film for a fee. As we contemplate 
the potential impact of Internet pornography on children, these 
marketing practices that exploit free-speech ideals emerge as 
particularly reprehensible.
    And finally, we must recognize that our society is on the 
verge of an era when anyone anywhere with a cell phone will be 
able to watch sexually explicit videos. One can only wonder 
what mechanisms are now being developed to provide some 
protection to children as these new wireless telecommunication 
technologies become available.
    Thank you, again, for the opportunity to testify. I 
appreciate all that this committee and other Members of 
Congress are doing to find responsible solutions for this 
complicated challenge.
    [The prepared statement of Dr. Weaver follows:]

 Prepared Statement of James B. Weaver, III, Professor, Communication 
   and Psychology, Department of Communication, Virginia Polytechnic 
                     Institute and State University

Pornography: Understanding Some Consequences for Children and Youth
    The issue of pornography has undergone a dramatic change over the 
past four decades, one that shifts the definition, increases the 
complexity, and requires a new level of discussion. With the advent of 
the digital age, the pornography marketplace has rapidly transitioned 
from one tailored to a subculture of connoisseurs, with access 
typically restricted to adult bookstores and movie theaters, into a 
mass market offering prolific content availability and diversity. \1\
    Cable television, the Internet, DVDs, and other new technologies 
have made sexually explicit media content widely available, 
particularly to children and youth. And the content of pornography has 
become increasingly abusive, coercive, degrading, and violent. 
Contemporary pornography is, at best, a distant cousin of the artistic 
portraits of human female nudes common 20 years ago. Instead, the 
pornography industry today is dominated by sexually explicit videos 
that commonly portray the domination and humiliation of women for the 
purpose of arousal. \2\

The Pornography Industry
    And today pornography is big business. One recent forecast projects 
2005 revenues for the adult entertainment industry of $12.6 billion \3\ 
with nearly $4.3 billion, or 34 percent, generated by the sale or 
rental of DVDs and videocassettes and another 20 percent, or $2.5 
billion, collected through Internet marketing. \4\ By channeling 
sexually explicit content into millions of homes and hotel rooms, 
pornography producers and corporate America profit together. Direct TV, 
which is owned by Rupert Murdoch's News Corporation--the parent company 
of the Fox TV networks--earns over $20 million per month from 
pornography. AT&T generates similar income distributing pornography via 
its broadband Internet services. All of the top 50 U.S. hotel chains, 
with the exception of Omni Hotels, offer pornography to their guests 
with sales accounting for nearly 70 percent of their in-room profits; 
as much as 10 percent of the annual profits of these hotel chains are 
derived from guests viewing pornography. \5\ In short, the production 
and distribution of pornography has rapidly evolved from a ``cottage 
industry'' to a stable and well-refined mass-production enterprise.

``Pornography is Just Good, Clean Entertainment, Right?''
    Perhaps most troubling, however, is how the marriage of pornography 
producers and corporate America is perceived by the general public. 
Basically, the profiteering from sexually explicit media content by 
mainstream companies has helped to legitimize pornography as ``normal'' 
and ``commonplace'' for millions of Americans. \6\ While, at the same 
time, most voices that might speak out about the potentially harmful 
effects of viewing the distorted images typical of contemporary 
pornography have become taciturn and muted. Basically, in a culture 
where we put warning labels on everything from hair-dryers to coffee-
cups to music CDs to theatrical release movies, essentially no one 
provides consumers with any warnings or information about pornography. 
The consequence of this is reflected in a question posed to me recently 
by a student who asked: ``That means pornography is just good, clean 
entertainment, right?''

Pornography Distorts Our Perceived Reality About Sex
    Pornography today leaves nothing to the imagination. In hundreds of 
thousands of movies streamed over the Internet, or piped into homes and 
hotel rooms, pornography presents vivid, salient, and graphic images of 
human sexuality, in general, and female sexuality, in particular. And 
these are not images where affection and emotional intimacy are well 
integrated. Instead, women are consistently and repeatedly objectified 
as sexually immodest and indiscriminate; as, to use a phrase coined by 
a feminist writer, ``anonymous panting playthings.'' \7\ Women in 
pornography are not valued for their intellect or strength; they are 
not valued for their talents as doctors, teachers, musicians, 
entrepreneurs, mothers, and scientists. No, the unequivocal message of 
pornography is that women are valued only as objects for male sexual 
gratification. This is the redundant and unchallenged stereotype 
projected onto our society by pornography. \8\

Pornography and the Sexual Socialization of Children
    This is particularly problematic, I believe, for young people. 
Today, the near omnipresent mass media plays more of a role in the 
socialization of our children than ever before. \9\ As the values and 
standards of pornography and the sex industry become mainstreamed, it 
is these distorted images and ideals that our teens draw from as they 
come to understand what it means to be men and women and how they 
should treat themselves and each other. Socially acceptable and 
socially desirable behaviors have been redefined, particularly in the 
realm of sexuality. There are many facets of teen culture that reflect 
these changes. \10\
    Some of the most obvious demonstrations of the sexual socialization 
of today's teens can be found in their closets. Clothing is an 
important part of teen culture. It serves as a means of self-expression 
or a sign of affiliation with a particular social group or set of 
values. Parents and teachers have long been aware that ``porn fantasy'' 
fashions and ``stripper chic'' styles have filtered down to younger and 
younger girls. Many critics now fear that mass-market pornography has 
begun operating as a kind of social ruse for young women: They are 
encouraged to embrace the objectified female sexuality depicted by 
pornography based on the misguided notion that it provides 
``liberation.'' Some evidence speaks to the potential breadth of this 
trend: According to a Time magazine report, in 2003 girls between 13 
and 17 spent about $152 million on thong underwear. \11\
    One of the saddest consequences of the pornographic sexual 
socialization of American youth concerns what has become socially 
acceptable, even socially desirable, sexual behavior in teen culture. 
An article in The New York Times Magazine explored the increasingly 
mainstream phenomenon of teen ``hook-ups''--which are strictly casual 
sexual encounters occurring between teenage boys and girls. While 
teenagers having sex has been of significant concern for many years, 
the degree of deliberate and self-professed detachment manifest in 
these ``hook-ups'' is startling. \12\
    The legitimacy of this hook-up phenomenon within popular teen 
culture was exemplified on the CBS TV program Judging Amy. In an 
episode entitled ``Consent'' (#604, originally broadcast October 24, 
2004) Judge Amy Gray heard the case of a male teen (Brent) who was 
accused of forcing a teenage girl (Caroline) to perform oral sex during 
a party. Judge Gray was asked to decide if the sexual behavior was 
sexual assault or the result of peer pressure. In a key scene of the 
episode Brent testifies ``that's what the parties are for.'' He 
explains:

        the girls have bracelets to show what they are into. Black--all 
        the way, blue--oral sex, orange--only kissing. Caroline had on 
        a blue bracelet. (She denied it meant anything.) He says the 
        older boys bullied him into getting oral sex from Caroline. 
        They pulled off his pants and shoved him forward. He felt he 
        didn't have a choice to back out. \13\

    As this episode illustrated, separating sexuality from emotion--
something typical of pornography--is now defined as cool, liberating, 
and empowering.

What the Social Science Research Reveals
    This fundamental consequence of exposure to pornography has been 
unambiguously demonstrated over the last 20 years by an extensive body 
of social science research. \14\ The findings are surprisingly 
consistent and clear: Watching pornography negatively impacts our most 
basic attitudes, beliefs, and values about sex, intimacy, and family. 
Frequent consumption of pornography, for example, leads to (1) an 
overestimation of almost all sexual activities performed by sexually 
active adults. Some writers refer to this as the ``pornucopia'' effect. 
(2) Consumption of pornography fosters exaggerated estimates of the 
incidence of pre- and extramarital sexual activity--as well as 
increased assessments of male and female promiscuity--and leads to 
perceptions of dishonesty and distrust among intimate partners. (3) 
Consumption of pornography spawns doubts about the value of marriage as 
an essential social institution and about its future viability. It also 
diminishes the desire for offspring within marriage. The strongest 
effect of this kind concerns the aspiration of female viewers for 
female children. (4) Consumption of pornography creates and enhances 
sexual callousness and trivializes the criminality of sexual assault 
and abuse targeted at both adults and children.
    Taken together, the research at hand establishes that consumption 
of pornography is a significant contributing factor in the creation of 
perceptions, dispositions, and behaviors that reflect sexual 
callousness, the erosion of family values, and diminished sexual 
satisfaction. \15\ Generalizing from these findings, we can anticipate 
that pornography should produce adverse consequences for individual 
consumers, their families and coworkers, and the broader community.

Pornography Facilitates Sexual Aggression
    Consideration of the pragmatic implications of the research 
evidence suggests, first of all, that the distorted messages of 
unrestrained human sexual promiscuity conveyed by pornography could be, 
as others have argued, a potent catalyst for abusive behaviors such as 
domestic violence and rape. Watching pornography, it must be 
remembered, has been shown to result in both a ``loss-of-respect'' for 
female sexual autonomy and the disinhibition of men in the expression 
of aggression against women. Extensive research evidence shows that 
these two factors are prominently interwoven components in the 
perceptual profiles of sexually abusive and aggressive individuals. 
\16\

Pornography Fosters Misogyny
    A second implication concerns the extent to which pornography-
induced misogynistic perceptions negatively influence the welfare of 
women of all ages in everyday, nonsexual circumstances. Exposure to 
pornography, the data reveal, fostered acceptance of the notion that 
women are subservient to men and promoted an adversarial, distrustful 
relationship between the sexes. Many voices have suggested that the 
most damaging consequences of prolonged consumption of pornography are 
evident in the ill treatment of women (e.g., employment discrimination, 
economic exploitation) simply because of their gender. \17\

Pornography as De Facto Sex Educator
    Third, there is reason to suspect that pornography--with its 
seemingly factual, documentary-style presentation of sexual behaviors--
has usurped most other socialization agents to become the de facto sex 
education for children and adults alike. Thus, the likelihood persists 
that the main messages of pornography have a stronger influence on the 
formation of sexual dispositions, including coercive disposition, than 
alternative forms of sexual indoctrination. \18\

Pornography Threatens the Family
    Fourth, it appears that the major consequence of consuming 
pornography is not the probability or possibility of committing a 
serious sex crime (though this can and does occur), but rather the 
disturbance of the fragile bonds of intimate relationships. \19\ This 
is where the most grievous pain, damage, and sorrow occur. Pornography 
perpetuates stereotypes that promote both exaggerated expectations 
about sexual behaviors and interpersonal distrust. Against this 
backdrop, there is considerable evidence suggesting that pornography 
can interference with or even destroy healthy love and sexual 
relationships among long-term bonded partners. At the 2002 meeting of 
the American Academy of Matrimonial Lawyers, for example, two-thirds of 
the 350 divorce lawyers who attended said the Internet played a 
significant role in divorces in the past year, with excessive interest 
in online porn contributing to more than half of such cases. ``This is 
clearly related to the Internet,'' says Richard Barry, president of the 
association. ``Pornography had an almost nonexistent role in divorce 
just seven or eight years ago.'' Consumption of pornography also 
appears to threaten the welfare of children by creating economic 
instability for many families. Increasingly, U.S. businesses are 
imposing disciplinary actions, including termination, on employees 
because of inappropriate pornography use within the workplace. \20\ One 
can only speculate how these Internet pornography threats to the 
nuclear family impact children.

Possible Courses of Action
    It is against this backdrop we must now grapple with the question 
of how we, individually, and as a national family might best respond to 
pornography, in general, and pornography on the Internet, in 
particular.
    We must acknowledge, however, that this discussion involves what 
may be one of the most complicated challenges of our time--how to 
reconcile the conflicting interests of promoting free speech, free 
thought, and free enterprise without abdicating our larger societal 
role to insure that parents have the freedom and resources necessary to 
raise and socialize their children as they see fit. Further, we must 
accept the fact that no single solution for protecting children from 
Internet pornography whether technical, legal, economic, or educational 
will be sufficient.
    Within this framework, some recommendations can be offered for 
contemplation. First, we must give full consideration of the 
desirability of pornography as a rudimentary ``educator'' about sex for 
children and adults alike. ``The promotion of social and educational 
strategies that teach children to make wise choices about using the 
Internet and to take control of their online experiences'' has, as 
noted in the National Academies' National Research Council report 
Youth, Pornography, and the Internet, been ``largely ignored in the 
present debate.'' \21\ This, it seems, is a trend that urgently needs 
correction.
    Towards this goal the Federal Government could support research 
initiatives (1) to more clearly document the incidence and prevalence 
of pornography use on the Internet by children, (2) that would better 
illuminate the impact of pornography use on the economic and relational 
stability of the family, and (3) effective strategies to counteract the 
distorted, redundant stereotypes perpetuated by an industry designed to 
sell sex as an entertainment commodity.
    Comprehensive educational strategies should also be developed and 
offered to educators for adaptation to their local community needs. 
And, clearly, these curricula should not be conceived of as ``sex 
education'' class; but, rather, as media literacy programs. As recently 
demonstrated at a Midwestern high school \22\ our ongoing national 
strategy concerning pornography has produced a difficult paradox: 
Despite our developing recognition of the adverse consequences that 
pornography can have on individuals, families, and our society, many of 
us remain afraid to engage in public discourse on the issue because it 
pertains to sexual behaviors. We proclaim, in other words, that 
pornography is ``bad'' but shy away from explaining why leaving it to 
the curiosity of children and young adults to discover for themselves 
what all the fuss is about. Simply said, we must develop educational 
and social strategies that will tarnish the luster of the ``forbidden 
fruit'' of pornography and equip the American public with the resources 
needed to make informed decisions about the role of this type of media 
content in their lives.
    Of course, initiatives such as these are not inexpensive and, given 
current budgetary constraints, it seems that innovative funding 
solutions must be explored. Personally, I've found the ideas expressed 
in the ``Internet Safety and Child Protection Act of 2005'' (S. 1507) 
sponsored by Senator Lincoln and others very provocative and hope that 
this bill will be expeditiously given full consideration.
    Another, more immediate, consideration that should be explored 
concerns the current, seemingly universally applied, definition of 
pornography as ``free speech.'' Specifically, one can argue that the 
current practice of many Internet pornography vendors of offering 
``free samples'' of sexually explicit images and videos as part of 
their marketing ploy involves the use of pornography as ``commercial 
speech.'' \23\ Research suggests that websites attempting to lure 
consumers with free content typically incorporate no age verification 
mechanism and often feature explicit ``gonzo porn'' that depicts sex 
between multiple partners, involves physically abusive behaviors, and 
avoids safe-sex practices. Many images--especially those depicting 
incest or involving teenage and/or amateur female performers, for 
instance--appear inconsistent with current child pornography laws. 
Further, these sampler websites often include the serialization of full 
films, providing the viewer with several one or two minute segments 
each week, thus encouraging the consumer to develop the habit of 
returning for more free content but always offering the opportunity to 
view the complete film for a fee. Taken together, these marketing 
practices raise the question: Does the use of sexually explicit images 
as part of a commercial transaction represent ``commercial speech'' and 
thus mitigating the degree of constitutional protection typically 
accorded pornography?
    Conceptualization of pornography on the Internet as commercial 
speech would offer the opportunity to scrutinize the appropriateness of 
other common, but deceptive, marketing practices. A recent website 
survey, for example, found that searches of keywords such as sex 
education, sexual health, and sex advice for teens yielded a 
preponderance of pornography web pages. Specifically, 63 percent of 
1,556 compatible web pages were categorized as pornographic. \24\ This 
raises the question: Does this distorted use of terminology that most 
reasonable people would normally not associate with the commercial 
distribution of sexually explicit images constitute deceptive 
advertising and are their mechanisms available to correct this 
practice?
    And, finally, we must recognize that our society is on the verge of 
an era when anyone with a cell phone will be able to watch sexually 
explicit videos anywhere. One can only wonder what mechanisms are being 
developed to provide protection to children with the newest 
distribution technologies such as video streaming to wireless 
telecommunication devices.

ENDNOTES
    \1\ Weaver, J.B., III (November 18, 2004). Testimony before the 
U.S. Senate. 
http://commerce.senate.gov/hearings/testimony.cfm?id=1343&wit_id=3913.
    \2\ Brosius, H.B., Weaver, J.B., III, & Staab, J.F. (1993). 
Exploring the social and sexual ``reality'' of contemporary 
pornography. The Journal of Sex Research, 30, 161-170.
    \3\ Mun, A. (December 13, 2005). Adult Industry Generates $12.6 
Billion in 2005, AVN Estimates; State of the U.S. Adult Industry Report 
Highlights Diverse Products and Delivery Options. http://
home.businesswire.com/portal/site/google/
index.jsp?ndmViewId=news_view&newsId=20051213005951&newsLang=en.
    \4\ Arnold, T.K. (January 9, 2006). Adult biz hot for home video. 
http://www.bizreport.com/news/9599/.
    \5\ CBS News 60 Minutes (September, 2004). Porn in the U.S.A. 
http://www.cbsnews.com/stories/2003/11/21/60minutes/main585049.shtml; 
PBS Frontline (August, 2001). Interview Dennis McAlpine. http://
www.pbs.org/wgbh/pages/frontline/shows/porn/interviews/
mcalpine.html#hotel; Thompson, M. (April 13, 2004). Porn profits go 
mainstream. http://moneycentral.msn.com/content/CNBCTV/Articles/
TVReports/P80813.asp.
    \6\ Paul, P. (January 19, 2004). The porn factor. Time, 163(3), 99. 
http://www.time.com/time/archive/preview/0,10987,993158,00.html; Paul, 
P. (2005). Pornified: How pornography is transforming our lives, our 
relationships, and our families. New York: Times Books.
    \7\ Brownmiller, S. (1975). Against our will: Men, women, and rape. 
New York: Simon and Schuster.
    \8\ United States Commission on Obscenity and Pornography (1970). 
Report of The Commission on Obscenity and Pornography. New York, 
Bantam. Over 30 years ago the Commission reported essentially the same 
observation noting that ``It is often asserted that a distinguishing 
characteristic of sexually explicit materials is the degrading and 
demeaning portrayal of the role and status of the human female. It has 
been argued that erotic materials describe the female as a mere sexual 
object to be exploited and manipulated sexually. One presumed 
consequence of such portrayals is that erotica transmits an inaccurate 
and uninformed conception of sexuality, and that the viewer or user 
will (a) develop a calloused and manipulative orientation toward women 
and (b) engage in behavior in which affection and sexuality are not 
well integrated.''
    \9\ Cantor, J., Mares, M., & Hyde, J.S. (2003). Autobiographical 
memories of exposure to sexual media content. Media Psychology, 5, 1-
31.
    \10\ Boies, S.C., Knudson, G., & Young, J. (2004). The internet, 
sex, and youths: Implications for sexual development. Sexual Addiction 
& Compulsivity, 11, 343-363. Greenfield, P.M. (2004). Inadvertent 
exposure to pornography on the Internet: Implications of peer-to-peer 
file-sharing networks for child development and families. Journal of 
Applied Developmental Psychology, 25, 741-750; Mitchell, K.J., 
Finkelhor, D., Wolak, J. (2003). Victimization of Youths on the 
Internet. Journal of Aggression, Maltreatment & Trauma, 8, 1-39; 
Ybarra, M.L., & Mitchell, K.J. (2005). Exposure to Internet pornography 
among children and adolescents: A national survey. CyberPsychology & 
Behavior, 8, 473-486.
    \11\ Wallis, C. (October 6, 2003). The thing about thongs. Time, 
162(14), 94. 
http://www.time.com/time/archive/preview/0,10987,1005821,00.html.
    \12\ Denizet-Lewis, B. (May 30, 2004). Friends, friends with 
benefits and the benefits of the local mall. The New York Times 
Magazine. http://select.nytimes.com/gst/
abstract.html?res=F60713FA3C5A0C738FDDAC0894DC404482.
    \13\ Judging Amy (October 24, 2004) Consent (program #604). Episode 
synopsis at http://judgingamy.tvfans.org/amy/episode/a604.htm.
    \14\ Weaver, J.B., III (1994). Pornography and sexual callousness: 
The perceptual and behavioral consequences of exposure to pornography. 
In D. Zillmann, J. Bryant, & A.C. Huston (Eds.), Media, family, and 
children: Social scientific, psychodynamic, and clinical perspectives 
(pp. 215-228). Hillsdale, NJ: Erlbaum.
    \15\ Schneider, J.P. (2000). A qualitative study of cybersex 
participants: Gender differences, recovery issues, and implications for 
therapists. Sexual Addiction & Compulsivity, 7, 249-278; Stack, S., 
Wasserman, I., & Kern, R. (2004). Adult social bonds and use of 
Internet pornography. Social Science Quarterly, 85, 75-88; Mulac, A., 
Jansma, L.L., & Linz, D.G. (2002). Men's behavior toward women after 
viewing sexually-explicit films: Degradation makes a difference. 
Communication Monographs, 69, 311-328.
    \16\ Oddone-Paolucci, E., Genuis, M., & Violato, C. (2000). A meta-
analysis of the published research on the effects of pornography. In C. 
Violato, E. Oddone-Paolucci, M. Genuis (Eds.), The changing family and 
child development (pp. 48-59). Aldershot, England: Ashgate Publishing; 
Malamuth, N.M., Addison, T., & Koss, M. (2000). Pornography and sexual 
aggression: Are there reliable effects and can we understand them? 
Annual Review of Sex Research, 11, 26-91; Shope, J.H. (2004). When 
words are not enough: The search for the effect of pornography on 
abused women. Violence Against Women, 10, 56-72.
    \17\ Russell, D.E.H. (1998). Dangerous relationships: Pornography, 
misogyny, and rape. Thousand Oaks, CA: Sage.
    \18\ Beauregard, E., Lussier, P., & Proulx, J. (2004). An 
exploration of developmental factors related to deviant sexual 
preferences among adult rapists. Sexual Abuse: Journal of Research and 
Treatment, 16, 151-161; Fisher, W.A., & Barak, A. (1989). Sex education 
as a corrective: Immunizing against possible effects of pornography. In 
D. Zillmann & J. Bryant (eds.), Pornography: Research advances and 
policy considerations (pp. 289-320). Hillsdale, NJ: Erlbaum. Haggstrom-
Nordin, E., Hanson, U., & Tyden, T. (2005). Associations between 
pornography consumption and sexual practices among adolescents in 
Sweden. International Journal of STD & AIDS, 16, 102-107; Smith, M. 
Gertz, E., Alvarez, S., & Lurie, P. (2000). The content and 
accessibility of sex education information on the Internet. Health 
Education & Behavior, 27, 684-694.
    \19\ American Academy of Matrimonial Lawyers (November 14, 2002). 
Is the Internet bad for your marriage ? http://www.expertclick.com/
NewsReleaseWire/default.cfm?Action=ReleaseDetail&ID=3051.
    \20\ Greenfield, D.N., & Davis, R. A. (2002). Lost in Cyberspace: 
The web @ work. CyberPsychology & Behavior, 4, 347-353 ; Griffiths, M. 
(2003). Internet abuse in the workplace: Issues and concerns for 
employers and employment counselors. Journal of Employment Counseling, 
40, 87-96.
    \21\ The National Academies (May 2, 2002). No single solution for 
protecting kids from Internet pornography. http://
www4.nationalacademies.org/news.nsf/isbn/0309082749?OpenDocument; 
Committee to Study Tools and Strategies for Protecting Kids from 
Pornography and Their Applicability to Other Inappropriate Internet 
Content, Computer Science and Telecommunications Board, National 
Research Council (2002). Thornburg, D., & Lin, H.S. (Eds.), Youth, 
pornography and the Internet. Washington: National Academy Press.
    \22\ Townsend, Angela (January 14, 2006). School gets lesson on 
porn : Don't bring it up in classroom. The Plain Dealer. http://
www.cleveland.com/news/plaindealer/index.ssf?/base/cuyahoga/
113723103675680.xml&coll=2.
    \23\ U.S. Constitution--Analysis and Interpretation (pp. 1020-
1187). Washington: U.S. Government Printing Office via GPO Access.
    \24\ Smith, M. Gertz, E., Alvarez, S., & Lurie, P. (2000). The 
content and accessibility of sex education information on the Internet. 
Health Education & Behavior, 27, 684-694.

    The Chairman. Thank you very much.
    Our next witness at the table is Tatiana Platt, Chief Trust 
Officer and Senior Vice President of America Online.

STATEMENT OF TATIANA S. PLATT, CHIEF TRUST OFFICER/SENIOR VICE 
                PRESIDENT, INTEGRITY ASSURANCE, 
                      AMERICA ONLINE, INC.

    Ms. Platt. Mr. Chairman and distinguished Members of the 
Committee, thank you for inviting me to testify before you 
today on the topic of protecting children on the Internet. My 
name is Tatiana Platt, and I am Chief Trust Officer and Senior 
Vice President at AOL.
    AOL has played a significant role in the development of the 
online medium, and we have always had a special appreciation of 
its enormous potential to benefit society, especially children. 
Learning how to explore and understand the online world is an 
essential skill for our children in today's world, but we all 
agree that kids need, and deserve, special protection in this 
ever-evolving medium.
    By promoting major public-education campaigns and closely 
cooperating with elected officials and government agencies on 
outreach and enforcement efforts, we have tried to offer 
strong, proactive leadership in every area of children's safety 
online. In some ways, even more important than those efforts, 
however, has been our commitment to providing our members with 
the resources and tools that they need to make informed 
decisions. No law, no technology, and no corporate initiative 
can ever take the place of an educated and involved parent when 
it comes to their children's online safety. That's why we work 
hard at AOL to give parents the most useful information, tools, 
and safety tips to help protect their children. By doing so, 
we've tried to empower parents so they can reinforce the rules 
of online safety, pay attention to what their children are 
doing, and make use of technologies, such as our parental 
controls, to protect their children from inappropriate content 
and help ensure that their online experience is safe and age-
appropriate.
    AOL parental controls have been integrated into the AOL 
service since the very first days of our company. In the 
beginning, those controls were mostly focused on limiting or 
filtering children's access to inappropriate websites and 
content areas such as chat rooms and message boards. Over time, 
however, our parental controls have evolved in response to 
technological changes in the medium, such as broadband access 
and multiple devices, as well as shifting consumer demand. We 
have added new age categories for parents who want a one-button 
solution to setting controls. We launched an online timer to 
give parents the ability to set limits on how much time their 
children spend online. We created the AOL Guardian, a feature 
that enables parents to receive daily and weekly updates on 
their child's online activities. And we have given parents the 
ability to view, set, or modify their parental controls from 
anywhere they have access to the Web through the AOL.com 
portal. Today, with over 5 million screen names on parental 
controls, they are the foundation of our child-protection 
package and a key offering of our subscription service.
    But AOL parental controls are only one of the tools that we 
use to keep children safe online. Because we know that e-mail 
is the number-one technique used by spammers and pornographers 
to spread their filth, we wage an around-the-clock war against 
unwanted and inappropriate e-mail. AOL blocks approximately 1.5 
billion spam e-mails per day, and has reduced complaints about 
spam from its members by 75 percent in the past 2 years.
    Creative pornographers have also started to attack 
computers directly via adware and spyware. While annoying and 
potentially dangerous for adult users, spyware and adware can 
be devastating for younger users, bombarding them with a never-
ending stream of pop-ups for pornography, gambling, and other 
inappropriate material. To respond to this threat, AOL 
introduced AOL Spyware Protection, software that can block more 
than 28,000 different types of spyware and adware.
    Equally important, as viruses and hackers don't stop to 
check for age verification, AOL is also working hard to make 
online safety and security easier for members of all ages 
through our technology offerings, such as the AOL Safety and 
Security Center.
    We have found that education of our members is an ongoing 
process. As new consumers come online every day, and as our 
existing customers' lives evolve, their parental control needs 
may change, as well. We believe that every family should 
periodically review new information, check their child's 
parental control settings, and update them as appropriate for 
their child's age and maturity. We also try to offer relevant 
tips to help ensure their child is having a safe online 
experience. These tips include commonsense advice, like finding 
out if your child has a profile on any of the common social-
networking sites, and either removing or reviewing that profile 
for inappropriate content.
    AOL's commitment to families and child safety includes a 
wide range of elements: educating consumers, providing great 
age-appropriate content for young audiences, working with law 
enforcement to go after bad actors, building an industry-wide 
coalition of like-minded companies and organizations, and 
offering parents easy-to-use, flexible parental control 
technology tools to customize their child's online experience.
    Finally, it bears repeating that there is no substitute for 
parental involvement. Raising consumer awareness about parental 
control choices in children's online safety is a collaborative 
effort, and we welcome continued private and public 
partnerships to achieve that goal.
    I thank the Committee, and I welcome the opportunity to 
answer any questions.
    [The prepared statement of Ms. Platt follows:]

Prepared Statement of Tatiana S. Platt, Chief Trust Officer/Senior Vice 
          President, Integrity Assurance, America Online, Inc.

    Thank you for inviting me to testify before you today on the topic 
of protecting children on the Internet. My name is Tatiana Platt, and I 
am Chief Trust Officer and Senior Vice President at America Online, 
Inc. My responsibilities include providing strategic leadership for the 
development and execution of processes and practices that ensure the 
integrity of AOL Inc. businesses. I oversee the integrity of the user 
experience, consumer protection, advertising and programming standards, 
privacy, online safety, accessibility, community standards and policy. 
This includes oversight of our child safety and privacy protections.
    AOL has played a significant role in the development of the online 
medium, and we have always had a special appreciation of its enormous 
potential to benefit society--especially children. Learning how to 
explore and understand the online world is an essential skill for our 
children in today's wired world, but we all agree that kids need and 
deserve special protection in this ever-evolving medium. AOL wants to 
give parents the tools and information to help ensure that their 
children can enjoy a rewarding and safe interactive experience online.
    By promoting major public education campaigns and closely 
cooperating with elected officials and government agencies on outreach 
and enforcement efforts, we have tried to offer strong proactive 
leadership in every area of children's safety online. In some ways even 
more important than those efforts, however, has been our commitment to 
providing our members with the resources and tools they need to make 
informed decisions. No law, no technology, and no corporate initiative 
can ever take the place of an educated and involved parent when it 
comes to their children's online safety. That's why we work hard to 
give AOL parents the most useful information, content, tools and safety 
tips to help protect their children, as well as convenient access to 
other resources available for families both on AOL and elsewhere on the 
Internet. By doing so, we've tried to empower parents so they can 
reinforce the rules of online safety, pay attention to what their 
children are doing, and make use of technology such as our Parental 
Controls to protect their children from inappropriate content and help 
ensure that their online experience is safe and age-appropriate.
    AOL Parental Controls have been integrated into the AOL service 
since the very first days of our company and have long been one of the 
most compelling reasons for parents and families to use AOL. In the 
beginning, those controls were mostly focused on limiting or 
``filtering'' children's access to inappropriate websites and content 
areas such as chat rooms and message boards.
    Over time, however, our Parental Controls have evolved in response 
to technological changes in the medium--such as broadband access and 
multiple devices--as well as shifting consumer demand. For example, we 
created a new Kids Only category setting in 1995, recognizing the 
increasing popularity of our children's content and the increasing 
number of families getting online. As the online medium became more 
mainstream, we focused on simplifying our Parental Controls. In 1997, 
we added our two ``teens'' categories, for parents who wanted a ``one 
button'' solution to setting controls. Even so, we continued to offer 
fully customizable selections for those parents who wanted to customize 
their child's experience. This ``category'' approach has proven very 
successful and popular with our millions of families with children.
    In 1998, we changed our registration process to prompt parents to 
set Parental Controls for each of the screen names or subaccounts that 
they can create with their AOL account for a child or other family 
member. When we integrated that step into the Create A Screen Name 
process, we saw a dramatic increase in adoption of the Parental 
Controls tools as a result. This process allows parents to make a 
decision for their child with age-specific Parental Control settings at 
the time that they are creating a user name for them, rather than 
leaving it up to the parents to remember to go back later. And to 
ensure that those controls cannot be circumvented by the child, only 
the parent's account--or a ``master'' account--can create a new screen 
name or set or change Parental Control settings.
    In the spring of 2000, we launched an online timer to give parents 
the ability to set limits on how much time their children spend online. 
A parent can determine when and for how long their child can be online. 
By doing so, a parent can help ensure that their child can only access 
the Internet for limited times per day, after homework is done, or when 
they are there to supervise.
    In February 2003, we created AOL Guardian, a feature that enables 
parents to receive updates on their child's online activities. Parents 
can choose to receive daily or weekly notices that include information 
about which websites their child visited or attempted to visit and to 
or from whom they sent or received e-mails or Instant Messages (IMs). 
The feature provides parents with a higher level of information about 
their children's online activities and can act as a springboard to help 
parents engage in conversations with their children about appropriate 
online behavior.
    Soon after that, we helped parents move their households into the 
high-speed world with a new feature called Internet Access Controls. 
This feature allows parents to apply Parental Controls to the entire 
computer, rather than just activities within the AOL software, so that 
children in the household will always have the protections of those 
controls, regardless of whether they have a dial-up or always-on 
broadband connection.
    We also gave parents the ability to view, set or modify their 
Parental Controls from anywhere they have access to the Web through the 
AOL.com portal, rather than having to log on through AOL at home to 
change those settings. In addition, we created a new Web Unlock feature 
that lets a child e-mail a request to their parents to be given access 
to a specific site that has been blocked by the Parental Control 
settings.
    These content settings are judiciously embedded into many of the 
widely used features on the AOL service including, but not limited to, 
search (a child's search capabilities are limited to his or her web 
settings), e-mail (a child will not be able to click on any links that 
are deemed inappropriate), and shopping (children will be restricted 
from accessing and purchasing products deemed to be mature or adult in 
nature).
    When creating a separate screen name for their child, parents are 
given the opportunity to choose one of three different standard age 
``category'' settings: KOL, RED, or RED Plus. These settings offer 
compelling age-appropriate content that allow a child to experience all 
the great things being online has to offer while providing parents a 
level of comfort that their child is only being exposed to content or 
people they have approved.
    A KOL setting (recommended for 12 and under) restricts children to 
the KOL Channel, which has been specially created and programmed for 
children 12 and under. The child also receives a customized Welcome 
Screen. In addition, KOL offers Radio KOL, a daily online radio show 
which now draws more than a million weekly listeners, Games, 
Interactive storybook, and Homework Help.
    Our goal is to create compelling age-appropriate content that will 
keep kids coming back, while blocking our youngest members from 
reaching any questionable websites or content areas or communicating 
with unknown people. For example, a child using a KOL screen name can 
access age-appropriate content on AOL and the Web and interact with 
others online through e-mail and in special supervised kids' message 
boards and chat areas, but he or she is blocked from taking part in 
general audience chat rooms and message boards on AOL, is blocked from 
Instant Messaging and cannot visit any website that has not been 
approved as age-appropriate.
    The reaction from members and media to this online safe zone for 
kids has been outstanding. In 2001, Yahoo! Internet Life Magazine 
awarded the Kids Only Channel as the ``Best Kids Community'' for ``kid-
friendly games, chat and homework helpers.'' In 2003 and 2005, KOL got 
a ``Best of Web'' award from WiredKids, the world's largest online 
safety and help group after being nominated by kids and teens and 
chosen by parent volunteers. And in 2004, KOL won the National 
Parenting Seal of Approval.
    AOL's RED, or Young Teen (recommended for ages 13-15) category 
provides more freedom than a Kids Only screen name, but does not 
provide full access to more mature content and potentially-dangerous 
interactive features. The RED service is designed to respond to the 
surge in online activity among today's teens and to empower them by 
letting them customize and personalize their desktop and choose content 
to highlight based on their specific interests. The RED service gives 
teens their own Welcome Experience, toolbar and Buddy List<SUP>'</SUP> 
feature as well as exclusive content and features from leading brands, 
original programming and expanded community tools.
    Young Teen screen names are allowed to access most AOL content, and 
they can visit websites that have been approved as age appropriate. 
They may communicate with others online through e-mail, IM and in Teen 
chats and message boards that are monitored by background-checked 
employees. Teens are restricted, however, from visiting inappropriate 
websites, or taking part in private chat rooms.
    Older teens are channeled into RED Plus, or Mature Teen 
(recommended for ages 16-17) settings, which allow older teens more 
freedom than the younger Parental Controls categories as they learn to 
be responsible adult online users. Mature Teens are offered access to 
the same RED content areas as younger teens, but they can also access 
almost all content on AOL and the Web except sites that have been 
classified for an adult (18 plus) audience. They can locate others and 
communicate online through Instant Messaging, Teen chats and message 
boards, and e-mail.
    Each of these category settings has a pre-selected set of 
``defaults'' for different features such as chat, e-mail, Instant 
Messages and Internet access. A parent can choose to customize any of 
these defaults within a category to ensure the experience best matches 
his or her child--so even on a KOL screen name (our most conservative), 
a parent may choose to further limit access to e-mail to an 
``approved'' list, or, alternately, may decide that the child is mature 
enough to fully participate in Instant Message conversations.
    Today, with over 5 million screen names on Parental Controls, they 
are the foundation of our child protection package and a key offering 
of our subscription service. While providing kids with entertaining and 
educational experiences has always been an important mission for AOL, 
we strongly feel that it is also our responsibility to help parents 
manage their child's online experiences.
    AOL's Parental Controls give parents both control and peace of 
mind, enabling them to make informed decisions about their kids' online 
activities by selecting the appropriate level of participation for each 
child. Parents also have the ability to customize additional features--
such as chat, e-mail and Internet access--based on their children's 
online savvy and maturity.
    AOL's Parental Controls also have another advantage, in that the 
majority of our technologies are run at the server level, rather than 
being limited to a single machine. Thus, we can provide equal 
protections to children regardless of where they log into AOL--at home, 
school, or a friend's house--and we can give parents the ability to 
check and update those controls from any computer with Web access.
    But AOL Parental Controls are only one of the tools we use to help 
keep children safe online. Because we know that e-mail is the number 
one technique used by spammers and pornographers to spread their filth, 
we wage an around-the-clock war against unwanted and inappropriate e-
mail.
    AOL blocks approximately 1.5 billion spam e-mails per day and has 
reduced complaints about spam from its members by 75 percent in the 
past two years. To reduce the amount of spam received by subscribers, 
AOL has developed new, more efficient and accurate spam blocking 
technology over the past few years, investing and continuing to invest 
millions of dollars every year. This technology permits AOL to identify 
and stop spam from even reaching a subscriber's mailbox.
    AOL is also working with other Internet businesses, including 
Yahoo! and Microsoft, on standards for identifying legitimate e-mail. 
While the industry hasn't yet settled on a standard, e-mail providers, 
including Yahoo!, Microsoft, and AOL, are testing a variety of 
technologies, including Sender Policy Framework (SPF), Microsoft Sender 
ID, and DomainKeys.
    To add an additional layer of protection for our younger members, 
AOL gives parents the ability to create an approved list of screen 
names and e-mail addresses that limits with whom their child can 
communicate by e-mail and IM. Manual spam filtering is also available, 
which allows a parent to block all mail with specific words, from 
specific senders, or which includes specific content.
    To help ensure that kids never see graphic images in e-mail from 
unknown senders, AOL's default setting for KOL and RED members is to 
have file attachments, embedded images or videos blocked in both e-mail 
and IMs. A parent can make the choice to turn this feature on for their 
specific child.
    Keeping younger members from seeing inappropriate Internet content 
is not enough, however. One of the greatest strengths of the online 
medium is its ability to build community, and we want to be sure that 
our younger members have safe access to chat rooms and message boards 
where they can make new friends, get homework help, or chat about 
current events.
    Because we know that community areas in both the online and offline 
worlds can be dangerous if left unsupervised, all KOL and RED chat 
rooms and message boards are monitored by trained staff. These 
dedicated individuals have gone through background checks and careful 
training in order to sensitively work with children and help prevent 
inappropriate language or conversation in chat rooms and message 
boards. They control the tone and content of each chat room and message 
board, warn or remove disruptive participants, and can alert parents if 
their children engage in dangerous or inappropriate behavior.
    Because creative pornographers have started to attack computers 
directly via surreptitiously-installed software, AOL is also on the 
forefront of fighting adware and spyware, sometimes referred to 
generically as spyware. While annoying and potentially-dangerous for 
adult users, spyware and adware can be devastating for younger users, 
bombarding them with a never-ending stream of pop-ups for pornography, 
tobacco, gambling, pharmaceuticals and other inappropriate material.
    Once installed on a computer, spyware can also perform other 
malicious acts such as tracking a user's online behavior. Spyware can 
be installed on a user's computer surreptitiously using a vulnerability 
in the operating system or browser, with permission buried deep in an 
End User License Agreement (EULA), or in exchange for ``free'' 
software.
    Regardless of how it is installed, spyware can be difficult to 
remove. First, a user must be able to find it. With the advent of 
``root kits'' and other tricks, spyware authors are hiding their 
software on users' computers, making detection more difficult. Second, 
newer versions of spyware are being written with self-healing routines, 
delete one file and, the next time the spyware starts up, it creates a 
new copy of the file.
    Early last year, AOL introduced AOL Spyware Protection software 
(ASP). ASP searches for and attempts to block more than 28,000 
different types of spyware and adware. Once installed, ASP conducts 
four separate scans--every few seconds, every 15 minutes, daily, and 
weekly to find programs that can track users and detract from their 
online experience. ASP also automatically checks for and installs any 
new updates every time a user logs on, so it can find and block the 
hundreds of new types of spyware being unleashed every month. AOL is 
continuing to improve the software and a new version of ASP was 
released just a few months ago.
    Equally important, as viruses and hackers don't stop to check for 
age verification, AOL is working hard to make online safety and 
security easier for members of all ages. In December 2005, AOL released 
its first version of the AOL Safety and Security Center (SSC). SSC is 
an interface for all aspects of the AOL Safety and Security Center, 
including anti-virus, anti-spyware, and firewall software. By default, 
all the safety and security features are on, and all of the features 
are automatically updated to help protect against the latest threats.
    In addition to the tools mentioned here, AOL also makes available 
extensive educational content to help keep parents as savvy as their 
children when it comes to the Internet.
    We have found that education of our members is an ongoing process. 
As new consumers come online every day and as our existing customers' 
lives evolve, their Parental Controls needs may change as well. We 
believe that every family should periodically review new information, 
check their child's Parental Controls settings and update them as 
appropriate for their child's age and maturity. Also important, we have 
worked to quickly and effectively notify our members of significant 
news and developments in the area of children's safety, like the 
Children's Online Privacy Protection Act or new Parental Controls 
offerings that may impact their family's online safety decisions.
    Furthermore, by updating parents on Internet and online 
developments we try to offer relevant and reasonable tips on how to 
help ensure their child is having a safe online experience. These tips 
include:

  <bullet> Keeping the family computer in a central location and not 
        behind closed doors in a child's room.

  <bullet> Finding out if your child has a profile on any of the common 
        social networking sites and either removing or reviewing that 
        profile for inappropriate content.

  <bullet> Checking Google and other major search engines for your 
        child's name, address, phone number and school name to 
        determine if any personally-identifiable information has been 
        placed online that could enable a predator to find them.

  <bullet> Reviewing your child's e-mail address book and IM Buddy List 
        to be sure you know who all of your child's online and offline 
        friends are.

    We have also worked with leading industry groups to help form a 
common alliance to help protect children online. In 1998, America 
Online was the first Internet Service Provider to partner with the 
National Center for Missing and Exploited Children (NCMEC) and helped 
launch its CyberTipLine. Since then and on an ongoing basis, AOL has 
been successfully working with NCMEC in many different arenas including 
technical assistance, technology training, event sponsorship, online 
safety campaigns, and financial contributions.
    AOL has a variety of different content areas on the service that 
explain and link to NCMEC's site and the CyberTipLine specifically. AOL 
is a member of NCMEC's Board of Directors and helps conduct training 
for the NCMEC staff and the law enforcement community for investigative 
and prosecutorial training. In November 2002, AOL and NCMEC also 
launched online ``Amber Alerts'' to help find missing children by 
instantly sending an alert to both AOL members and Internet users who 
have opted into those alerts via e-mail, phone or Instant Message.
    Furthermore, AOL through its leadership role in the Internet 
Service Provider trade association, USISPA, has partnered with NCMEC to 
produce a Best Business Reporting Practices document to promote a 
uniform and comprehensive referral protocol to facilitate the 
investigation of online trading of illicit graphic images.
    Although the majority of our online efforts are designed to help 
protect children against the daily threats of pornography, adult 
content, viruses, hackers, spam, phishing, and spyware, America Online 
also has a robust process in place to deal with the darkest players of 
the Internet, those online predators who might attempt to solicit a 
child for sexual activity. As soon as an AOL member notifies us of such 
an attempt, we will investigate and, if appropriate, engage NCMEC and/
or the local law enforcement agency in order to prevent the incident. 
We also work very closely with local, State, and Federal law 
enforcement agencies to track down and prosecute child predators. This 
operation has been ongoing for the last three to four years and as of 
last year, over 150 of these reports have led to arrests for child 
solicitation.
    Our criminal investigation staff also works to share their 
experience by training Federal, State, local, and military 
investigators and prosecutors. AOL conducts ongoing cybercrime training 
and digital evidence training at the FBI Academy, the Federal Law 
Enforcement Training Center, the U.S. DOJ's National Advocacy Center, 
the National White Collar Crime Center, the National District Attorneys 
Association, the American Prosecutors Research Institute, the National 
Association of Attorneys General, and NCMEC. AOL also has periodic law 
enforcement training at its own facilities in Dulles, Virginia. There 
are AOL technologists on around-the-clock call when law enforcement 
contacts AOL with criminal cases that relate to the AOL networks and 
services. AOL realizes that critical data and the understanding of this 
information is vital to a case especially if children are involved and 
at risk.
    Because child pornographers often share their illegal images by 
posting them to public sites, America Online has developed state of the 
art technology that uses sophisticated processes and protocols designed 
to help detect illegal image files (child pornography) that are posted 
to the AOL network. Once detected, an immediate report is made to law 
enforcement via NCMEC for further investigation and prosecution. It has 
taken several years of research and testing to produce this 
countermeasure and has now been in use successfully for the last two 
years.
    We believe this type of cooperation with law enforcement and 
investigative organizations is critical to supporting AOL's online 
safety mission.
    Despite all of these technological, industry, and legal efforts, 
however, the most important force in protecting children is actively-
involved and well-informed parents. That's why we don't just arm 
parents with online tools; we also provide them with tips, training, 
and information to monitor and guide their children's online 
experience.
    To do so, AOL has been a leader in organizing industry efforts to 
educate consumers about online safety and is committed to continuing 
this leadership role. AOL was a leading corporate host of the America 
Links Up national public education campaign, designed to give parents 
information to help their children have a safe, educational and 
rewarding experience online.
    In addition, AOL created and distributed a special video for kids--
called Safe Surfin'--that features online safety tips presented by some 
of the younger generation's favorite celebrities. This video was 
developed in partnership with the National School Boards Association 
and has been introduced into schools across the country.
    Furthermore, AOL, in conjunction with the American Library 
Association, launched the Internet Driver's Ed program. This program is 
a traveling Internet education and safety class for children and 
parents, hosted in children's museums and other prominent venues in 
major cities nationwide.
    AOL was also a key partner in forming the GetNetWise.org website--a 
resource designed to provide consumers with comprehensive online safety 
information that includes guidance from some of the major industry 
leaders. We also launched the Safety Clicks! Campaign through a 
partnership with Childhelp USA and the National School Board Foundation 
(NSBF). This is a nationwide effort to provide parents, kids and 
educators with the resources they need to enjoy a safe and enriching 
online experience. And AOL partnered with scores of governors and first 
spouses to launch the Internet Keep Safe Coalition, a state-supported 
educational program whose mascot, Faux Paws the Techno Cat, helps 
educate children to safely navigate the Internet.
    AOL also partnered with leading computer manufacturer, Dell, to 
create the TechKnow program. This program trains kids on computer 
technology and includes training on Internet safety. The program 
reaches between five and ten thousand children each year. They ``earn'' 
a computer from Dell, and AOL gives them a free account after they take 
the safety course. Learning about safety on the Internet should be as 
basic to computer users as the mouse, keyboard or software.
    AOL regularly speaks on the topics of protecting children online 
and Parental Controls and often provides safety demonstrations to local 
area schools and children's organizations. Such efforts serve to 
reinforce to parents the need for them to take their child's Internet 
use seriously and to avail themselves of the tools that can control the 
access their child has online.
    In conclusion, AOL's commitment to families and child safety 
includes a wide range of elements: educating consumers about online 
child safety, providing great age appropriate content for young 
audiences; working with law enforcement to go after bad actors, 
building an industry-wide coalition of like-minded companies and 
organizations, and offering parents easy to use, flexible Parental 
Controls tools to customize their children's online experience.
    We are constantly enhancing our offerings to families and working 
closely with others in the industry to fine-tune our technological 
tools so that they are the most up to date and effective as possible. 
The Internet is evolving every day as new types of interactivity arise, 
and new content is posted. We must strive to be ahead of the curve.
    Finally, it bears repeating that there is no substitute for 
parental involvement. Raising consumer awareness about Parental 
Controls, choices and child online safety is a collaborative effort. We 
welcome continued private and public partnerships to achieve that goal.

    The Chairman. Well, thank you very much.
    We'll print all of your statements in full in the record, 
just in case there's any question.
    Mr. Lordan--that's Tim Lordan, Executive Director of the 
Internet Education Foundation.

STATEMENT OF TIM LORDAN, EXECUTIVE DIRECTOR, INTERNET EDUCATION 
                        FOUNDATION (IEF)

    Mr. Lordan. Chairman Stevens, Senators, and the Committee, 
I thank you for inviting me to testify today, and I thank you, 
the staff, who spent their past holiday season investigating 
Internet pornography. Couldn't have been a fun holiday season.
    The Chairman. Pull that mike a little closer to you.
    Mr. Lordan. Yes.
    We are--the Internet Education Foundation which is a 
501(c)(3) nonprofit organization dedicated to educating the 
public and policymakers to the potential of the Internet to 
promote communications, commerce, and democracy. We have two 
major projects which are relevant for this discussion today.
    The first is, we do the event programming for the advisory 
committee to the Congressional Internet Caucus, which Senator 
Burns co-chairs with Senator Leahy and Congressmen Goodlatte 
and Boucher on the House side. Over the years, starting in 
1997, we have held Congressional briefings on Internet 
technology and policy. And a perennial favorite of the 
committee is holding information seminars on parental-
empowerment tools, how to protect children online, and the 
like. We've been doing this since 1997. And, from that 
perspective, we have an interesting view on the evolution of 
the marketplace for protecting kids.
    In addition, we host an award-winning website called 
GetNetWise.org. And that particular website advises parents and 
caregivers on how to protect their kids online. It also 
includes, as the cornerstone, a large database of searchable 
parental-empowerment tools, from filters to time-limiting 
tools, and two other types of monitors. We developed that 
website with the help of folks in the industry, the experts 
from AOL, and others, but also with a--with an advisory board 
of the real experts in the community on parental empowerment in 
child safety, like Donna Rice Hughes, Larry Magid, Anne 
Collier, Stephen Balkam, from ICRA, as you--as mentioned 
earlier. And the--each one of those individuals is doing a 
tremendous amount of education on their own to help educate 
parents about the availability of these tools and how to 
protect their kids online. So they really should be commended. 
And most of them are doing it from a nonprofit perspective, as 
well.
    Porn is certainly a challenge. No parent will say that 
access to pornography for their children is a good thing. We 
heard disturbing testimony earlier today about parents actually 
taking explicit pictures of their children and abusing them in 
that manner. Child pornography developed in that way is 
obviously against the law and really disturbing. And I was 
really glad to hear Mr. Burrus and Ms. Parsky saying they have 
the resources they need to address the problem, and the tools 
to go after those criminals.
    I think, today, I want to focus my comments on the average 
American family, who is trying to deal with keeping their 
children away from either inadvertently or purposefully going 
to look at inappropriate material. And you can define it any 
way--obscenity is certainly against the law; pornography, 
itself, however you define it; or just plain old trash. The 
question is--a parent doesn't care, whatever they think is 
objectionable, it's pornography to them.
    I think that it bears repeating, and Senator Stevens began 
his comments, that the Internet isn't an appliance you can just 
simply turn off. It is so critical to a child's development, 
his success in the workplace, success in school. Essentially, 
we cannot turn off the Internet and expect the children of 
today to be competitive in a global information economy. So, we 
have to find the strategies to empower parents to help keep 
their kids online while also away from pornographic material.
    Congress has asked this question before. And Dr. Weaver had 
mentioned the National Academy of Sciences' two-year study on 
this issue. The Congress also commissioned the COPA Commission 
to look at this issue, as well. And both those blue-ribbon 
panels have suggested that Congress needs to take a--the 
solutions problem is a holistic one--no substitute for the 
parenting, as Tatiana had mentioned, and that public education, 
Congressionally funded public education, wouldn't be a bad 
idea, either, but good parenting, use of parental-control 
tools, whether they be filters or monitors, or a combination 
thereof, is the effective way to go.
    The good news is that parents are getting this message. The 
majority of parents are actually using--with teenaged 
children--filters. Also, there's a sharp increase in the amount 
of parents, according to the Pew Internet & American Life 
Project, in the last several years who are using filters. So, 
there's hope.
    We're also very concerned about Dr. Weaver's comments about 
content as being untethered from its World Wide Web roots. 
Filters and filtering tools analyze text in a Web page. And 
just the same way that Google returns a perfect result for your 
search, filters do the same thing when it comes to analyzing 
text and Web pages, the text that pornography is embedded in. 
As that content and that multimedia gets untethered from those 
roots, we think that there's a challenge there, but, as the 
industry converges, the multimedia of today and tomorrow, we 
think there's a lot of opportunities to empower parents.
    I was thinking, in the--I've been attending your 
obscenity--or your indecency discussion, and I've been 
wondering whether--why don't I use the V-chip? I have three 
young children--and I have implemented, and then I've used it, 
but I--my parental-control choice, at the moment, is my TiVo. 
The TiVo on my television set is basically a large computer 
with really intuitive software. I actually select the content 
and prerecord the content I only want my children to see, and 
that content only. And they watch it on the terms that I 
dictate. And I think those tools are just a sample of the 
powerful and innovative tools we'll see coming down the road. 
And I think if the industry gets together, we can do it right, 
just the way that we can filter content in today's Internet.
    I thank the Committee.
    [The prepared statement of Mr. Lordan follows:]

    Prepared Statement of Tim Lordan, Executive Director, Internet 
                       Education Foundation (IEF)

    Chairman Stevens, Co-Chairman Inouye and Members of the Committee, 
thank you for inviting the Internet Education Foundation to comment on 
this enormously important issue.
    I am Tim Lordan, Executive Director of the Internet Education 
Foundation (IEF).

About Us
    IEF is a non-profit, 501(c)(3) organization dedicated to educating 
the public and policymakers about the potential of a decentralized 
global Internet to promote democracy, communications, and commerce. In 
furtherance of this mission, IEF executes two main projects: the 
Congressional Internet Caucus Advisory Committee \1\ and the GetNetWise 
Project. \2\ Working on the former project has allowed IEF to closely 
follow the development of policies and practices aimed at ensuring that 
children have safe and rewarding experiences online. Through the latter 
project IEF works to educate parents on the steps they can take to keep 
their children safe online.
---------------------------------------------------------------------------
    \1\ The Congressional Internet Caucus Advisory Committee (ICAC) is 
a diverse group of public interest, non-profit and industry groups 
working to educate Congress and the public about important Internet-
related policy issues. See http://www.netcaucus.org.
    \2\ GetNetWise is a public service provided by Internet industry 
corporations and public interest organizations to help ensure that 
families have safe, constructive, and educational or entertaining 
online experiences. The GetNetWise coalition wants Internet users to be 
just ``one click away'' from the resources they need to make informed 
decisions about their family's use of the Internet. GetNetWise is a 
project of the Internet Education Foundation with an advisory board to 
children's online safety experts and advocates. See http://
www.getnetwise.org.
---------------------------------------------------------------------------
    The Congressional Internet Caucus Advisory Committee has held over 
a half-dozen Congressional education panels and technology 
demonstrations on the state of the art in keeping children safe online. 
For these Congressional briefings we have assembled experts in the 
field of children's online safety--from law enforcement officials to 
technologists.
    In developing the GetNetWise.org site we rely on similar experts in 
the field of child safety to develop our educational materials. 
Further, our industry partners bring important technical expertise to 
the project. The site includes precautionary tips, short video 
tutorials and suggested actions to take to combat various cyber threats 
including kids' Internet safety and privacy. In the last year alone, 
the site has attracted over 200,000 unique visitors, and is widely 
recognized as a critical resource for parents looking for information 
on how best to protect their children online. In fact PC Magazine lists 
GetNetWise as one of its ``Top 100 Websites'' they ``can't live 
without.'' \3\ In addition to tips the GetNetWise.org site also 
includes a searchable database of over 70 parental empowerment tools 
that provides parents with detailed information about tools that filter 
sexually explicit content, limit a child's time online, monitor their 
online activities, and block children from providing information about 
themselves to strangers. This tools database is the cornerstone of the 
GetNetWise website and central to its success. \4\
---------------------------------------------------------------------------
    \3\ ``2004 100 Top Websites You Didn't Know You Couldn't Live 
Without,'' PC Magazine, Apr 20, 2004. Available online at http://
www.pcmag.com/article2/0,1759,1554208,00.asp.
    \4\ Tools database at http://kids.getnetwise.org/tools/.
---------------------------------------------------------------------------
The Challenge
    Access by children to age-inappropriate material is a parenting 
challenge in any medium. Parents must make decisions everyday about the 
types of content that are appropriate for their children at every stage 
of their development. While the concerns families harbor about Internet 
pornography are very real, parents are also realizing that the Internet 
has become an integral and necessary component of their children's 
future success in school and, ultimately, in the workplace. The 
Internet, in all of its myriad manifestations, is not an appliance that 
parents have the option of simply turning off. Nor should they--even if 
they were able.
    It is beyond the scope of my testimony to detail how transformative 
the Internet is becoming to virtually every human endeavor. Obviously, 
this committee understands the Internet's profound affect the Internet 
is having on all manner of commerce. Soon the Internet will become the 
primary conduit to the digital repositories of all human knowledge. 
Even now, when faced with a challenging research assignment, today's 
school children reach for the mouse and keyboard just as naturally as I 
would have reached for my library card. A child's capacity to master 
the Internet--to communicate, to research, to collaborate--will 
directly impact his or her success in future academic and career 
endeavors. Taken one step further, mastery of the Internet today is a 
critical factor in keeping America competitive and culturally relevant 
tomorrow.
    How do parents allow their children to use the Internet for all its 
many and undeniable benefits while at the same time rest assured that 
they are not accessing pornography while online? As any parent can 
attest, parenting is not restful and there are no panaceas.
    Certainly in the decade since the Internet started to become widely 
available, Congressional intervention has provided anything but a 
panacea to the availability of pornography online. Neither the 
Communications Decency Act (CDA) \5\ nor Child Online Protection Act 
(COPA) \6\ has ever been enforced. While the Supreme Court struck down 
the CDA outright, \7\ COPA survives yet, but its outcome is far from 
certain. Even if COPA were to pass constitutional muster, experts say 
that parents would find it of little solace as the vast majority of 
Internet pornography--about 75 percent--comes to the U.S. from overseas 
Web servers outside the jurisdictional reach of U.S. laws and 
enforcement. \8\ This is the conclusion of a blue ribbon, National 
Academy of Sciences panel commissioned by Congress to undertake a study 
of ``computer-based technologies and other approaches to the problem of 
the availability of pornographic material to children on the 
Internet.'' \9\ The panel, chaired by former U.S. Attorney General 
Richard Thornburgh, reached its conclusions after two years of 
research, with the assistance of extensive expert testimony, and 
numerous meetings, plenary sessions, workshops, and site visits.
---------------------------------------------------------------------------
    \5\ See http://www.fcc.gov/Reports/tcom1996.txt at Sec. 223.
    \6\ 47 U.S.C. Sec. 231.
    \7\ See Reno v. ACLU, 521 U.S. 844.
    \8\ See Nat'l Research Council of the Nat'l Academy of Sciences, 
``Youth, Pornography, and the Internet'' (2002) at page 4. The full 
report is also available online in HTML format at 
http://books.nap.edu/html/youth_internet/ and in PDF format at 
http://books.nap.edu/books/0309082749/html/index.html.
    \9\ Id.
---------------------------------------------------------------------------
Parenting Online
    There is no substitute for old-fashioned parenting when it comes to 
keeping children safe online and away from pornography. However, 
responsible parents can employ the assistance of technology tools such 
as content filters with remarkable efficiency. Content filtering and 
other parental empowerment tools are supplements, not substitutes, for 
parenting in the online age. As with any other approach to ensuring 
proper child development, active participation by parents in a child's 
online activities is critical. \10\
---------------------------------------------------------------------------
    \10\ The Nat'l Academy of Sciences report emphasized this point by 
noting `` [t]echnology-based tools, such as filters, can provide 
parents and other responsible adults with additional choices as to how 
best to fulfill their responsibilities. Though even the most 
enthusiastic technology vendors acknowledge that their technologies are 
not perfect and that supervision and education are necessary when 
technology fails, tools need not be perfect to be helpful.'' Id at 15.
---------------------------------------------------------------------------
    Content filters use some of the same technology as your favorite 
search engines. A search engine uses complex mathematical formulas to 
return the most relevant results. The engine examines all the words you 
type in, it analyzes their relation to one another, searches its index 
of websites for similar word relationships. Content filters work in 
much the same way--by mathematically analyzing the relationships 
between words and websites to determine whether the content should be 
blocked. Thus, the text-based nature of today's Internet has enabled 
these filtering tools to work remarkably well.
    Statistics show that parents are starting to use parental 
empowerment tools more and more. A March 2005 report by the Pew 
Internet & American Life Project (Pew) showed a sharp increase in the 
percentage of parents who used filters--compared to those who used 
filters in 2000. \11\ Any number of factors could explain this sharp 
increase. Major Internet service providers provide robust parental 
control tools as a benefit of the service itself. Most of these 
services or software tools use a combination of tools to help parents 
guide their child's experiences online.
---------------------------------------------------------------------------
    \11\ See Pew Internet & American Life Report, ``Protecting Teens 
Online'' 2005 by Amanda Lenhart. The full report is available online at 
http://www.pewinternet.org/PPF/r/152/report_display.asp .
---------------------------------------------------------------------------
    Pew also found that a substantial number of parents have 
implemented ``house rules'' that detail when and for how long children 
can use the Internet. \12\ Also according to Pew, 62 percent of parents 
say that they have ``checked up on where a child has gone online.'' 
\13\
---------------------------------------------------------------------------
    \12\ Pew Report at 10.
    \13\ Pew Report at 11.
---------------------------------------------------------------------------
    The statistics show that parents continue taking their online 
parenting responsibilities seriously. While there are no silver bullets 
to the problem of Internet pornography, the studies and research show 
that a holistic parenting solution can go a long way. The 
Congressionally appointed COPA Commission in its 2000 report to 
Congress shared this view. The commission concluded that the ``most 
effective current means of protecting children from content on the 
Internet harmful to minors include: aggressive efforts toward public 
education, consumer empowerment, increased resources for enforcement of 
existing laws, and greater use of existing technologies.'' \14\ The 
holistic approach includes active involvement in a child's online 
activities, using parental control tools such as filters, and setting 
basic rules for proper Internet use.
---------------------------------------------------------------------------
    \14\ The ``Final Report of the COPA Commission,'' released on 
October 20, 2000, is available online in HTML format at http://
www.copacommission.org/report/ and in PDF format at 
http://www.copacommission.org/report/COPAreport.pdf.
---------------------------------------------------------------------------
Opportunities for Parental Control Solutions in the Age of Convergence
    While the Committee has chosen to bifurcate the Internet hearing 
from the mass media decency hearing, we believe that these seemingly 
disparate issues are headed for a convergence. Digital convergence 
means that the lines separating various types of media platforms are 
blurring. Now, more and more audio and video segments are coursing 
through online and wireless networks, increasingly un-tethered from the 
common Web browser. These segments are streaming to a new array of 
applications and devices in ways never imagined when GetNetWise.org was 
launched in the last millennium. The terms video iPods, IPTV, flash 
video, and vlogging have suddenly entered our daily lexicon. In fact, 
the Internet is starting to become the delivery vehicle of choice for 
traditionally produced mass media content.
    On the one hand these developments pose challenges to industry 
efforts to give users effective parental empowerment tools to protect 
children from inappropriate content. Conversely, because of the power 
and flexibility of information communications technologies multimedia 
convergence presents an incredible opportunity for the industry to 
develop intuitive, flexible and powerful parental control solutions 
that parents can use.

The Challenge of Multimedia Convergence
    As it becomes easier to host, distribute, and access video content 
online, filters will have to evolve to keep up. Until just recently 
Internet content was limited to HTML-wrapped text and static images. 
While Internet video has been a concern for parents for some time now, 
online video always seemed inextricably bound to its World Wide Web 
text platform, and easily filtered by software tools. The multimedia 
Internet of tomorrow will very likely contain the same content as mass 
media networks. Even today, video content produced for network 
television is available for viewing on Apple iTunes and Google Video. 
Further, the Internet is starting to become the dominant ecommerce 
distribution mechanism for popular music.
    A substantial amount of the multimedia content coming online lacks 
basic ratings information that would otherwise be present if delivered 
through traditional channels (e.g. broadcast, cable TV, satellite TV, 
DVD, VHS, compact disc, etc.). Ratings information, embedded digitally 
into the content, would be invaluable in developing powerful and 
flexible content control tools for the age of multimedia convergence. 
Internet filtering tools of tomorrow could sort PG-rated content from 
G-rated content by reading the embedded digital ratings information. 
This is the type of nuanced content controls parents will want and 
need.
    Further complicating matters is the distribution of non-traditional 
multimedia over wireless networks and the Internet. While mainstream 
media firms are starting to move their movie, television and music 
content online, the Internet is awash in new multimedia content that is 
sprouting from myriad content producers using readily available and 
low-cost digital tools. Increasingly available and robust broadband 
connections to homes and businesses will also fuel the explosion of 
non-traditional content flowing online.
    Eventually parents will demand that they have the same ability to 
control their children's access to the multimedia content online as 
they do the content from their television, DVD player, local cinema, or 
record store. The COPA Commission was prescient in recommending in its 
report to Congress in 2000 that ``as we move forward, it is important 
that technologies to protect children reflect next-generation Internet 
systems and the convergence of old and new media.'' \15\
---------------------------------------------------------------------------
    \15\ See Final Report of the COPA Commission, at 39.
---------------------------------------------------------------------------
The Opportunity
    These challenges can be met and the possibilities for parental 
controls in the multimedia Internet of tomorrow are truly breathtaking. 
The smart devices connected to the Internet are capable of performing 
any number of complex tasks given the proper information. A former 
Federal Communications Commission Chairman once famously quipped that a 
television set is nothing more than a toaster with pictures. With 
respect to the intelligence built into the device itself, the metaphor 
may not be far off when compared with computers or other similar 
multimedia devices.
    It is difficult to stand here today and ponder the innovations of 
tomorrow that will provide parents intuitive and flexible parental 
control tools to help them meet the challenges of parenting in the 
digital age. Yet we believe that by working together with industry at 
all levels to develop some voluntary industry best practices and 
technical guidelines, the content, software and technology industries 
can meet this challenge and create framework to help empower parents as 
we hurtle towards convergence.

Next Steps
    To meet these challenges and seize these opportunities IEF is 
convening a working group of leading thinkers, family advocates, 
consumer groups, and technologists to explore practical solutions for 
promoting parental empowerment as multimedia platforms converge. During 
a full-day discussion on February 17, 2006, IEF will bring together 
members of its GetNetWise Advisory Board to help explore the issues 
related to multimedia convergence and parental empowerment. A select 
group of experts in various fields will be asked to attend and comment 
on different social, technical and policy issues. We believe that this 
is an important undertaking and necessary to assure that parental 
control technologies of tomorrow meet parents' needs.
    This is an important time because we are just moments ahead of the 
curve on this issue. The project that we are starting will require the 
participation of content producers, software developers, information 
intermediaries, broadband providers and parents themselves. Our goals 
in promoting a solutions-oriented discussion on Multimedia Convergence 
and Parental Controls are three-fold.
    First and foremost, we want to assist parents in making informed 
and nuanced decisions about the multimedia content their children 
access whether it comes over the air, down from a satellite, over a 
broadband connection, or through a mobile entertainment device.
    Second, we want to develop strategies to help assure that 
multimedia content includes appropriate ratings information and that 
distribution intermediaries are able to interpret the information and 
display it--ultimately enabling access control for underage users.
    Third, we want to help educate parents how to understand the 
various ratings schemes so that they can make informed decisions about 
what content they will let their child access.

    The Chairman. Thank you very much.
    Mr. Cambria is the counsel to the Adult Freedom Foundation. 
Pleased to hear from you, Mr. Cambria.

   STATEMENT OF PAUL J. CAMBRIA, JR., GENERAL COUNSEL, ADULT 
                       FREEDOM FOUNDATION

    Mr. Cambria. Thank you. Thank you, Chairman Stevens, 
Senator Inouye, and distinguished Members. I thank you for the 
opportunity to speak to you today about this important national 
topic.
    I am general counsel to the Adult Freedom Foundation, but I 
am also counsel to numerous individual and corporate clients 
who offer lawful adult-oriented entertainment to interested 
adults.
    In years of representing the adult-entertainment industry, 
I've come to know firsthand the commitment of the industry to 
providing adults, and not children, with legal, mature 
entertainment. The perspective I have gained through more than 
a quarter century I think is unique among the panel members 
here today.
    My own views concerning adult entertainment are not only 
influenced by my profession, my experiences, but they're also 
tempered by my experiences as a father of five children, all 
girls, between the ages of 2 and 16. With teenagers at home, I 
share the concerns of parents and Members of this Committee for 
the welfare of children in all their activities, including 
online communication, but I also want them to appreciate that 
the true freedom of living under our system of government means 
that we do not succumb to efforts to restrict First Amendment 
rights of the majority of adults by unlawfully restricting 
access to non-obscene and, therefore, lawfully protected 
material.
    Lawful adult expression is accepted in mainstream America, 
in both the marketplace of ideas and in the commercial 
marketplace. The Adult Video News, which is a trade-industry 
paper publication, estimates, as we have heard here today, that 
the revenue in 2005 from such material was approximately $12 
billion, with over $2.5 billion generated from the Internet. 
The Free Speech Coalition reported, in its 2005 White Paper, 
nearly half of the retail outlets in the United States sell or 
rent adult titles, which generated revenue in excess of $3.95 
billion. Approximately 40 percent of American hotels offer 
adult videos, while the Nation's major cable and satellite 
television providers offer many channels, as well.
    A Nielsen/NetRatings study estimated that approximately 34 
million Americans visited adult entertainment sites on the 
Internet during August of 2003, and, on an average day, 
American adult websites have as many as 60 million unique 
visitors, far more than we see for the top news sites in the 
world.
    Given this indisputable popularity, adult entertainment on 
the Internet is clearly an acceptable form of legal 
entertainment for a substantial segment of our community.
    The Committee asked what role government should play in 
protecting children on the Internet. My answer is, government 
clearly plays a major role and has provided a variety of 
powerful tools sufficient to address any concern it may have 
about adult expression on the Internet, not the least of which 
is the willingness of the adult-entertainment industry, as 
evidenced by your gracious invitation to me here today, and my 
words and efforts to work with Congress and work with the 
Department of Justice, to demonstrate that the adult-
entertainment industry is interested in fashioning effective 
solutions to the concerns that we have here today.
    As I have listened this morning, I realize just how far 
behind we are in communication. Mr. Valenti, this morning, the 
various things that he said, I agree with and think could be 
applied, as well, to the adult side with regard to, for 
example, ratings--self-ratings of the materials. Self-ratings 
of the materials could dovetail with filtering processes, which 
allow parents to block, at the destination computer--the one in 
the home--sites that are unwanted as far as parents are 
concerned, for children, but, at the same time, not censor 
unlawfully the flow of information which would be available and 
acceptable to an adult, who would have the right to acquire 
this kind of material.
    The adult-entertainment industry has been a staunch 
supporter of efforts by groups that are against child 
pornography. They are involved in supporting groups that are 
against child pornography. They are involved in reporting cases 
of child pornography. They've been involved in offering and 
paying rewards for those involved in child pornography.
    I think that the adult-entertainment industry is certainly 
ready, willing, and able to discuss, in a productive manner, a 
rating system much like we heard about this morning--obviously, 
tailored to the content that we're dealing with--the same as 
the music industry is involved in voluntarily, and the same as 
we have with some video games, and others. Every American 
website is governed by the Federal obscenity laws and the child 
pornography laws. Adult-entertainment producers had been 
meticulously verifying the age of performers long before they 
were required to do so by Federal law. You passed the CAN-SPAM 
Act of 2004. It protects children by regulating the market, by 
American companies. And it certainly has been doing a good job, 
as we heard again here this morning.
    Congress doesn't need to burden Internet speech, 
particularly with controls that are not constitutional. And 
we've seen some examples of attempting to do that, and the 
Supreme Court has struck them down.
    I submit to you that a dot-kids domain would be the same as 
a family tier situation that you were discussing here this 
morning, and that a dot-kids domain would be far more 
beneficial than a dot-xxx domain, because, in a dot-xxx domain, 
foreign countries could totally ignore that and feel that they 
weren't bound by it and still send the material in; whereas, a 
dot-kids domain would be a situation where, if you programmed 
your computer so you could only accept that, that would mean 
that that material, fit for children, would be all that that 
computer would access. And that seems to be a more workable 
solution.
    I've exceeded my time here. I apologize for that. I 
obviously welcome this opportunity. I hope that this is the 
beginning of an ongoing opportunity to attempt to come up with 
solutions. The adult-entertainment industry is interested in 
coming up with solutions, and in cooperating, and in helping 
the filtering process be successful. I welcome your questions, 
and I, again, thank you for this opportunity.
    [The prepared statement of Mr. Cambria follows:]

  Prepared Statement of Paul J. Cambria, Jr., General Counsel, Adult 
                           Freedom Foundation

    Good afternoon. Thank you for the opportunity to speak with you 
today about this important national topic. I am Paul Cambria, general 
counsel to the Adult Freedom Foundation, and counsel to numerous 
individual and corporate clients who offer lawful adult-oriented 
entertainment to interested adults via magazines, movies, and the 
Internet. During my years of representing the adult entertainment 
industry, I have come to know first hand the commitment of the industry 
to providing adults, not children, with legal, mature entertainment. 
The perspective I have gained through more than a quarter century 
representing individuals and businesses involved in adult entertainment 
is probably unique among the panel members you will hear from today. It 
is my hope that my remarks will bring some balance to a discussion 
before this Congress that is too often dominated by a vocal minority 
intent on vilifying expression protected by our Constitution.
    My own views concerning adult entertainment and, in particular, its 
availability on the Internet, are informed by my professional 
associations, but are tempered by my experiences as a father of five 
children. With teenagers at home, I share the concerns of parents and 
the Members of this Committee for the welfare of children in all of 
their activities, including online communication. But I also want them 
to appreciate the true freedom of living under a government that does 
not succumb to efforts by a motivated minority to restrict the First 
Amendment rights of the majority of adults by way of speech-limiting 
schemes camouflaged as child protection or ``pornography'' initiatives.
    Indeed, the pejorative phrase ``Internet pornography'' wrongly 
marginalizes legitimate adult expression that is accepted by mainstream 
America in both the marketplace of ideas and the commercial 
marketplace. Americans spend billions of dollars on adult entertainment 
each year. Adult Video News, the industry's trade magazine, estimates 
2005 industry revenue at approximately $12.6 billion, with over $2.5 
billion generated by adult Internet entertainment. The Free Speech 
Coalition also reports in its 2005 White Paper that nearly half of the 
retail outlets in the United States that sell or rent videos also carry 
adult titles and, in 2002, adult video and DVD rentals and sales at 
these stores exceeded $3.95 billion. Adult movies are available in 
approximately 40 percent of American hotels, and the Nation's major 
cable and satellite television providers offer many channels of adult 
programming.
    And, of course, adult entertainment is popular among Internet 
users. A Nielsen/NetRatings study in 2003 estimated that approximately 
34 million Americans visited adult entertainment sites on the Internet 
during August of that year. On an average day, American adult 
entertainment websites have as many as 60 million unique visitors--far 
in excess of the unique visitors to even the top news sites in the 
world. Given its indisputable popularity, Internet adult entertainment 
cannot be written off as mere ``pornography'' at the whim of those who 
refuse to acknowledge that it is an acceptable form of legal 
entertainment for a substantial segment of our community.
    This Committee asks whether the government should play a role in 
controlling so-called ``pornography'' on the Internet. My answer is 
that the government already plays a major role, and has at its disposal 
a variety of powerful tools sufficient to address any concern it may 
have about adult expression on the Internet--not the least of which is 
the willingness of the adult entertainment industry to work with 
Congress to fashion effective solutions to concerns that are proven to 
be legitimate.
    Contrary to the claims of those who wish to stifle any adult 
expression with an erotic theme, the adult entertainment industry does 
not exploit children. The industry does not employ child performers, 
and does not condone access by minors to materials created for the 
entertainment of adults. Put simply, the market for adult entertainment 
producers is adults, not children. In fact, the adult entertainment 
industry is a staunch supporter of efforts by the Association of Sites 
Advocating Child Protection (ASACP), and also supports voluntary 
labeling and content-rating, and the use of parental filters such as 
Netnanny.
    Moreover, adult businesses on the Internet are currently subject to 
an array of legal requirements. Every American website is governed by 
the requirements of Federal obscenity laws. Similarly, these websites 
must also comply with strict Federal child pornography laws. 
Consequently, adult entertainment producers were meticulously verifying 
that their performers were of the age of majority long before Federal 
law in 1995 required them to keep performer identification records.
    Additionally, the 2004 CAN-SPAM Act protects children by regulating 
the marketing by American companies of adult materials through e-mail. 
Several states have also enacted laws prohibiting the dissemination of 
harmful materials to minors, and these laws compliment long-standing 
state obscenity and child pornography laws that can also apply to adult 
entertainment websites.
    Consequently, before Congress acts to further burden Internet 
speech protected by the First Amendment, it should consider the 
objective need for additional laws, and it should avail itself of the 
adult entertainment industry's repeatedly rejected offers to assist 
Congress in fashioning effective and lawful solutions. Congress cannot 
control through legislation the illegal activities of overseas 
webmasters or spammers, whose business practices reflect negatively on 
the Internet as a whole. As seen after the implementation of the CAN-
SPAM Act, foreign webmasters will continue to engage in illegal and 
unethical activities with impunity, resulting in no noticeable impact 
from the end user's standpoint. It is unjust to punish American 
webmasters, who are attempting to run ethical and legal businesses, 
with over-regulation in response to problems caused by those who are 
beyond the reach of the United States law, and it is equally unfair to 
exclude the adult entertainment industry from the political process of 
resolving issues central to the industry.
    While no system is perfect, effective means of controlling 
children's access to adult material on the Internet presently exist. 
For instance, a 2005 study by the Pew Internet and American Life 
Project revealed that 54 percent of Internet-connected families use 
some sort of filter or monitoring software. Additionally, parents 
themselves have the means to restrict their children's access to 
material they deem inappropriate for minors, and implementation of a 
``.KIDS'' domain would assist them in this endeavor.
    The adult entertainment industry would also welcome the opportunity 
to work with Congress and the Department of Justice to explore the 
potential for age verification systems that employ constitutionally 
valid standards or a voluntary rating system for adult-oriented content 
similar to those used by the Motion Picture Association of America, the 
recording industry, and the video game industry. In the global context 
of the Internet, the development of effective and affordable voluntary 
solutions, with the help of the adult entertainment industry, will 
certainly have a broader impact than additional laws that burden only 
American Internet businesses while diminishing their global 
competitiveness, and stifle in a constitutionally unacceptable manner 
what is perhaps the world's most valuable source of entertainment and 
information.
    I thank the Honorable Senators again for inviting me to testify 
today. I welcome the opportunity to answer any questions that the 
Committee Members may have.

    The Chairman. Well, thank you very much, Mr. Cambria.
    The balance of the programming industry has the burden of 
doing the rating. Why don't you just rate them yourselves?
    Mr. Cambria. I think that what we've lacked is a structure. 
We've lacked a dialogue with authorities, with either Congress 
or with law enforcement----
    The Chairman. No, no, no, not Congress. I'm talking about, 
when you offer a program, it ought to be rated as adult-only 
and marked so that it cannot be misunderstood.
    Mr. Cambria. And I don't think that any adult producer 
would disagree with that.
    The Chairman. But you don't do it now.
    Mr. Cambria. I agree that what we need is organization, and 
we need a belief that it will be meshed with, for example, 
filtering----
    The Chairman. Well, in my advice----
    Mr. Cambria.--so that it means something.
    The Chairman.--you need to tell your clients, they'd better 
do it soon, because----
    Mr. Cambria. I----
    The Chairman.--we'll mandate it, if you don't.
    Mr. Cambria. I take that advice seriously, and I appreciate 
it.
    The Chairman. Thank you.
    Now, Ms. Platt, we've had questions about filtering 
software. Now, could you tell us, do you market filtering 
software with your AOL presentations?
    Ms. Platt. Yes, we do. And, actually, some of our 
advertising, even on TV over the years, has talked about the 
AOL parental controls.
    The Chairman. And we've got people down there looking at 
that presentation now, about the V-Chip. Do you go through the 
process of educating people on how to use the filtering 
process?
    Ms. Platt. We employ a different tiered approach to 
educating our customers about parental controls. We do it, you 
know, kind of a spreading information of marketing materials, 
putting information online, but, more importantly, we choose to 
put the information in parents' hands right as they are 
creating accounts for their children.
    On AOL, you can have up to seven screen names that use the 
account, get e-mail and different things like that. The first 
account is the adult/parent account that is opened up with a 
credit card. From there, the parent can create user names for 
other members of the household, including maybe a spouse or, 
you know--not necessarily all children. But when the master 
holder of the account goes to create a secondary account of any 
kind on AOL, they are asked, right off the bat, is that user 
going to be a child? Are they going to be under the age of 13, 
or, if not under the age of 13, they are given the choice to 
pick different categories--13-to-15-year-old, 16-to-17-year-
old, or else 18-and-over. And so, right at the outset, you 
know, trying to educate parents that they need to have controls 
in place, we push them through a process where they can't even 
avoid communicating about whether or not the user is going to 
be a child.
    Once the account gets set up, the parent presumably will 
have chosen parental controls for their child. There are 
various e-mails that we send out. I mentioned in my oral 
testimony, and also my written testimony, the AOL Guardian 
report that we provide to parents, where they actually can sign 
up to get a list of the websites that their child has been to, 
and also who their child has sent e-mails to, or received e-
mails from, as well as instant messages. So, there's ongoing 
communication with the parent about what the parental controls 
mean.
    Say a parent chooses to set up the account, but, at the 
time, it's not meant for the child; and so, they set it up as 
an adult account, and then they realize that they're letting 
their child use it. We make information available throughout 
the service. In our safety areas, we actually have a keyword, 
parental controls. We put different promotions from time to 
time in our programming areas to talk about parents and 
children online and safety. So, we employ a variety of 
different push mechanisms to get information out there.
    The Chairman. Well, that's all nice. I wonder, you weren't 
here this morning when we heard about the new initiative of the 
people involved in satellite, cable, and broadband, and now 
broadcasting, to have an initiative through the Advertising 
Council to bring a common education program to families on how 
to use the devices and the techniques that are there now to 
block or to, in effect, filter out with a V-Chip, programs that 
parents may not want their children to see. Is AOL involved in 
any Internet provider/supplier, I don't know what the generic 
term would be, to get everyone involved to see if we can have a 
common education program, like the television media and the 
radio media are trying to do?
    Ms. Platt. Well, you're correct, I was not here earlier 
today for that. As indicated in my written testimony, AOL 
engages in a variety of different efforts where we partner with 
other companies in the business to launch education campaigns, 
I mentioned Safety Clicks!, America Links Up, and there are a 
few others that are mentioned where we're going out there to 
spread the word, leveraging the resources of not only AOL, but 
other players in the industry, to get information out there 
into the hands of parents, and also information directly to 
children about safety tips they can follow about being safe 
online.
    There is a difference, though, you know, in terms of the 
different filtering that different companies provide, and how 
it works and things like that. One of the approaches that AOL 
has taken from the beginning, recognizing that a lot of parents 
don't really understand what this technology is all about, and 
they're completely confused by what their kids seem to know so 
much more than they do, is to create these kind of default 
settings for parents, so that it's not too confusing. So, you, 
as a parent, you can tell us the age of your child, and we will 
tell you what the normal setting would be, what would be the 
normal appropriate content for that child's age. We then also 
allow parents to customize the parental controls. Say they're 
really confident about their technical ability, or they want to 
give a little bit more room to their child after the child has 
been online for a year or so and they've spent some time with 
them, seeing that the child is acting mature online, then they 
can go in and fine-tune, change the Internet settings, change 
the instant-messaging settings, or what the case might be. But, 
really, understanding that we pull together, as a company, 
resources that we have to understand that there's content out 
there on the Web. We can use our own internal technology to 
rate websites out there to determine what is appropriate and 
what is not appropriate, creating a sort of white-list 
approach. Say, in the kids environment, we will ensure that 
kids are not going to be able to get to websites that have 
inappropriate content. And so, that there isn't a sense that 
the child is on the parental controls, they start complaining 
to their parent, ``Well, why am I on this restrictive 
control?'' Because parents often succumb to the pressures of 
their child, saying, ``Oh,'' you know, and take off the 
parental controls. We also provide additional content that we 
create specifically for the children. We have an award-winning 
kids channel, called KOL, which provides really engaging, age-
appropriate content.
    The Chairman. That's all well and good, but, you know, in 
my State, I just got the figure the other day, 90 percent of 
our children in sixth grade are totally computer literate. 
Their parents aren't. Now, we are looking at these other 
entities that we talked to this morning, and organizations. But 
with a family, where a husband and wife both work out of the 
house, you've got three kids coming back to the house between 2 
and 4 o'clock in the afternoon, and then the parents come home 
at about 6 o'clock, it seems to me that the industry itself 
that's marketing all this computer stuff has a burden it has 
not shouldered yet, and that is to find a way so that those 
parents, who really don't understand it that well, can ensure 
that their children are not getting in this pornography while 
they're not there. Do you agree with that?
    Ms. Platt. I do, and I welcome the opportunity to increase 
awareness. And I think that, you know, not only industry 
players need to come together, but we need to work with public 
and private partnerships.
    But let me say----
    The Chairman. Well, wait a minute.
    Ms. Platt.--one piece of----
    The Chairman. I'm over--I've run over my time. I'm a 
chairman that usually uses the gavel on other people, so I have 
to do it to myself.
    Senator Inouye?
    Sorry about that. He may ask you the same question, I don't 
know.
    Senator Inouye. Please continue.
    Ms. Platt. Thank you. What I wanted to say is, contrary to 
some research, actually, that I think Tim quoted from Pew, 
there was a study conducted late last year, the AOL-NCSA study, 
that found that only 8 percent of parents using the Internet, 
as a rule--not AOL users--are actually using filters on their 
computers. That means there are households with kids in the 
household. Now, AOL, the percentage is significantly higher. 
But that, to me, points to a problem that I called it earlier, 
the laziness of parents, or perhaps the overwhelmed nature that 
parents have in dealing with these computer issues, where we 
have to make it easy for them, but we have to also reinforce to 
them that they do need to consider it part of their parental 
duty.
    Mr. Lordan. If I may interject, Senator, with regard to 
your question earlier about the Ad Council, I do recall several 
years ago there was a movement to try to get the Ad Council to 
spearhead a campaign about keeping kids safe online, either 
from predators or from pornographers. And I don't know if it 
ever did go anywhere. But an interesting thing, as far as 
education goes, you see that the major online providers, like 
MSN, AOL, Earthlink, and others, are essentially competing in 
marketing the effectiveness of their parental controls. Now, 
obviously, Tatiana would say that theirs is the best. That's a 
healthy, healthy marketing campaign. If parents are--if they 
view that as a competitive advantage against their competitors, 
then they're obviously advertising the strength of their 
parental controls. I mean, that's a huge amount of money that 
you would otherwise have to raise from a nonprofit way and go 
to the Ad Council to do. I don't know how much advertising 
dollars are going into those marketing campaigns, but it's 
substantial.
    The other thing is that Congress, when it comes to asking 
these questions about how to keep kids safe online, sometimes 
they ask the questions, but the commissions that are tasked to 
do it over a 2-year period, or a 1-year period, like the COPA 
Commission or the National Academy of Sciences, don't have the 
funding to actually spread the word. In fact, the COPA 
Commission, when it was asked to do its study, didn't even have 
the funds to do the report. They cobbled together a few dollars 
over the course of a year, they did a tremendous amount of 
research. They didn't have the money to even host a website to 
hold all their findings and their research. We scraped the 
Internet Caucus Advisory Committee, which advises the 
Congressional Internet Caucus Senator Burns chairs--we cobbled 
together a few dollars to host that website, and we host it, to 
this day, because the report to Congress is available for 
download today, but they didn't have the funds to do it.
    So, there's a lot that can be done on the education 
campaign, not only from government, but also industry. But you 
don't see a lot of the cable companies or the broadcasters 
competing--doing marketing campaigns about the effectiveness of 
their V-Chip versus the other guy's V-Chip.
    The Chairman. Well, you're wrong. They're down there right 
now doing it.
    Mr. Lordan. But as far as a marketing, almost education 
campaign, I'm not sure we've seen that in the past, not the way 
that these online companies are competing.
    The Chairman. No, because at our request, they're working 
together. That was the question----
    Mr. Lordan. Perhaps.
    The Chairman.--Why doesn't the computer area work together?
    Mr. Lordan. Oh, they do.
    Ms. Platt. They do.
    Mr. Lordan. They do. All the time. There are lots of 
different initiatives, as I mentioned earlier in my testimony.
    The Chairman. Sorry, Daniel.
    Senator Inouye. Dr. Weaver, what is your definition of 
``child pornography''?
    Dr. Weaver. Well, now, my research hasn't focused on child 
pornography. I rely on the definitions that have been provided 
by Federal legislation, and refined by the courts, when I use 
that term. Obviously, it's pornography involving children. I 
think there's also a condition that, you know, individuals who 
appear to be children. I think that's part of our necessity 
for----
    Senator Inouye. I can understand----
    Dr. Weaver.--age verifications.
    Senator Inouye. As a witness said, 12-year-old, that's 
obviously a child. But in some definitions they speak of 
``involving minors.'' What would that mean?
    Dr. Weaver. I'm not sure. I mean, I have, in our research, 
we've seen images, we've seen videos, that appear to involve 
women, very young women, 13-14. But it's impossible to be sure, 
because some people are very petite, et cetera, et cetera. 
There is one, a famous case within the adult industry of an 
actress who made a considerable number of productions, and we 
later learned she was 16 years old when she was making those. 
So, I think it's not an easy issue. I think the problem is that 
anytime we use images of an individual who appears to be 
particularly young, a minor, then we're perhaps conveying a 
message to potential young viewers that, ``Hey, there's 
somebody just like me.'' And that might be problematic. And I 
think it is.
    I would like to, if I could, point out one other issue. 
Actually, a couple. Today, we've heard a lot of discussion 
about the adult-video industry, and my experience, and our 
research, suggests that we need to be careful when we think 
about the adult-video industry, because it's much like 
discussing, and the best metaphor I can come up with is the 
Alcohol Distillers Association. Sure, there are legitimate 
individuals, legitimate organizations, that are trying to do 
the best they can to operate within the law, but you know, 
there are plenty of moonshiners out there, too. And I think 
that's the problem today on the Internet, is that the Internet 
provides those people who want to operate outside the bounds of 
organizational constraints, perhaps provided by the adult 
industry, et cetera, with the opportunity to do so, to have 
these websites where content is free.
    We did one study where we got a group of undergraduate 
students involved, and, in one afternoon, we, at 3 o'clock, 
with permission from the State of Virginia, began searching 
websites. We started off with a search term from the 1960s, 
``free love,'' you know, hypothesizing that a student might be 
wanting to write a paper about the youth movement of that era. 
We instantly got, I think, 25,000 hits, the first eight of 
which were porn sites. And, in 1 hour, recording the content 
onto videotape, we never got to anything other than the porn 
sites. And many of them were just streaming movies, complete 
images of people engaged in sexual behaviors in all sorts of 
public locations, et cetera. And, as a parent, I couldn't help 
but imagine what that would be like, to have a child come home 
at 3 o'clock in the afternoon and sit down at the computer, and 
most children are so sophisticated, as Chairman Stevens noted. 
There's no problem to override, you know, any sort of software 
controls that most filtering companies offer, most providers 
offer, or go to a friend's house and work on their computer. 
It's just really frightening, when you think about the amount 
of material that is perhaps illegitimate, outside of the adult 
industry's management structure, that's being streamed to, and 
available to children today.
    Senator Inouye. Every witness today, in the morning and 
this afternoon, has touched upon parental obligation or 
parental responsibility. And yet, our study indicates that, on 
the V-Chip for television, only 15 percent of the parents are 
either aware of it, or know how to use it, or have used it. And 
Ms. Platt just said that--8 percent. Are you suggesting that 
the filtering process is not working?
    Ms. Platt. I'm suggesting that there needs to be greater 
work done in the area of educating parents about the 
availability of filters that are there for them, and how to use 
them.
    Dr. Weaver. Senator, if I may, how many homes have you 
walked into, remember 10-15 years ago, where the videocassette 
recorder always flashed the incorrect time? How many people had 
trouble programming the time on their home videocassette 
recorders? And now we're expecting parents to be able to figure 
out how to manage the Web filters, et cetera, on their 
computers? I think we have not done the job that needs to be 
done to, number one, talk about sexual images, talk about 
perhaps how they're not a forbidden fruit that needs to be 
craved by young adults, but also to provide parents with the 
understanding of how to program their V-Chip, how to program 
their digital cable box, how to get their computer to block 
certain images that are inappropriate.
    Senator Inouye. My concern with this hearing is that our 
first witness this morning said that, in a poll, about 70 
percent of the parents who were polled said they were very much 
concerned about pornography and obscenity, adult and children. 
In the same poll, they asked question number two, do you want 
the Government involved? Seventy percent said no. My concern is 
that this matter has become--has incensed Members of Congress 
to a degree that if the industry is not going to act upon it, 
Congress will. And, oftentimes, Congress does a lousy job.
    Dr. Weaver. Well, if I may, I've talked to a lot of my 
colleagues, and I think that one approach that would be very, 
very valuable is to treat this as a public-health crisis. We 
now have a situation where we have sexual-education content, 
essentially, that is more vivid, more salient than anything we 
could hope to teach in our school systems, that's being offered 
free every afternoon on the Internet. And I think that we 
really need to consider this, and put the resources that have 
done so well at helping us reduce smoking, reduce drunk 
driving, et cetera, to work, perhaps, to talk about, you know, 
``Pornography is not something that's cool and hip. It's 
something else,'' and that perhaps those who use pornography, 
as many who smoke or drink and drive, will realize that it's 
perhaps not a socially acceptable activity. The problem is, 
we're not saying anything, as a society; we're staying quiet. 
And by staying quiet, we're conveying acceptance or approval.
    Senator Inouye. I notice my time is up.
    The Chairman. Senator Allen?
    Senator Allen. Thank you, Mr. Chairman. Thank you for these 
good questions, very probing questions. And thank you all for 
your testimony here.
    There are the legal distinctions in here about free speech 
that Mr. Cambria's talking about, and all of us understand the 
concept of free speech, freedom of expression, and Dr. Weaver 
talking about, ``This is commercial speech.'' What AOL is 
trying to do, and Mr. Lordan was talking about educating 
people--it's not so much into--you get the child-pornography 
situation, and that has to be prosecuted. The pornography, 
though, that ends up invading a computer, whether it's adware 
or these pop-ups, are something that takes over your computer, 
but it is also something that you don't have any controls to 
stop, unless you use these various sort of filters, which we've 
figured out, at least in our household. Thank goodness, my wife 
Susan's father taught computers at Piedmont Virginia Community 
College, and so he's the most tech-savvy one in our family, and 
helped us do this.
    The e-mails and so forth that come in are clearly 
commercial, in my point of view. They are not e-mailing people 
whatever it is because it's a freedom-of-expression matter; 
they want to entice you to open the e-mail up. Once you open it 
up, sometimes you don't know what it is, you think it's your 
sister's name, so ``Oh well, my sister's written me,'' and you 
open it up. Well, no, it was not your sister or someone you 
know.
    So, at any rate, it--can we have a discussion here between 
Mr. Cambria and Dr. Weaver on this question of whether or not 
this is commercial. Why would that not be considered 
commercial? Mr. Cambria and Dr. Weaver, I'll allow you some 
time to posit and argue your case, because there is a 
distinction between commercial speech versus freedom of 
expression. And would you answer what Dr. Weaver said? Or, Dr. 
Weaver, if you want to state your case, very quickly, let's get 
a discussion going on that, because there is a different sort 
of regulation. We can try to get dot-kids. And I've been a big 
supporter of that. But, reportedly, that's just not doing very 
well, it doesn't have the content, and so forth. I agree with 
you, as a strategy, that does make more sense. Unfortunately, 
as a practical matter, dot-kids, from what I've been told, has 
not been successful, as supportive as I have been for it.
    So, Mr. Cambria, why would that not be considered 
commercial speech----
    Mr. Cambria. Well----
    Senator Allen.--these ads or these e-mails or these pop-
ups?
    Mr. Cambria. Well, first of all, commercial----
    Senator Allen.--which is regulated differently, and it may 
be a deceptive practice.
    Mr. Cambria. Well, there's a regulation with regard to 
commercial speech that always talks about the issue of fraud. 
If there's fraud involved with it, then it's not protected 
speech. If it's obviously not a situation of fraud, it is 
protected speech. And I think that's what we're talking about 
here, there are a number of filters and other programs, and I'm 
not the technophile here to come up with that, but the way I 
understand it, in my own home with my own children--I happen to 
use the AOL system with my children, and it works great. There 
are a number of things that are coming in that, if I understand 
Dr. Weaver correctly, talking about movies and/or other images. 
It seems to me these can easily be blocked by the various 
filtering techniques that we have. On the other hand, they 
should be blocked at the destination computer, if you will, the 
one in the home. But you should be in a position where an adult 
in the home can unblock and then have access to this speech, 
which is lawful speech. And that really comports with the First 
Amendment and free speech, and it comports with my 
understanding of the issue, which is, How do we live in this 
society, where we have this wonderful thing called free speech, 
and it's legal speech? Once we get to the legal part of it, 
meaning adults have a right to it, how do we then address our 
concerns with regard to our children?
    Senator Allen. All right, but----
    Mr. Cambria. And it can be addressed.
    Senator Allen.--it may--I'm not saying there's not a right 
to it. Just like you can order whatever you may want, whatever 
may be legal, through the mails, but you could not, I don't 
believe, legally send, through snail mail, regular mail, or 
U.S. Postal Service mail some of the things that get solicited 
that are e-mailed to you and come up on one's computer if you 
don't have all these proper filters. And there are all these 
roadblocks you can put in, but most people apparently are not 
doing that. So, would----
    Mr. Cambria. Well, on that----
    Senator Allen.--you have a legal right to send that kind of 
thing, unsolicited, to people's mailboxes?
    Mr. Cambria. Well, obviously, you know, we have the CAN-
SPAM Act, and it appears to be working. And it's obviously 
triggered by certain keywords. And we heard, that it was, in 
fact, cutting down tremendously on the number of e-mails and so 
on that people are receiving. Clearly if somebody is deceptive 
in speech, I believe that the government can reach that. If, on 
the other hand, the speech is straightforward, if it's adult, 
if it's not obscene, if it's not child pornography, then it is 
lawful. It is lawful for all purposes. And then the question 
is, well, what do we do about it with regard to our children? 
And then we come up with a measure that doesn't violate the 
Constitution, but solves our problem. What we've been 
discussing here is not only parents being responsible--put the 
computer in a room where you can observe it, observe your 
child, go through Guardian, which I do every day to my 
children, and all of that, but the thing is that you, in 
addition, come up with a way of filtering it that doesn't stamp 
out the speech. I mean, it's the old adage about, you know, 
burn the house down to light the candle. I mean, we don't do 
that. And we can't do that. And we've seen, historically, that 
each time Congress has attempted to, if you will, douse more 
than they're able to legally, the Supreme Court's struck that 
down.
    Senator Allen. Well, and for good reason, because I'm not 
one who's in favor of the government restraining people's First 
Amendment rights, but they also do have a right to what they 
would like to have in their homes or their properties and so 
forth, and some of this ends up being offensive. And I'm trying 
to find logical, legal, constitutional ways, mostly 
technological, as my solution.
    Now, Dr. Weaver, I've gone over, 30 seconds, in----
    Dr. Weaver. I'll try. I'll try. First of all----
    Senator Allen. Yes.
    Dr. Weaver.--we need to recognize, I discussed this with 
two communication-law specialists, the way that the explicit 
images are now being used as advertisements on the Internet, at 
Web portals, they both consider it, and they're very familiar 
with this area of the law, to be examples of commercial speech.
    Second, this dependence upon filtering by the adult-video 
industry is just not right. It's really--there's recent 
research that shows, for example, that attempts to search terms 
like ``public,'' ``sexual health,'' ``sex education,'' 
``teenage advice about sex,'' resulted in 1,500-plus websites 
being revealed. Sixty-three percent of those were pornography 
vendors. So the notion that you're going to be able to, as a 
family member, as a parent, somehow--that's deceptive use of 
those key terms. That's all there is to it. Someone has used 
``teenage advice about sex'' deceptively to attract people to 
their porn vending site, and that's commercial speech, a 
deceptive practice.
    Senator Allen. Thank you. Thank you.
    And thank you, Mr. Chairman, Ranking Member, for your 
forbearance. Thank you.
    The Chairman. Thank you very much.
    And thank you, Senator Pryor, for waiting. But you're on.
    Senator Pryor. Thank you. Thank you so much, Mr. Chairman.
    Mr. Cambria, let me start with you, if I can. I tried to 
listen very carefully to your testimony. And I don't want to 
put words in your mouth, but it sounds as if you can--you do 
support the use of filters, as long as they're structured the 
right way. Is that right?
    Mr. Cambria. I think, as long as they don't violate the 
First Amendment. And I get that, actually, from what our 
Supreme Court told us----
    Senator Pryor. Right.
    Mr. Cambria.--in a unanimous decision.
    Senator Pryor. Right. And age verification, in terms of the 
user's age verification, you wouldn't be opposed to that, it 
sounds like.
    Mr. Cambria. Absolutely not. And I might point out, though, 
as Dr. Weaver mentioned the one case, there have been three 
cases in perhaps the last 25 years of the detection of underage 
performers, and, in those cases, those individuals had 
government-issued impeccable proof of age. And when it was 
discovered, the material was obviously recalled, they were not 
using it. It's contraband, and so on. So, it's not like it's a 
pervasive issue.
    Senator Pryor. Now, let me ask this. Do you believe that 
the U.S. Government currently has enough law on the books?
    Mr. Cambria. Yes, I do.
    Senator Pryor. OK. Now, let me ask--I asked an earlier 
panel about this dot-xxx.
    Mr. Cambria. Yes.
    Senator Pryor. And, a moment ago, you said you think that 
dot-kid is better?
    Mr. Cambria. Better.
    Senator Pryor. I want to know why.
    Mr. Cambria. Well, two reasons. Dot-xxx would not--you--we 
can't, in this country, unless we're able to engage in treaties 
with the rest of the world, impose that on the rest of the 
world. So, it----
    Senator Pryor. Well, how can you--OK, with dot-kid, you 
can't, either.
    Mr. Cambria. Well, except dot-kids only has one content, 
and that's what fit for children-only. So, in other words, if 
I'm home with my daughters, and I configure my computer, very 
easily, so that it only accepts dot-kids on the Internet, I 
know that's all general----
    Senator Pryor. But what if----
    Mr. Cambria.--information.
    Senator Pryor. But what if, then, folks who are peddling 
pornography and child predators, et cetera, somehow could latch 
onto the dot-kid. Isn't that a gateway into your house?
    Mr. Cambria. Well, but, again, now, you know, we're 
assuming something that would be a technology question. I don't 
know the answer to that. I'm told that that--that that can be 
prevented.
    Senator Pryor. I'll say this----
    Mr. Cambria. Like the family tier, for example----
    Senator Pryor. For the----
    Mr. Cambria.--that you were talking about this morning.
    Senator Pryor. For the Committee's benefit, I like the dot-
xxx, and I think that's something that we ought to pursue. And 
I don't know exactly how that should be structured, but I think 
there's value in us at least throwing that on the table and 
talking about it at some point in the future.
    What about the problem--and let me first ask about your 
industry and your association.
    Mr. Cambria. Yes.
    Senator Pryor. You represent filmmakers? Do you represent 
Internet websites? Both? What----
    Mr. Cambria. Yes.
    Senator Pryor. What percentage----
    Mr. Cambria. All of the above.
    Senator Pryor. OK. You called it, a few moments ago, the 
adult-entertainment industry.
    Mr. Cambria. Yes.
    Senator Pryor. Does that mean that everybody that makes 
adult films is a member of your association?
    Mr. Cambria. No. No, no, no.
    Senator Pryor. What percentage?
    Mr. Cambria. No. The individuals who I represent, the Adult 
Freedom Foundation, is basically a group of very influential 
producers and distributors.
    Senator Pryor. But it could be a very small percentage, as 
well.
    Mr. Cambria. Except that it would be like saying, if you 
were dealing with Mr. Valenti, and he was representing 
Universal, Sony, Paramount, and so on, that that wouldn't drive 
the rest of the industry.
    Senator Pryor. OK.
    Mr. Cambria. I think the people that I represent drive, and 
would drive, the rest of the industry.
    Senator Pryor. But my guess is, it really would only be a 
tiny fraction of the overall number of websites out there.
    Mr. Cambria. Here's how that would work. This is the first 
time Chairman Stevens has invited us here. And I think it's the 
same as years ago, when the Motion Picture Association was 
invited to Congress, and all of a sudden they came up with a 
rating system, because Congress wanted to know, and we respond 
to our government, for sure. And this is the first time. And 
now I'm invited here. Now I clearly will try to make this a 
reality. Congressman--I'm sorry, Senator Stevens said, today, 
``Your clients should do that.'' And I agree with that. And I 
take that as a message and mandate to my clients that we should 
do that.
    Senator Pryor. Yes. My advice on that would be to pay very 
careful attention to what Senator Stevens says, because I think 
he's taking a shot across your bow as a warning shot. And it 
sounds to me like if you don't clean up your act, we will.
    Mr. Cambria. I might welcome a shot across the bow, rather 
than one between the eyes.
    [Laughter.]
    Senator Pryor. Yes. Well, the one between the eyes sounds 
like it's coming, if you guys don't clean up your act.
    Mr. Cambria. Yes.
    Senator Pryor. But, one last----
    Mr. Cambria. And we're here to do that--not clean up our 
act. We're here to cooperate and to try to make these filters 
work. And I think we need to do that. In other words, the same 
way as the motion-picture individuals have to rate their 
movies--and they do it voluntarily--and the music people and 
the video game people--if we do that, that allows us to 
dovetail with filtering companies so that we can then 
accomplish this goal. The worst thing is when the First 
Amendment collides with the rights of children in a way where 
one or the other has to give. The best situation is when we're 
in the middle, and we can solve the problem without hurting one 
or the other.
    Senator Pryor. Let me ask one last question, if I may. And 
that is, foreign versus domestic, how much, in your estimation, 
if you know--how much Internet pornography actually comes from 
overseas or comes offshore? My impression is that, even some of 
the people that we think of as U.S.-based may have offshore 
sites, and it's very difficult to regulate. And this may be 
particularly true with the free stuff. There's a lot of free 
stuff out there that tries to lure people onto the websites, 
and my impression is, a lot of the offshore people use the free 
lures to try to get people on their websites.
    Mr. Cambria. I think that it's almost the same. And I only 
say this because that's just my opinion; I don't have any 
statistics. I'm sure that we could attempt to put some 
together. But I think it basically mirrors what it does for the 
general motion-picture industry, that most of the films that 
are out there and generating the money and are having the most 
attraction come from here, but there will always be those from 
other countries--like today, again, Mr. Valenti said, ``There 
may be--there were only 200-and-some movies made in Hollywood, 
and they're great movies, but there may be 1,000 movies made 
out there, and the rest aren't so good.'' There are movies made 
all over Europe, and a lot of times we see those movies the 
subject of prosecution by the Federal Government because they 
are--they are movies that go beyond what the usual producers do 
here. And we see that--I've been involved in cases like that 
many times, and we see them from other countries, and it's far 
beyond what's done here. But I think most of it is done here.
    Senator Pryor. Mr. Lordan?
    Mr. Lordan. The statistics that you were looking for with 
regard to how much pornography on the websites is overseas or 
domestic is an important question. The National Academy of 
Sciences, in their 2002 report, determined that three-quarters 
of all Internet pornography is washing upon our shores from 
overseas sites. So, that led them to the conclusion that, even 
if you were--you know, put us--I'm no First Amendment lawyer, 
but if you--even if the COPA statute, or the CDA statute before 
it, were effective, you still have the problem with this 75 
percent, which will undoubtedly increase after a domestic 
ruling. How do you deal with that? And that's why they pursued 
the holistic approach of parental education, parenting, and 
filtering tools.
    Mr. Cambria. Which, by the way, I think indicates that 
controls that stifle what American producers do punish American 
producers for speech that's not unlawful and have no reach on 
foreign producers. And so, why would that happen? And that 
doesn't accomplish our goal, which is to be able to protect our 
children, in our opinion, from what they should be protected 
from.
    The Chairman. Thank you very much, Senator.
    And thank you all. Thank you, particularly, Mr. Cambria, 
for coming, at----
    Mr. Cambria. Thank you.
    The Chairman.--our request. And we thank you all for your 
presentation.
    We'll continue our series of hearings Tuesday morning at 10 
o'clock, and we're going to be dealing with broadcast and 
audio-flag questions on that day.
    Thank you.
    [Whereupon, at 4:34 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Supplementary Information Submitted by Paul J. Cambria, Jr., General 
                   Counsel, Adult Freedom Foundation

    During the hearing before the Committee on January 19, 2006, 
Senator Pryor commented, ``in terms of the user's age verification, you 
wouldn't be opposed to that, it sounds like.'' Misapprehending the 
point, I responded, ``absolutely not,'' and pointed out that in the 
past twenty-five years there had been only three cases of underage 
performers in the adult entertainment industry, and all three had 
government-issued proof of age.
    Of course, Senator Pryor was referring to Internet user age 
verification--not performer age verification--an entirely different 
issue requiring a different response. While I am obviously in favor of 
verifying the ages of performers (as are my clients and the adult 
entertainment industry at large), I do not agree that Internet user age 
verification is a practical or effective solution at this time.
    As the Supreme Court emphasized in Ashcroft v. America Civil 
Liberties Union, 542 U.S. 656, 667-68, 124 S.Ct. 2783 (2004), use of 
filtering software is preferable to employing age-verification systems. 
Indeed, Congress' own Commission on Child Online Protection researched 
ways to protect children online and concluded that end-user filters are 
more effective than age verification requirements. See, Commission on 
Child Online Protection (COPA), Report to Congress, pp. 19-21, 23-25, 
27. Further, age-verification requirements will not affect the 
substantial amount of explicit content coming from overseas. Rather, 
American adults will be burdened with credit card access hurdles that 
only encourage content providers to locate offshore to avoid costly 
age-verification obligations.
    I favor the Supreme Court's perspective: the evidence shows that 
end-user filtering is more effective than age-verification, and less 
burdensome on First Amendment rights. As the Court observed on this 
point:

        One argument to the contrary is worth mentioning--the argument 
        that filtering software is not an available alterative because 
        Congress may not require it to be used. That argument carries 
        little weight, because Congress undoubtedly may act to 
        encourage the use of filters. We have held that Congress can 
        give strong incentives to schools and libraries to use them. 
        United States v. American Library Assn., 539 U.S. 194, 123 
        S.Ct. 2297, 156 L.Ed.2d 221 (2003). It could also take steps to 
        promote their development by industry, and their use by 
        parents. It is incorrect, for that reason, to say that filters 
        are part of the current regulatory status quo. The need for 
        parental cooperation does not automatically disqualify a 
        proposed less restrictive alterative. Playboy Entertainment 
        Group, 529 U.S., at 824, 120 S.Ct. 1878. (``A court should not 
        assume a plausible, less restrictive alternative would be 
        ineffective; and a court should not presume parents, given full 
        information, will fail to act''). In enacting COPA, Congress 
        said its goal was to prevent the ``widespread availability of 
        the Internet'' from providing ``opportunities for minors to 
        access materials through the World Wide Web in a manner that 
        can frustrate parental supervision or control.'' Congressional 
        Findings, note following 47 U.S.C. Sec. 231 (quoting Pub. L. 
        105-277, Tit. XIV, Sec. 1402(1), 112 Stat. 2681-736). COPA 
        presumes that parents lack the ability, not the will, to 
        monitor what their children see. By enacting programs to 
        promote use of filtering software, Congress could give parents 
        that ability without subjecting protected speech to severe 
        penalties.

    Ashcroft v. ACLU, 542 U.S. at 669, 124 S.Ct. 2783. (emphasis added)

    Parental supervision and end-user filtering are the most effective 
options. The adult entertainment industry would welcome the opportunity 
to work with Congress, the Department of Justice, and the major 
Internet service providers and filtering software companies to devise 
effective and constitutional methods of protecting children online 
through filtering and parental supervision.
    Notably, many adult websites already self-rate for use in 
conjunction with popular filtering software programs. Many of these 
companies self-rate under the auspices of the Internet Content Rating 
Association (ICRA). The ICRA is an international, nonprofit 
organization with a goal of making the Internet safer for children 
through self-rating of website content. Self-rating of websites started 
in 1996, when the Recreational Software Advisory Council developed the 
``RSACi'' rating system for nudity, sex, language, and violence. In 
2000, the ICRA substantially expanded the scope of self-rating with the 
unveiling of a more comprehensive, international rating system intended 
to work hand-in-hand with parental filtering systems.
    Today, working cooperatively with many of the world's major 
Internet companies--AOL, AT&T, Verizon, Microsoft, T-Mobile--the ICRA 
operates a free self-rating system that meshes with its own free 
ICRAplus parental filter and other popular filtering systems to give 
parents effective means to control their children's access to content 
on the Internet. More information about these important parental 
control efforts can be found at www.icra.org.
    Significantly, since the Committee's hearing on January 19, 2006, I 
have met with ICRA representatives and key self-rating and filtering 
experts on behalf of the Adult Freedom Foundation to discuss an even 
more aggressive industry self-rating program. These discussions 
continue to develop, and I would be happy to report back to Chairman 
Stevens and the Committee on our progress.
                                 ______
                                 
 Prepared Statement of Kat Sunlove, Legislative Affairs Director, Free 
                            Speech Coalition

    On behalf of the Board of Directors and members of Free Speech 
Coalition, we wish to thank Chairman Stevens, Ranking Minority Member 
Inouye and Members of the Senate Commerce Committee for this 
opportunity to submit testimony in regards to your recent hearing on 
``Protecting Children on the Internet.''
    Founded in 1991, Free Speech Coalition (FSC) is the trade 
association of the adult entertainment industry in the United States 
and has a membership of more than 3000 adult businesses, nightclubs. 
webmasters, attorneys and other individuals who make their living 
providing legal adult entertainment products and services for a 
receptive and appreciative adult market. A good portion of our 
membership is also composed of fans and customers who benefit from our 
defense of their free speech and privacy rights. FSC represents both 
the largest and most recognizable names in the industry as well as 
hundreds of smaller and medium-sized entrepreneurs. from mom-and-pop 
video stores to home-based websites. These business owners employ 
thousands of Americans in well-paying jobs across the Nation and 
contribute many millions in State and Federal taxes. According to Adult 
Video News (January 2006), the adult entertainment industry contributes 
more than $12 billion annually to our national economy.
    Many of our members are also parents and grandparents and sincerely 
share your concerns about protecting our children from accessing adult 
material on the Internet or becoming the target of child predators. As 
was pointed out by several witnesses at your January 19th hearing, 
there is no ``silver bullet,'' no comprehensive solution to this 
problem because of today's easy access to the Internet, its ubiquitous 
presence in American life and perhaps most significantly, the 
international nature of the Internet. The fact that some 60 percent or 
more of adult material available online comes to our shores from 
overseas greatly complicates our efforts to find an effective solution 
to the problem of protecting minors here in the United States.
    But let us first define our terms. Child pornography is, as Ms. 
Parsky of the Department of Justice pointed out at your hearing, a 
misnomer, which would be better referred to as a ``record and 
exhibition of child sexual abuse.'' It is reprehensible and tragic and 
is appropriately illegal; not only its transmission over the Internet 
but even mere possession can be, and rightly is, prosecuted. America's 
adult entertainment industry universally rejects such material and 
supports government efforts to eradicate it, including the fact that 
FSC offers and has awarded a $10,000 reward for information leading to 
the conviction of a child pornographer. In furtherance of our goal of 
protecting children in the online world, the adult entertainment 
industry supports the Association of Sites Advocating Child Protection, 
a non profit organization that is dedicated to eliminating child 
pornography on the Internet. (See more on ASACP at www.asacp.org ).
    Obscenity, on the other hand, is material which has been deemed by 
a court of law to exceed a community's standards of decency and which 
lacks serious literary, scientific, political or artistic value, as 
judged by the reasonable person. However, undesirable obscene material 
may be to a community, it should not be confused with a depiction of 
child sexual abuse in which an actual minor is harmed.
    Sexually explicit materials, which are legal, constitutionally 
protected forms of adult entertainment, while not obscene for adults, 
are obviously not appropriate for minors. Materials in this category. 
widely available on the Internet, create problems in how to shield 
minors while still allowing adults access. Often referred to as 
``pornography,'' it is this legal adult product, along with sex 
education materials, sex toys, marital aids, novelties and other adult 
entertainment products, that members of FSC produce and sell to an 
adult marketplace. While not everyone enjoys or appreciates the full 
range of adult entertainment, it is nevertheless a legal and indeed 
very popular line of goods.
    The Supreme Court has determined that some of these non-obscene 
materials, which are legal for adults, are nevertheless obscene as to 
minors and their distribution to minors may be prohibited. Material 
deemed ``harmful to minors,'' when placed in the Internet environment, 
means that the transmission of constitutionally protected, i.e., non-
obscene, material to adults becomes more difficult to accomplish 
without risking unintended access to it by minors. FSC is actively 
seeking secure means of preventing access to such materials by minors 
without intruding on the free speech rights of adult consumers.
    As was pointed out by Senator Inouye at the hearing, a recent 
survey showed that while a large majority of American parents are 
concerned about the problem of protecting their children on the 
Internet, an equally large majority do not want the government involved 
in determining solutions for them. Parents and grandparents, as well as 
others in a supervisory role, such as teachers or librarians, are the 
first line of defense in protecting children from accessing 
inappropriate materials on the Internet. Common sense public policies 
like putting filtering software in libraries on computers used by 
minors, while leaving some computers unfiltered for adult use only, 
serve to protect children without restricting the free speech rights of 
adults. By sending the challenge to the Child Online Protection Act of 
1998 (COPA) back to a lower court, the Supreme Court brought attention 
to the question of whether parental use of filters on the home computer 
may not offer the best approach to protecting our children. Results of 
that lower court inquiry are pending.
    Historically. it was possible to segregate adult material in the 
public marketplace so that children could be prevented from accessing 
matter intended only for adults. A brick and mortar store could provide 
signage at the doorway, turning young people away. If a youngster dared 
venture inside, a gatekeeper was available to check an identification 
document and thus determine the potential customer's age. With the 
advent of the Internet and its prevalence in society, the challenges 
are much more complex.
    America's legitimate adult entertainment industry eagerly awaits a 
technology to serve as that gatekeeper that will accurately, 
economically, and with minimal intrusion into adults' privacy rights, 
determine the age of the website visitor prior to exposure to adult 
material. Numerous attempts have been made in this regard. with varying 
degrees of success. Despite the failure to date to develop such a fully 
effective Age Verification System (AVS), many adult websites have 
employed one of the models currently available, despite their expense 
and their reduction in adult customer traffic. Some of the problems 
involved are that many adults do not wish to reveal personal data 
needed to determine their age and Americans move frequently, so that 
drivers' license and other such databases may be as much as six months 
out of date. Plus, AVS is an imperfect screening mechanism in that an 
under-age person can input personal data from their parents or another 
adult and still gain access to materials.
    In the COPA legislation, Congress essentially endorsed the use of a 
credit card for restricting access to adult sites by minors. 
Unfortunately, in recent years credit card companies have indicated 
that they do not wish to be used in this way and indeed, are now 
issuing credit cards to minors without unique identifiers as to the age 
of the holder, making their use less effective for age verification.
    Another approach to inhibiting minors' access to adult sites is 
through meta-tagging--either of adult content or conversely, by tagging 
content suitable for children. In fact, many, if not most adult sites 
based in the United States do employ some form of self-rating through a 
voluntary program such as Internet Content Rating Association (ICRA). 
Such identification at the ``html code level'' of a website allows for 
effective filtering at the destination computer, i.e., in the home or 
school computer used by a child. Most U.S.-based adult websites do 
utilize ICRA or other systems to self-rate as containing adult content. 
Unfortunately, meta-tagging of American adult websites does nothing to 
prevent the entrance of adult material from foreign sites. For this 
reason, while we support voluntary adult content tagging, it is the 
position of FSC that tagging of sites suitable for children and the 
broader use of a ``.kids.us'' domain would be far more effective. FSC 
urges the establishment of a dot-kids Top Level Domain (TLD), the 
Internet equivalent of a safety zone, much like a bicycle lane on a 
highway. In this way, a destination computer can be set to filter in 
those sites that are tagged as suitable for children, automatically 
eliminating any sites--including overseas sites--that are not so 
designated.
    Some arguments were advanced at the January 19th hearing in favor 
of establishing ``.xxx'' as a TLD for use by adult entertainment. 
Although this solution has a surface appeal, there are substantial 
practical and constitutional obstacles to the success of such a 
proposal. If it is voluntary, there is little likelihood that it would 
be universally adopted by U.S.-based adult websites. Even for those who 
do adopt a dot-xxx identity, they will certainly not wish to drop their 
branded dot-com identity, in which they no doubt have a large financial 
investment in marketing and in customer loyalty. The result would be an 
expansion of available adult material, not a reduction, a fact which 
has elicited conservative opposition to the .xxx concept. And finally, 
if American adult dot-coms did not voluntarily migrate to .xxx. this 
would create a strong incentive for our government to mandate such 
segregation, raising tough First Amendment issues. Such a content-based 
approach restricting legal adult expression is unlikely to survive 
judicial scrutiny. Resulting court challenges would ultimately delay 
any resolution of the problem. And of course, overseas sites would not 
be affected by a U.S. adoption of .xxx. They would simply fill the 
marketing void created by the absence of U.S. adult dot-com sites. 
Clearly, .xxx is not a solution to the problem of keeping minors away 
from adult materials.
    FSC respectfully requests the commencement of a genuine dialogue 
between representatives of our industry and the government. A candid 
and respectful discussion of these issues is needed, including 
consideration of the various alternative approaches to resolving them, 
the pros and cons of those approaches and finally, a consensus 
resolution that meets both our common goals of protecting children as 
well as protecting legal speech on the Internet. We look forward to 
working productively with the Committee on this complex and important 
problem facing today's society.

                                  <all>

</pre></body></html>
